APPENDIX

1a
APPENDIX A
REVISED: December 20, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-10011
STATE OF TEXAS; STATE OF ALABAMA; STATE
OF ARIZONA; STATE OF FLORIDA; STATE OF
GEORGIA; STATE OF INDIANA; STATE OF
KANSAS; STATE OF LOUISIANA; STATE OF
MISSISSIPPI, by and through Governor Phil Bryant;
STATE OF MISSOURI; STATE OF NEBRASKA;
STATE OF NORTH DAKOTA; STATE OF SOUTH
CAROLINA; STATE OF SOUTH DAKOTA; STATE
OF TENNESSEE; STATE OF UTAH; STATE OF
WEST VIRGINIA; STATE OF ARKANSAS; NEILL
HURLEY; JOHN NANTZ,
Plaintiffs – Appellees,
v.
UNITED STATES OF AMERICA; UNITED STATES
DEPARTMENT OF HEALTH; HUMAN SERVICES;
ALEX AZAR, II, SECRETARY, U.S. DEPARTMENT
OF HEALTH AND HUMAN SERVICES; UNITED
STATES DEPARTMENT OF INTERNAL
REVENUE; CHARLES P. RETTIG, in his Official
Capacity as Commissioner of Internal Revenue,
Defendants – Appellants,
STATE OF CALIFORNIA; STATE OF
CONNECTICUT; DISTRICT OF COLUMBIA;
STATE OF DELAWARE; STATE OF HAWAII;
STATE OF ILLINOIS; STATE OF KENTUCKY;

2a
STATE OF MASSACHUSETTS; STATE OF NEW
JERSEY; STATE OF NEW YORK; STATE OF
NORTH CAROLINA; STATE OF OREGON; STATE
OF RHODE ISLAND; STATE OF VERMONT;
STATE OF VIRGINIA; STATE OF WASHINGTON;
STATE OF MINNESOTA,
Intervenor-Defendants – Appellants.
Appeals from the United States District Court
for the Northern District of Texas
[Filed: December 18, 2019]
Before KING, ELROD, and ENGELHARDT, Circuit
Judges.
JENNIFER WALKER ELROD, Circuit Judge:
The Patient Protection and Affordable Care Act
(the Act or ACA) is a monumental piece of healthcare
legislation that regulates a huge swath of the nation’s
economy and affects the healthcare decisions of
millions of Americans. The law has been a focal point
of our country’s political debate since it was passed
nearly a decade ago. Some say that the Act is a muchneeded solution to the problem of increasing
healthcare costs and lack of healthcare availability.
Many of the amici in this case, for example, argue that
the law has extensively benefitted everyone from
children to senior citizens to local governments to
small businesses. Others say that the Act is a costly
exercise in burdensome governmental regulation that
deprives people of economic liberty. Amici of this
perspective argue, for example, that the Act “has
deprived patients nationwide of a competitive market
for affordable high-deductible health insurance,”
leaving “patients with no alternative to . . .
skyrocketing premiums.” Association of American
Physicians & Surgeons Amicus Br. at 15.

3a
None of these policy issues are before the court.
And for good reason—the courts are not institutionally
equipped to address them. These issues are far better
left to the other two branches of government. The
questions before the court are far narrower: questions
of law, not of policy. Those questions are: First, is there
a live case or controversy before us even though the
federal defendants have conceded many aspects of the
dispute; and, relatedly, do the intervenor-defendant
states and the U.S. House of Representatives have
standing to appeal? Second, do the plaintiffs have
standing? Third, if they do, is the individual mandate
unconstitutional? Fourth, if it is, how much of the rest
of the Act is inseverable from the individual mandate?
We answer those questions as follows: First, there
is a live case or controversy because the intervenordefendant states have standing to appeal and, even if
they did not, there remains a live case or controversy
between the plaintiffs and the federal defendants.
Second, the plaintiffs have Article III standing to bring
this challenge to the ACA; the individual mandate
injures both the individual plaintiffs, by requiring
them to buy insurance that they do not want, and the
state plaintiffs, by increasing their costs of complying
with the reporting requirements that accompany the
individual mandate. Third, the individual mandate is
unconstitutional because it can no longer be read as a
tax, and there is no other constitutional provision that
justifies this exercise of congressional power. Fourth,
on the severability question, we remand to the district
court to provide additional analysis of the provisions of
the ACA as they currently exist.
I.
On March 23, 2010, President Barack Obama

4a
signed the ACA into law. See Patient Protection and
Affordable Care Act, Pub. L. No. 111-148, 124 Stat. 119
(2010). The Act sought to “increase the number of
Americans covered by health insurance and decrease
the cost of health care” through several key reforms.
See Nat’l Fed’n of Indep. Bus. v. Sebelius (NFIB), 567
U.S. 519, 538 (2012).
Some of those reforms implemented new consumer
protections, aiming primarily to protect people with
preexisting conditions. For example, the law prohibits
insurers from refusing to cover preexisting conditions.
42 U.S.C. § 300gg-3. The “guaranteed-issue
requirement” forbids insurers from turning customers
away because of their health. See 42 U.S.C. §§ 300gg,
300gg-1. The “community-rating requirement” keeps
insurers from charging people more because of their
preexisting health issues. 42 U.S.C. § 300gg-4. 1 The
law also requires insurers to provide coverage for
certain types of care, including women’s and children’s
preventative care. 42 U.S.C. § 300gg-13(a)(3)-(4). 2
The ACA features a few other consumer-protection reforms of
note. For example, the Act requires insurance companies to allow
young adults to stay on their parents’ health insurance plans
until they turn 26; prohibits insurers from imposing caps on the
value of benefits provided; and mandates that the insurance
plans cover at least ten “essential health benefits,” including
emergency services, prescription drugs, and maternity and
newborn care. See 42 U.S.C. §§ 300gg-14 (young adults), 300gg11 (restriction on benefit caps) , 18022 (essential health benefits).
The ACA also requires employers with at least fifty full-time
employees to pay the federal government a penalty if they fail to
provide their employees with ACA-compliant coverage. 26 U.S.C.
§ 4980H.
2
The women’s preventative care provision was at issue in a trio
of recent Supreme Court cases. See Zubik v. Burwell, 136 S. Ct.
1557 (2016); Wheaton College v. Burwell, 573 U.S. 958 (2014);
Burwell v. Hobby Lobby Stores, Inc., 573 U.S. 682 (2014); see also
California v. U.S. Dep’t of Health & Human Servs., No. 19-15072,
1

5a
Other reforms sought to lower the cost of health
insurance by using both policy “carrots” and “sticks.” 3
On the stick side, the individual mandate—which
plaintiffs challenge in the instant case—requires
individuals to “maintain [health insurance] coverage.”
26 U.S.C. § 5000A(a). If individuals do not maintain
this coverage, they must make a payment to the IRS
called a “shared responsibility payment.” 4 Id.; see also
King v. Burwell, 135 S. Ct. 2480, 2486 (2015).
The individual mandate was designed to lower
insurance premiums by broadening the insurance
pool. See 42 U.S.C. § 18091(2)(J) (“By significantly
increasing . . . the size of purchasing pools, . . . the

2019 WL 5382250 (9th Cir. Oct. 22, 2019); Pennsylvania v.
President United States, 930 F.3d 543 (3d Cir. 2019), as amended
(July 18, 2019); DeOtte v. Azar, 393 F. Supp. 3d 490, 495 (N.D.
Tex. 2019).
3
Some opponents of the ACA assert that the goal was not to
lower health insurance costs, but that the entire law was enacted
as part of a fraud on the American people, designed to ultimately
lead to a federal, single-payer healthcare system. In a hearing
before the House Committee on Oversight and Government
Reform, for example, Representative Kerry Bentivolio suggested
that Jonathan Gruber, who assisted in crafting the legislation,
had “help[ed] the administration deceive the American people on
this healthcare act or [told] the truth in [a] video . . . about how
[the Act] was a fraud upon the American people.” Examining
Obamacare Transparency Failures: Hearing Before the H. Comm.
on Oversight and Government Reform, 113th Cong. 83 (2014)
(statement of Rep. Kerry Bentivolio).
4
The Act exempts several groups of people from the shared
responsibility payment. Specifically, the Act provides that “[n]o
penalty shall be imposed” on those “who cannot afford [insurance]
coverage,” on “[taxpayers with income below [the] filing
threshold,” on “[m]embers of Indian tribes,” on those who had
only “short coverage gaps,” or on anyone who, in the Secretary of
Health and Human Services’ determination, has “suffered a
hardship.” 26 U.S.C. § 5000A(e).

6a
[individual mandate] will significantly . . . lower health
insurance premiums.”). When the young and healthy
must buy insurance, the insurance pool faces less risk,
which, at least in theory, leads to lower premiums for
everyone. See 42 U.S.C. § 18091(2)(I) (positing that the
individual mandate will “broaden the health insurance
risk pool to include healthy individuals, which will
lower health insurance premiums”). The individual
mandate thus serves as a counterweight to the ACA’s
protections for preexisting conditions, which push
riskier, costlier individuals into the insurance pool.
Under the protections for consumers with preexisting
conditions, if there were no individual mandate, there
would arguably be an “adverse selection” problem:
“many individuals would,” in theory, “wait to purchase
health insurance until they needed care.” Id. 5
The Act also sought to lower insurance costs for
some consumers through policy “carrots,” providing
tax credits to offset the cost of insurance to those with
incomes under 400 percent of the federal poverty line.
See 26 U.S.C. § 36B; 42 U.S.C. §§ 18081, 18082. The
Act also created government-run, taxpayer-funded
health
insurance
marketplaces—known
as
“Exchanges”—which allow customers “to compare and
purchase insurance plans.” King, 135 S. Ct. at 2485;
see also 42 U.S.C. § 18031. Opponents of the law argue
Opponents of the ACA, however, argue that the Act goes too
far in limiting individuals’ freedom to choose healthcare coverage.
For example, at a House committee hearing, Representative
Darrell Issa argued that one of the “false claims” that the Obama
administration made in passing the Act was that “[i]f you like
your doctor, you will be able to keep your doctor, period. . . . [And
i]f you like your [insurance] plan, you can keep your plan.”
Examining Obamacare Transparency Failures: Hearing Before
the H. Comm. on Oversight and Government Reform, 113th Cong.
2 (2014) (statement of Rep. Darrell Issa, Chairman, H. Comm. on
Oversight and Government Reform).

5

7a
that the law has led to unintended subsidies to keep
plans afloat and insurance companies in the black.
Texas points in its brief, for example, to a
Congressional Budget Office study estimating that
federal outlays for health insurance subsidies and
related spending will rise by about 60 percent over the
next ten years, from $58 billion in 2018 to $91 billion
by 2028. CBO, The Budget and Economic Outlook:
2018 to 2028 at 51 (April 2018), available at
https://tinyurl.com/CBOBudgetEconOutlook-20182028; State Plaintiffs’ Br. at 13-14.
The ACA also enlarged the class of people eligible
for Medicaid to include childless adults with incomes
up to 133 percent of the federal poverty line. 42 U.S.C.
§§ 1396a(a)(10)(A)(i)(VII), 1396a(e)(14)(I)(i); NFIB,
567 U.S. at 541-42. The ACA originally required each
state to expand its Medicaid program or risk losing “all
of its federal Medicaid funds.” NFIB, 567 U.S. at 542.
In NFIB, however, the Supreme Court held that this
exceeded Congress’ powers under the Spending
Clause. Id. at 585 (plurality opinion). But the Court
allowed those states that wanted to accept Medicaid
expansion funds to do so. See id. at 585-86 (plurality
opinion); id. at 645-46 (Ginsburg, J., concurring in
part, concurring in the judgment in part, and
dissenting in part). As a result, the states that have
not participated in the expansion now subsidize,
through their general tax dollars, the states that have
participated in expansion.
Since the Act was passed, its opponents have
attempted to attack it both through congressional
amendment and through litigation. Between 2010 and
2016, Congress considered several bills to repeal,
defund, delay, or amend the ACA. See IntervenorDefendant States’ Br. at 10. Except for a few modest

8a
changes, these efforts were closely fought but
ultimately failed. Intervenor-Defendant States’ Br. at
10-11. In 2017, the shift in presidential
administrations reinvigorated opposition to the law,
but many of these later legislative efforts failed as
well. In March 2017, House leaders pulled a bill that
would have repealed many of the ACA’s essential
provisions. In July 2017, the Senate voted on three
separate bills that similarly would have repealed
major provisions of the Act, but each vote failed. 6
Finally, in September 2017, several Senators
introduced another bill that would have repealed some
of the ACA’s most significant provisions, but Senate
leaders ultimately chose not to bring it to the floor for
a vote. Intervenor-Defendant States’ Br. at 11.
The ACA’s opponents also took their cause to the
courts in a series of lawsuits, some of which reached
the Supreme Court. Particularly relevant here, the
Court, in NFIB, upheld the law’s individual mandate.
567 U.S. at 574. Through fractured voting and shifting
majorities—explained in more detail in Part V of this
opinion—the Court decided that the ACA’s individual
mandate could be read as a tax on an individual’s
decision not to purchase insurance, which was a
constitutional exercise of Congress’ taxing powers
under Article I of the U.S. Constitution. Id.; U.S.
Const. art. I, § 8, cl. 1. The Court favored this tax
interpretation
to
save
the
provision
from
unconstitutionality. Reading the provision as a
standalone command to purchase insurance would
have rendered it unconstitutional. This reading could
not have been justified under the Commerce Clause
6
One of these bills failed by a razor-thin vote of fifty-one
against, forty-nine in favor. See 163 Cong. Rec. S4415 (daily ed.
July 27, 2017).

9a
because it would have done more than “regulate
commerce . . . among the several states.” U.S. Const.
art. I, § 8, cl. 3. It would have compelled individuals to
enter commerce in the first place. 7 NFIB, 567 U.S. at
557-58. The Court also held that the provision could
not be justified under the Constitution’s Necessary
and Proper Clause. Id. at 561 (Roberts, C.J.); id. at
654-55 (Scalia, Kennedy, Thomas, and Alito, JJ.,
dissenting).
In December 2017, the ACA’s opponents achieved
some legislative success. As part of the Tax Cuts and
Jobs Act, Congress set the “shared responsibility
payment” amount—the amount a person must pay for
failing to comply with the individual mandate—to the
“lesser” of “zero percent” of an individual’s household
income or “$0,” effective January 2019. Pub. L. No.
11597, § 11081, 131 Stat. 2054, 2092 (2017); see also
26 U.S.C. § 5000A(c). The individual mandate is still
“on the books” of the U.S. Code and still consists of the
three fundamental components it always featured.
Subsection (a) prescribes that certain individuals
“shall . . . ensure” that they and their dependents are
“covered under minimum essential coverage.” 26
U.S.C. § 5000A(a). Subsection (b) “impose[s] . . . a
penalty” called a “[s]hared responsibility payment” on
those who fail to ensure they have minimum essential
coverage. 26 U.S.C. § 5000A(b). Subsection (c) sets the
amount of that payment. All Congress did in 2017 was
change the amount in subsection (c) to zero dollars. 26
U.S.C. § 5000A(c).
Chief Justice Roberts cautioned that concluding otherwise
would empower the government to compel Americans into all
kinds of behavior that the government thinks is beneficial for
them, including, for example, compelling them to purchase
broccoli. See NFIB, 567 U.S. at 558 (Roberts, C.J.).

7

10a
Two months after the shared responsibility
payment was set at zero dollars, the plaintiffs here—
two private citizens 8 and eighteen states 9—filed this
lawsuit against several federal defendants: the United
States of America, the Department of Health and
Human Services and its Secretary, Alex Azar, as well
as the Internal Revenue Service and its Acting
Commissioner, David J. Kautter. The plaintiffs argued
that the individual mandate was no longer
constitutional because: (1) NFIB rested the individual
mandate’s constitutionality exclusively on reading the
provision as a tax; and (2) the 2017 amendment
undermined any ability to characterize the individual
mandate as a tax because the provision no longer
generates revenue, a requirement for a tax. The
plaintiffs argued further that, because the individual
mandate was essential to and inseverable from the
rest of the ACA, the entire ACA must be enjoined. On
this theory, the plaintiffs sought declaratory relief that
the individual mandate is unconstitutional and the
rest of the ACA is inseverable. The plaintiffs also
sought an injunction prohibiting the federal
defendants from enforcing any provision of the ACA or
its regulations.
The federal defendants agreed with the plaintiffs
that once the shared responsibility payment was
reduced to zero dollars, the individual mandate was no
longer constitutional. They also agreed that the
individual mandate could not be severed from the
ACA’s guaranteed-issue and community-rating
Namely, Neill Hurley and John Nantz.
Namely, Texas, Alabama, Arizona, Florida, Georgia, Indiana,
Kansas, Louisiana, Mississippi, Missouri, Nebraska, North
Dakota, South Carolina, South Dakota, Tennessee, Utah, West
Virginia, and Arkansas. Wisconsin, which was originally a
plaintiff state, sought and was granted dismissal from the appeal.

8
9

11a
requirements. Unlike the plaintiffs, however, the
federal defendants contended in the district court that
those three provisions could be severed from the rest
of the Act. Driven by the federal defendants’ decision
not to fully defend against the lawsuit, sixteen states 10
and the District of Columbia intervened to defend the
ACA.
The district court agreed with the plaintiffs’
arguments on the merits. Specifically, the court held
that: (1) the individual plaintiffs had standing because
the individual mandate compelled them to purchase
insurance; (2) setting the shared responsibility
payment to zero rendered the individual mandate
unconstitutional; and (3) the unconstitutional
provision could not be severed from any other part of
the ACA. The district court granted the plaintiffs’
claim for declaratory relief. Specifically, the district
court’s order “declares the Individual Mandate, 26
U.S.C. § 5000A(a), UNCONSTITUTIONAL,” and the
order further declares that “the remaining provisions
of the ACA, Pub L. 111-148, are INSEVERABLE and
therefore INVALID.” The district court, however,
denied the plaintiffs’ application for a preliminary
injunction. The district court entered partial final
judgment 11 as to the grant of summary judgment for
Namely, California, Connecticut, Delaware, Hawaii, Illinois,
Kentucky, Massachusetts, New Jersey, New York, North
Carolina, Oregon, Rhode Island, Vermont, Virginia, Washington,
and Minnesota.
11 The final judgment is only partial because it addresses only
Count One of the plaintiffs’ amended complaint. Count One
requests a declaratory judgment that the individual mandate
exceeds Congress’ constitutional powers. The district court has
not yet ruled on the other counts in the amended complaint. In
Count Two, the plaintiffs request a declaratory judgment that the
ACA violates the Due Process Clause of the Fifth Amendment. In
Count Three, the plaintiffs request a declaratory judgment that
10

12a
declaratory relief, but stayed judgment pending
appeal. This appeal followed.
On appeal, the U.S. House of Representatives
intervened to join the intervenor-defendant states in
defending the ACA. 12 Also on appeal, the federal
defendants changed their litigation position. After
contending in the district court that only a few
provisions of the ACA were inseverable from the
individual mandate, the federal defendants contend in
their opening brief for the first time that all of the ACA
is inseverable. See Fed. Defendants’ Br. at 43-49.
Moreover, the federal defendants contend for the first
time on appeal that—even though the entire ACA is
inseverable—the court should not enjoin the
enforcement of the entire ACA. The federal defendants
now argue that the district court’s judgment should be
affirmed “except insofar as it purports to extend relief
to ACA provisions that are unnecessary to remedy
plaintiffs’ injuries.” 13 Fed. Defendants’ Br. at 49. They
also now argue that the district court’s judgment
“cannot be understood as extending beyond the
plaintiff states to invalidate the ACA in the intervenor
states.” Fed. Defendants’ Supp. Br. at 10. Simply put,
the federal defendants have shifted their position on
appeal more than once.
the ACA violates the Tenth Amendment. In Count Four, the
plaintiffs request a declaratory judgment that agency rules
promulgated pursuant to the ACA are unlawful. In Count Five,
the plaintiffs request an injunction prohibiting federal officials
from “implementing, regulating, or otherwise enforcing any part
of the ACA.”
12 In addition to the U.S. House, four other states intervened on
appeal to join the original group that defended the Act in the
district court: Colorado, Iowa, Michigan, and Nevada.
13 The federal defendants do not specify which precise provisions,
in their view, injure the plaintiffs and which do not.

13a
II.
We review a district court’s grant of summary
judgment de novo. Time Warner Cable, Inc. v. Hudson,
667 F.3d 630, 638 (5th Cir. 2012). Summary judgment
is appropriate when “the movant shows that there is
no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a); see also Dialysis Newco, Inc. v.
Cmty. Health Sys. Grp. Health Plan, 938 F.3d 246, 250
(5th Cir. 2019). A dispute about a material fact is
genuine if “the evidence is such that a reasonable jury
could return a verdict for the non-moving party.”
Amerisure Ins. v. Navigators Ins., 611 F.3d 299, 304
(5th Cir. 2010) (quoting Gates v. Tex. Dep’t of Protective
& Regulatory Servs., 537 F.3d 404, 417 (5th Cir.
2008)). When ruling on a motion for summary
judgment, the court views all inferences drawn from
the factual record “in the light most favorable to the
non-moving parties below.” Trent v. Wade, 776 F.3d
368, 373 n.1 (5th Cir. 2015).
III.
We first must consider whether there is a live
“[c]ase” or “[c]ontroversy” before us on appeal, as
Article III of the U.S. Constitution requires. U.S.
Const. art. III, § 1. A case or controversy does not exist
unless the person asking the court for a decision—in
this case, asking us to decide whether the district
court’s judgment was correct—has standing, which
requires a showing of “injury, causation, and
redressability.” Sierra Club v. Babbitt, 995 F.2d 571,
574 (5th Cir. 1993). When “standing to appeal is at
issue, appellants must demonstrate some injury from
the judgment below.” Id. at 575 (emphasis omitted).
We conclude, as all parties agree, that there is a

14a
case or controversy before us on appeal. Two groups of
parties appealed from the district court’s judgment:
the federal defendants, and the intervenor-defendant
states. 14 There is a case or controversy before us
because both of these groups have their own
independent standing to appeal. 15
The federal defendants have standing to appeal.
The instant case is on all fours with the Supreme
Court’s decision in United States v. Windsor, 570 U.S.
744 (2013). In that case, the executive branch of the
federal government declined to defend a federal
statute that did not allow the surviving spouse of a
same-sex couple to receive a spousal tax deduction. Id.
at 749-53. The district court ruled that the statute was
unconstitutional and ordered the executive branch to
issue a tax refund to the surviving spouse. Id. at 75455. The executive branch agreed with the district
court’s legal conclusion, but it appealed the judgment
and continued to enforce the statute by withholding
the tax refund until a final judicial resolution. Id. at
757-58.
The Supreme Court ruled that “the United States
retain[ed] a stake sufficient to support Article III
jurisdiction.” Id. at 757. That stake was the tax refund,
which the federal government refused to pay. This
The U.S. House of Representatives, also a party in this case,
intervened in our court after the intervenor-defendant states and
the federal government had filed notices of appeal.
15 Even if only one of these parties had standing to appeal, that
would be enough to sustain the court’s jurisdiction. An intervenor
needs standing only “in the absence of the party on whose side
the intervenor intervened.” Sierra Club, 995 F.2d at 574
(alteration omitted) (quoting Diamond v. Charles, 476 U.S. 54, 68
(1986)); see also Vill. of Arlington Heights v. Metro. Hous. Dev.
Corp., 429 U.S. 252, 264 & n.9 (1977) (exercising jurisdiction
because “at least one” plaintiff had standing to sue).
14

15a
threat of payment of money from the Treasury
constituted “a real and immediate economic injury” to
the federal government, which was sufficient for
standing purposes. Id. at 757-58 (quoting Hein v.
Freedom From Religion Found., Inc., 551 U.S. 587, 599
(2007) (plurality opinion)). As the Court explained,
“the refusal of the Executive to provide the relief
sought suffices to preserve a justiciable dispute as
required by Article III.” Windsor, 570 U.S. at 759; see
also Food Mktg. Inst. v. Argus Leader Media, 139 S. Ct.
2356, 2362 (2019) (concluding that there was a
justiciable controversy because the government
“represented unequivocally” that it would not
voluntarily moot the controversy absent a final judicial
order, and “[t]hat is enough to satisfy Article III”); INS
v. Chadha, 462 U.S. 919, 939 (1983) (holding that
there was “adequate Art. III adverseness” because the
executive branch determined that a federal statute
was unconstitutional and refused to defend it but
simultaneously continued to abide by it).
The instant case is similar. Though the plaintiffs
and the federal defendants are in almost complete
agreement on the merits of the case, the government
continues to enforce the entire Act. The federal
government has made no indication that it will begin
dismantling any part of the ACA in the absence of a
final court order. Just as in Windsor, then, effectuating
the district court’s order would require the federal
government to take actions that it would not take “but
for the court’s order.” Windsor, 570 U.S. at 758. And
just as in Windsor, the federal defendants stand to
suffer financially if the district court’s judgment is
affirmed. 16 As just one example, the district court’s
The dissenting Justices in Windsor objected to the Windsor
majority’s approach to standing. Justice Scalia, for example, said

16

16a
judgment declares the Act’s Medicare reimbursement
schedules unlawful, which, if given effect, would
require Medicare to reimburse healthcare providers at
higher rates. See, e.g., 42 U.S.C. § 1395ww(b)(3)(B)(xi)(xii). Therefore, just as in Windsor, an appellate
decision here will “have real meaning.” 570 U.S. at 758
(quoting Chadha, 462 U.S. at 939). 17
The intervenor-defendant states also have
standing to appeal. While a party’s mere “status as an
intervenor below . . . does not confer standing,”
Diamond v. Charles, 476 U.S. 54, 68 (1986),
intervenors may appeal if they can demonstrate injury
from the district court’s judgment. Sierra Club, 995
F.2d at 574; see also Va. House of Delegates v. BethuneHill, 139 S. Ct. 1945, 1951 (2019); Cooper v. Tex.
Alcoholic Beverage Comm’n, 820 F.3d 730, 737 (5th
Cir. 2016). The intervenor-defendant states have made
this showing because the district court’s judgment, if
ultimately given effect, would: (1) strip these states of
funding that they receive under the ACA; and (2)
threaten to hamstring these states in possible future
litigation because of the district court judgment’s
potentially preclusive effect. 18
that this approach to standing “would have been unrecognizable
to those who wrote and ratified our national charter.” Windsor,
570 U.S. at 779 (Scalia, J., dissenting). We are bound by the
Windsor majority opinion.
17 Just as in Windsor, moreover, principles of prudential
standing weigh in favor of exercising jurisdiction despite the
government’s alignment with the plaintiffs. Just like the
intervenors in Windsor, the intervenor-defendant states and the
U.S. House both put on a “sharp adversarial presentation of the
issues.” Id. at 761.
18 At first glance, it may not be entirely clear how a mere partial
summary judgment on the issuance of a declaratory judgment
would aggrieve anyone. But at oral argument, all parties agreed
that the district court’s partial summary judgment would have

17a
First, the intervenor-defendant states receive
significant funding from the ACA, which would be
discontinued if we affirmed the district court’s
judgment declaring the entire Act unconstitutional.
“[F]inancial loss as a result of’ a district court’s
judgment is an injury sufficient to support standing to
appeal. United States v. Fletcher ex rel. Fletcher, 805
F.3d 596, 602 (5th Cir. 2015). In their supplemental
briefing, the intervenor-defendant states identify a
few examples of the funding sources they would lose
under the district court’s judgment. Evidence in the
record shows that eliminating the Act’s Medicaid
expansion provisions alone would cost the original
sixteen intervening state defendants and the District
of Columbia a total of more than $418 billion in the
next decade. See 42 U.S.C. §§ 1396a(a)(10)(A)(i)(VIII),
(e)(14)(I)(i), 1396d(y)(1). Moreover, the Act’s
Community First Choice Option program gives states
funding to care for the disabled and elderly at home or
in their communities instead of in institutions. See 42
U.S.C. § 1396n(k). Record evidence shows that
eliminating this program would cost California $400
million in 2020, and that Oregon and Connecticut have
already received $432.1 million under this program.
This evidence is more than enough to show that the
intervenor-defendant states would suffer financially if
the district court’s judgment is given effect, an injury
sufficient to confer standing to appeal. See Dep’t of
Commerce v. New York, 139 S. Ct. 2551, 2565 (2019).
The district court’s judgment, if given effect, also
threatens to injure the intervenor-defendant states
binding effect. Indeed, this is partly why the district court issued
a stay. The district court acknowledged that the intervenordefendant states would be prejudiced by the judgment, which
means that the district court understood it to be binding.

18a
with the judgment’s potentially preclusive effect in
future litigation. We have held that “[a] party may be
aggrieved by a district court decision that adversely
affects its legal rights or position vis-á-vis other
parties in the case or other potential litigants.”
Leonard v. Nationwide Mut. Ins., 499 F.3d 419, 428
(5th Cir. 2007) (quoting Custer v. Sweeney, 89 F.3d
1156, 1164 (4th Cir. 1996)). If the federal defendants
began unwinding the ACA, either in reliance on the
district court’s judgment or on their own, the district
court’s judgment would potentially estop the
intervenor-defendant states from challenging that
action in court. This case thus stands in contrast to the
cases in which there was no chance whatsoever of a
preclusive effect. See Klamath Strategic Inv. Fund ex
rel. St. Croix Ventures v. United States, 568 F.3d 537,
546 (5th Cir. 2009) (holding that there was no
threatened injury from potential estoppel from the
appealed-from judgment because that judgment was
interlocutory, not final, and therefore could not estop
the appealing party).
Finally, we examine the standing of the U.S. House
of Representatives, which intervened after the case
had been appealed. The Supreme Court’s recent
decision in Virginia House of Delegates v. Bethune-Hill
calls the House’s standing to intervene into doubt. 139
S. Ct. at 1953 (“This Court has never held that a
judicial decision invalidating a state law as
unconstitutional inflicts a discrete, cognizable injury
on each organ of government that participated in the
law’s passage.”). However, we need not resolve the
question of the House’s standing. “Article III does not
require intervenors to independently possess
standing” when a party already in the lawsuit has
standing and seeks the same “ultimate relief” as the

19a
intervenor. Ruiz v. Estelle, 161 F.3d 814, 830 (5th Cir.
1998). That is the case here: the intervenor-defendant
states have standing to appeal, and the House seeks
the same relief as those states. We accordingly
pretermit the issue of whether the House has standing
to intervene.
IV.
We now turn to the issue of whether any of the
plaintiffs had Article III standing to bring this case at
the time they brought the lawsuit. To be a case or
controversy under Article III, the plaintiffs must
satisfy the same three requirements listed above.
First, a plaintiff must have suffered an “injury in
fact”—a violation of a legally protected interest that is
“concrete and particularized,” as well as “actual or
imminent, not ‘conjectural’ or ‘hypothetical.’” Lujan v.
Defs. of Wildlife, 504 U.S. 555, 560 (1992) (quoting
Whitmore v. Arkansas, 495 U.S. 149, 155 (1990)).
Second, that injury must be “fairly . . . trace[able] to
the challenged action of the defendant, and not . . .
th[e] result [of] the independent action of some third
party not before the court.” Id. (alterations in original)
(quoting Simon v. E. Ky. Welfare Rights Org., 426 U.S.
26, 41-42 (1976)). Third, it must be “likely”—not
merely “speculative”—that the injury will be
“redressed by a favorable decision.” Id. at 561 (quoting
Simon, 426 U.S. at 38, 43).
The instant case has two groups of plaintiffs: the
individual plaintiffs and the state plaintiffs. Only one
plaintiff need succeed because “one party with
standing is sufficient to satisfy Article III’s case-orcontroversy requirement.” 19 Texas v. United States
19 For an academic critique of this approach, see Aaron-Andrew
P. Bruhl, One Good Plaintiff Is Not Enough, 67 Duke L. J. 481

20a
(DAPA), 809 F.3d 134, 151 (5th Cir. 2015) (quoting
Rumsfeld v. Forum for Acad. & Institutional Rights,
Inc., 547 U.S. 47, 52 n.2 (2006)). 20 The individual
plaintiffs and the state plaintiffs allege different
injuries. We evaluate each in turn and conclude that
both the individual plaintiffs and the state plaintiffs
have standing.
A.
The standing issues presented by the individual
plaintiffs are not novel. The Supreme Court faced a
similar situation when it decided NFIB in 2012. At
oral argument in that case, Justice Kagan asked
Gregory Katsas, representing NFIB, whether he
thought “a person who is subject to the [individual]
mandate but not subject to the [shared responsibility
payment] would have standing.” Transcript of Oral
Argument at 68, Dep’t of Health and Human Servs. v.
Florida, 567 U.S. 519 (2012) (No. 11-398). Mr. Katsas
replied, “Yes, I think that person would, because that
person is injured by compliance with the mandate.” Id.
Mr. Katsas explained, “the injury—when that person
is subject to the mandate, that person is required to
purchase health insurance. That’s a forced acquisition
of an unwanted good. It’s a classic pocketbook injury.”
Id. at 68-69.
In 2012, this questioning made sense because
neither the individual mandate nor the shared
responsibility payment would be assessed for another
two years. Patient Protection and Affordable Care Act,
Pub. L. No. 111-148, § 1501, 124 Stat. 119, 244 (2012)
(2017).
20 We refer to this 2015 case as “DAPA”—after Deferred Action
for Parents of Americans, the policy at issue there—to prevent
confusion with the present case of the same name.

21a
(requiring insurance coverage “for each month
beginning after 2013” and applying the shared
responsibility payment for any failure to purchase
insurance “during any calendar year beginning after
2013”). It was thus certainly imminent that the private
plaintiffs would be subject to the individual mandate,
which applies to everyone, but not certain that they
would be subject to the shared responsibility payment,
which exempts certain people. 26 U.S.C. § 5000A(e)
(prescribing that “[n]o penalty shall be imposed” on
certain groups of people). 21 The distinction was
important because a plaintiff “must demonstrate
standing for each claim he seeks to press.” Davis v.
Fed. Election Comm’n, 554 U.S. 724, 734 (2008)
(quoting DaimlerChrysler Corp. v. Cuno, 547 U.S. 332,
352 (2006)). To bring a claim against the individual
mandate, therefore, the plaintiffs needed to show
injury from the individual mandate—not from the
shared responsibility payment.
Accordingly, the district court in NFIB ruled that
the private plaintiffs were injured by the ACA
“because of the financial expense [they would]
definitively incur under the Act in 2014,” and the
private plaintiffs’ need “to take investigatory steps and
make financial arrangements now to ensure
compliance then.” Florida ex rel. Bondi v. U.S. Dep’t of
Health & Human Servs., 780 F. Supp. 2d 1256, 1271
(N.D. Fla. 2011), aff’d in part and rev’d in part, 648
F.3d 1235 (11th Cir. 2011), aff’d in part and rev’d in
part, 567 U.S. 519 (2012). The record evidence in that
case supported this conclusion. Mary Brown, one of the
private plaintiffs in that case, for example, had
declared that “to comply with the individual insurance
mandate, and well in advance of 2014, I must now
21

For the full list of exemptions, see supra note 4.

22a
investigate whether and how to rearrange my personal
finance affairs.” Appendix of Exhibits in Support of
Plaintiffs’ Motion for Summary Judgment, Florida v.
U.S. Dep’t of Health & Human Servs., No. 3:10-cv-91RV/EMT (N.D. Fla. Nov. 10, 2010), ECF No. 80-6. At
the Eleventh Circuit, all parties agreed that Mary
Brown had standing. Florida ex rel. Atty. Gen. v. U.S.
Dep’t of Health & Human Servs., 648 F.3d 1235, 1243
(11th Cir. 2011), aff’d in part and rev’d in part, 567
U.S. 519 (2012) (“Defendants do not dispute that
plaintiff Brown’s challenge to the minimum coverage
provision is justiciable.”). Congress could have
reasonably contemplated people like Mary Brown. As
Mr. Katsas explained at oral argument in the Supreme
Court, “Congress reasonably could think that at least
some people will follow the law precisely because it is
the law.” Transcript of Oral Argument at 67, Dep’t of
Health & Human Servs. v. Florida, 567 U.S. 519 (2012)
(No. 11-398).
The district court in the instant case followed a
similar approach with regard to the individual
plaintiffs’ standing. 22 It concluded that because the
individual plaintiffs are the object of the individual
mandate, which requires them to purchase health
insurance that they do not want, those plaintiffs have
demonstrated two types of “injury in fact”: (1) the
financial injury of buying that insurance; and (2) the
“increased regulatory burden” that the individual
mandate imposes. In concluding that these injuries
were caused by the individual mandate, the court
made specific fact findings that both Nantz and Hurley
purchased insurance solely because they are
No party initially questioned the plaintiffs’ standing in the
district court. An amicus brief raised the issue, and the
intervenor-defendant states addressed it at oral argument.

22

23a
“obligated to comply with the . . . individual mandate.”
The district court made these findings based on
Nantz’s and Hurley’s declarations, which the
intervenor-defendant
states
never
challenged.
Because the undisputed evidence showed that the
individual mandate caused these injuries, the district
court reasoned that a favorable judgment would
redress both injuries, allowing the individual plaintiffs
to forgo purchasing health insurance and freeing them
“from what they essentially allege to be arbitrary
governance.”
We agree with the district court. The Supreme
Court has held that when a lawsuit challenges “the
legality of government action or inaction, the nature
and extent of facts that must be averred (at the
summary judgment stage) or proved (at the trial stage)
in order to establish standing depends considerably
upon whether” the plaintiffs are themselves the
“object[s] of the action (or forgone action) at issue.”
Lujan, 504 U.S. at 561; see also Texas v. EEOC, 933
F.3d 433, 446 (5th Cir. 2019). “Whether someone is in
fact an object of a regulation is a flexible inquiry rooted
in common sense.” EEOC, 933 F.3d at 446 (quoting
Contender Farms, L.L.P. v. U.S. Dep’t of Agric., 779
F.3d 258, 265 (5th Cir. 2015)). If a plaintiff is indeed
the object of a regulation, “there is ordinarily little
question that the action or inaction has caused [the
plaintiff] injury, and that a judgment preventing or
requiring the action will redress it.” Lujan, 504 U.S. at
561-62.
It is undisputed that Hurley and Nantz are the
objects of the individual mandate and that they have
purchased insurance in order to comply with that
mandate. Record evidence supports these conclusions.
In his declaration in the district court, Nantz stated, “I

24a
continue to maintain minimum essential health
coverage because I am obligated.” Similarly, Hurley
averred in his declaration that he is “obligated to
comply with the ACA’s individual mandate.” They
both explain in their declarations that they “value
compliance with [their] legal obligations” and bought
insurance because they “believe that following the law
is the right thing to do.” Accordingly, the district court
expressly found that Hurley and Nantz bought health
insurance because they are obligated to, and we must
defer to that factual finding. The evidentiary basis for
this injury is even stronger than it was in NFIB. In the
instant case, the individual mandate has already gone
into effect, compelling Nantz and Hurley to purchase
insurance now as opposed to two years in the future.
The intervenor-defendant states fail to point to any
evidence contradicting these declarations, and they
did not challenge this evidence in the district court. In
fact, some of the evidence these parties rely on actually
supports the conclusion that Nantz and Hurley
purchased insurance to comply with the individual
mandate.
The
intervenor-defendant
states
acknowledge a 2017 report from the Congressional
Budget Office indicating that “a small number of
people” would continue to buy insurance without a
penalty “solely because” of a desire to comply with the
law. Cong. Budget Office, Repealing the Individual
Health Insurance Mandate: An Updated Estimate 1
(Nov. 2017). This report is at least somewhat
consistent with a 2008 Congressional Budget Office
report, relied on by the state plaintiffs, that “[m]any
individuals” subject to the mandate, but not the shared
responsibility payment, will obtain coverage to comply
with the mandate “because they believe in abiding by
the nation’s laws.” Cong. Budget Office, Key Issues in

25a
Analyzing Major Health Insurance Proposals 53 (Dec.
2008). Whether this group of law-abiding citizens
includes “many individuals” or “a small number of
people,” Nantz and Hurley have undisputed evidence
showing that they are a part of this group.
In this context, being required to buy something
that you otherwise would not want is clearly within
the scope of what counts as a “legally cognizable
injury.” “Economic injury” of this sort is “a
quintessential injury upon which to base standing.”
Tex. Democratic Party v. Benkiser, 459 F.3d 582, 586
(5th Cir. 2006); see also Vt. Agency of Nat. Res. v.
United States, 529 U.S. 765, 772-77 (1998) (finding
Article III injury from financial harm); Clinton v. New
York, 524 U.S. 417, 432 (1998) (same); Sierra Club v.
Morton, 405 U.S. 727, 733-34 (1972) (same); DAPA,
809 F.3d at 155 (same). In Benkiser, for example, we
held that a political party would suffer an injury in fact
because it would need to “expend additional funds” in
order to comply with the challenged regulation. 459
F.3d at 586. In the instant case, the undisputed record
evidence shows that the individual plaintiffs have
spent “additional funds” to comply with the statutory
provision that they challenge on constitutional
grounds.
This injury, moreover, is “actual,” not merely a
speculative fear about future harm that may or may
not happen. Lujan, 504 U.S. at 560. The record shows
that, at the time of the complaint, Hurley and Nantz
held health insurance, spending money every month
that they did not want to spend. Nantz reports that his
monthly premium is $266.56, and Hurley says his is
$1,081.70. The injury is also “concrete” because it
involves the real expenditure of those funds. See
Barlow v. Collins, 397 U.S. 159, 162-63, 164 (1970)

26a
(finding a concrete injury when a regulation caused
economic harm from lost profit).
Causation and redressability “flow naturally” from
this concrete, particularized injury. Contender Farms,
779 F.3d at 266. The evidence in the record from
Hurley’s and Nantz’s declarations show that they
would not have purchased health insurance but for the
individual mandate, and the intervenor-defendant
states have no evidence to the contrary. A judgment
declaring that the individual mandate exceeds
Congress’ powers under the Constitution would allow
Hurley and Nantz to forgo the purchase of health
insurance that they do not want or need. They could
purchase health insurance below the “minimum
essential coverage” threshold, or even decide not to
purchase any health insurance at all.
The intervenor-defendant states make several
arguments against this straightforward injury, and all
of them come up short. They first argue that there is
no legally cognizable injury because there is no longer
any penalty for failing to comply. In one sense, this
argument misses the point. The threat of a penalty
that Hurley and Nantz would face under the pre-2017
version of the statute is one potential form of injury,
but it is far from the only one. We have held that the
costs of compliance can constitute an injury just as
much as the injuries from failing to comply. See, e.g.,
Benkiser, 459 F.3d at 586. Thus, in this instance, it is
this injury—the time and money spent complying with
the statute, not the penalty for failing to do so—that
constitutes the plaintiffs’ injury.
But the intervenor-defendant states also argue
that even the costs of compliance cannot count as an
injury in fact if there is no consequence for failing to

27a
comply. The individual mandate’s compulsion cannot
inflict a cognizable injury, they say, because it is not a
compulsion at all. Because the enforcement
mechanism has been removed, the U.S. House
contends, it is now merely a suggestion, at most. We
recently rejected this argument in Texas v. EEOC,
when
the
Equal
Employment
Opportunity
Commission tried to argue that Texas could not
challenge its allegedly non-final administrative
guidance because “the Guidance does not compel
Texas to do anything.” 933 F.3d at 448. We concluded
that it would “strain credulity to find that an agency
action targeting current ‘unlawful’ discrimination
among state employers—and declaring presumptively
unlawful the very hiring practices employed by state
agencies—does not require action immediately enough
to constitute an injury-in-fact.” 23 Id. The individual
mandate is no different. Just like the agency guidance,
the individual mandate targets as “unlawful” the
decision to go without health insurance.
The dissenting opinion grounds its discussion of the
issue in the Supreme Court’s decision in Poe v.
Ullman, 367 U.S. 497 (1961). There, the Supreme
Court rejected a challenge to Connecticut’s criminal
prohibition on contraception. The dissenting opinion
The dissenting opinion states that Texas had standing in
Texas v. EEOC because of the “consequences for disobeying the
[challenged] guidance—including the possibility that the
Attorney General would enforce Title VII against it.” This
depiction of Texas v. EEOC ignores that opinion’s emphasis on
the fact that Texas was “the object of the Guidance.” 933 F.3d at
446; see also id. (“If, in a suit ‘challenging the legality of
government action,’ ‘the plaintiff is himself an object of the action
. . . there is ordinarily little question that the action or inaction
has caused him injury . . . .’” (quoting Lujan, 504 U.S. at 561-62)).
As explained above, the individual plaintiffs in this case are the
objects of the individual mandate.

23

28a
states that if there was no standing in Ullman, then
there cannot be standing here. The dissenting opinion
seems to treat Ullman as part of the “pre-enforcement
challenge” line of cases in which the Supreme Court
analyzed claims of injury based on future enforcement
to determine whether the future enforcement was
sufficiently imminent. Ullman, however, is not cited in
the seminal Supreme Court cases of that line. See, e.g.,
Susan B. Anthony List v. Driehaus, 573 U.S. 149, 15861 (2014); Holder v. Humanitarian Law Project, 561
U.S. 1, 15 (2010); Virginia v. Am. Booksellers Ass’n,
Inc., 484 U.S. 383, 392-93 (1988); Babbitt v. United
Farm Workers Nat’l Union, 442 U.S. 289, 298 (1979);
see also Abbott Labs. v. Gardner, 387 U.S. 136, 154
(1967). More importantly, as we have explained, this
case is not a pre-enforcement challenge because the
plaintiffs have already incurred a financial injury. 24
The plurality opinion in Ullman said there was
insufficient adversity between the parties because
there was overwhelming evidence—eighty years’
worth of no enforcement of the statute—of “tacit
agreement” between prosecutors and the public not to
The dissenting opinion also relies on City of Austin v. Paxton,
No. 18-50646, F.3d
, 2019 WL 6520769 (5th Cir. Dec. 4, 2019).
That reliance is confusing because City of Austin is an Ex parte
Young case, not a standing case. For the Ex parte Young exception
to Eleventh Amendment sovereign immunity to apply, the state
official sued “must have ‘some connection with enforcement of the
challenged act.’” Id. at *2 (alteration omitted) (quoting Ex parte
Young, 209 U.S. 123, 157 (1908)). In City of Austin, the City’s
claims against the Texas Attorney General failed because the
City failed to show the requisite connection to enforcement under
Ex parte Young. Of course, because this is a lawsuit against the
federal government, neither the Eleventh Amendment nor Ex
parte Young applies. Moreover, even if City of Austin had been a
pre-enforcement challenge standing case, it would still be
irrelevant because this case is not a pre-enforcement challenge.
24

29a
enforce the anti-contraceptive laws that the plaintiffs
challenged. 367 U.S. at 507-08. As a result, the Court
held that the lawsuit before it was “not such an
adversary case as will be reviewed here.” Id. The fifth,
controlling vote in that case—Justice Brennan, who
concurred in the judgment—emphasized that this
adverseness was lacking because of the case’s “skimpy
record,” devoid of evidence that the “individuals [were]
truly caught in an inescapable dilemma.” Id. at 509
(Brennan, J., concurring).
By contrast, as documented above, the record in the
instant case contains undisputed evidence that Nantz
and Hurley feel compelled by the individual mandate
to buy insurance and that they bought insurance solely
for that reason. Especially in light of the fact that the
individual mandate lacks a similar eighty-year history
of nonenforcement, Nantz and Hurley have gone much
further in demonstrating that they are caught in the
“inescapable dilemma” that the Ullman plaintiffs were
not.
The intervenor-defendant states also argue that
there is no causation between the individual mandate
and Hurley and Nantz’s purchase of insurance because
Hurley and Nantz exercised a voluntary “choice” to
purchase insurance. Because Nantz and Hurley would
face no consequence if they went without insurance,
the intervenor-defendant states argue that their
purchase of insurance is not fairly traceable to the
federal defendants. Instead, they claim that Nantz and
Hurley impermissibly attempt to “manufacture
standing merely by inflicting harm on themselves.”
Glass v. Paxton, 900 F.3d 233, 239 (5th Cir. 2018)
(quoting Clapper v. Amnesty Int’l USA, 568 U.S. 398,
416 (2013)).

30a
This argument fails, however, because it conflates
the merits of the case with the threshold inquiry of
standing. The argument assumes that 26 U.S.C. §
5000A presents not a legal command to purchase
insurance, but an option between purchasing
insurance and doing nothing. Because this option
exists, the argument goes, any injury arising from
Hurley’s and Nantz’s decisions to buy insurance
instead of doing nothing (the other putative option) is
entirely self-inflicted. This, however, is a merits
question that can be reached only after determining
the threshold issue of whether plaintiffs have
standing.
Texas v. EEOC makes clear that courts cannot fuse
the standing inquiry into the merits in this way.
There, in addition to the injury described above from
the Guidance’s rebuke of Texas’s employment
practices as “unlawful,” Texas claimed it was injured
by the EEOC’s curtailing of Texas’s procedural right to
notice and comment before being subject to a
regulation. EEOC, 933 F.3d at 447. In rejecting the
suggestion that Texas was not truly injured because
the EEOC had not in fact violated the Administrative
Procedure Act’s notice-and-comment rules, we held
that “[w]e assume, for purposes of the standing
analysis, that Texas is correct on the merits of its claim
that the Guidance was promulgated in violation of the
APA.” Id. (citing Sierra Club v. EPA, 699 F.3d 530, 533
(D.C. Cir. 2012)); see also Bennett v. Spear, 520 U.S.
154, 177-78 (1997) (treating constitutional standing
and finality as distinct inquiries).
Indeed, allowing a consideration of the merits as
part of a jurisdictional inquiry would conflict with the
Supreme Court’s express decision in Steel Co v.
Citizens for a Better Environment to not abandon “two

31a
centuries of jurisprudence affirming the necessity of
determining jurisdiction before proceeding to the
merits.” 523 U.S. 83, 98 (1998). That case presented
both the question of Article III standing and the merits
question of whether the relevant statute authorized
lawsuits for purely past violations. Id. at 86. The Court
rejected any “attempt to convert the merits issue . . .
into a jurisdictional one.” Id. at 93. The Court further
rejected the “doctrine of hypothetical jurisdiction,”
under which certain courts of appeals had “proceed[ed]
immediately to the merits question, despite
jurisdictional objections” in certain circumstances. Id.
at 93-94. As the district court correctly noted, that is
exactly what the appellants ask this court to do. They
urge us to “skip ahead to the merits to determine §
5000A(a) is non-binding and therefore constitutional
and then revert to the standing analysis to use its
merits determination to conclude there was no
standing to reach the merits in the first place.”
Moreover, even if we were to consider the merits as
part of our jurisdictional inquiry, it would not make a
difference in this case. Because we conclude in Part IV
of this opinion that the individual mandate is best read
as a command to purchase insurance (and an
unconstitutional one at that), rather than as an option
between buying insurance or doing nothing, the
individual plaintiffs would have standing even if we
considered the merits. 25

Even if the individual plaintiffs did not have standing, this
case could still proceed because the state plaintiffs have standing.
DAPA, 809 F.3d at 151 (holding that only one plaintiff needs
standing for the court to exercise jurisdiction). “This circuit
follows the rule that alternative holdings are binding precedent
and not obiter dictum.” Id. at 178 n.158 (quoting United States v.
Potts, 644 F.3d 233, 237 n.3 (5th Cir. 2011)).

25

32a
B.
We next consider whether the eighteen state
plaintiffs have standing, and we conclude that they
do. 26 The state plaintiffs allege that the ACA causes
them both a fiscal injury as employers and a sovereign
injury “because it prevents them from applying their
own laws and policies governing their own healthcare
markets.” State Plaintiffs’ Br. at 25. In DAPA, we
determined that the state of Texas was entitled to
special solicitude because it was “exercising a
procedural right created by Congress and protecting a
‘quasi-sovereign’ interest.” DAPA, 809 F.3d at 162
(quoting Massachusetts v. EPA, 549 U.S. 497, 520
(2007)); see also id. at 154-55. Because the state
plaintiffs in this case have suffered fiscal injuries as
employers, we need not address special solicitude or
the alleged sovereign injuries.
Employers, including the state plaintiffs, are
required by the ACA to issue forms verifying which
employees are covered by minimum essential coverage
and therefore do not need to pay the shared
responsibility payment. See 26 U.S.C. § 6055(a)
(“Every person who provides minimum essential
coverage to an individual during a calendar year shall,
at such time as the Secretary may prescribe, make a
return described in subsection (b).”); 26 U.S.C. §
6056(a) (“Every applicable large employer [that meets
certain statutory requirements] shall . . . make a
return described in subsection (b).”). These provisions
have led to Form 1095-B and 1095-C statements that
employees receive from their employers around tax
Likewise, even if the state plaintiffs did not have standing, this
case could still proceed because the individual plaintiffs have
standing. DAPA, 809 F.3d at 151 (holding that only one plaintiff
needs standing for the court to exercise jurisdiction).
26

33a
time, which include a series of check boxes indicating
the months that employees had health coverage that
complies with the ACA. State Plaintiffs’ Br. at 23.
These legally required reporting practices exist on top
of state employers’ own in-house administrative
systems for managing and tracking their employees’
health insurance coverage.
The record is replete with evidence that the
individual mandate itself has increased the cost of
printing and processing these forms and of updating
the state employers’ in-house management systems.
For example, Thomas Steckel, the director of the
Division of Employee Benefits within the South
Dakota Bureau of Human Resources, submitted a
declaration documenting the administrative costs that
the individual mandate has imposed by way of these
reporting requirements. He said, “[t]he individual
mandate caused significant administrative burdens
and expenses to program our IT system to track and
report ACA eligible employees and complete
mandatory IRS Form 1095 annual reports.” Steckel
noted specifically that “the individual mandate caused
. . . $100,000.00 [in] ongoing costs” for Form 1095-C
administration alone. The dissenting opinion discards
this evidence as conclusory. But as even counsel for the
intervenor-defendant states admitted at oral
argument, nobody challenged this evidence as
conclusory in the district court or in the appellate
court. 27 Oral Argument at 5:12.
The reason why is obvious: the evidence is not conclusory. This
is bread-and-butter summary judgment practice, not, as the
dissenting opinion contends, any “new summary-judgment rule.”
Of course, a properly-included affidavit must be based on
personal knowledge, and conclusory facts and statements on
information and belief cannot be utilized. See Charles Alan
27

34a
South Dakota is far from the only state that has
been harmed from the financial cost of the reporting
requirements that the individual mandate aggravates.
Judith Muck, the Executive Director of the Missouri
Consolidated Health Care Plan, reported that
Missouri’s costs for preparing 1095-B forms, along
with 1094-B forms, are projected to be $47,300 in fiscal
year 2019 and $49,200 in fiscal year 2020. Similarly,
Teresa MacCartney, the Chief Financial Officer of the
State of Georgia and the Director of the Georgia
Governor’s Office of Planning and Budget, reported
that Georgia’s overall cost of compliance with the
ACA’s reporting requirements “is an estimated net
$3.6 million to date.” MacCartney also reported that
after
the
ACA’s
implementation,
Georgia’s
Department of Community Health “experienced
Wright and Arthur R. Miller, Federal Practice and Procedure, §
2738 (4th ed. 2019). The Steckel affidavit easily satisfies this
standard: it is a detailed 8-page declaration. Steckel attested,
under penalty of perjury, that he is “responsible for developing
and implementing the State’s health plan for state employees”
and that he is “particularly familiar with changes in costs, plans,
and policies related to the enactment of the ACA because of my
role as the Director of the Division [of Employee Benefits].” He
estimates the financial costs the individual mandate has caused
in nine different categories, including ongoing costs of $10,400 for
review of denied appeals, ongoing costs of $100,000 for Form
1095-C administration, and a one-time cost of $3,302,942 as a
Transitional Reinsurance Program fee. For other costs, such as
the pre-existing conditions prohibition and the expanded
eligibility for adult dependent children to age 26, he conceded that
he was “unable to accurately estimate the ongoing costs of this
mandate.” A determination of standing is supported by the
administration of Form 1095-C, the CBO’s prediction that some
individuals will continue to purchase insurance in the absence of
a shared responsibility payment, the fact that two such
individuals are before this court, and the Supreme Court’s
observation that “third parties will likely react in predictable
ways.” Department of Commerce, 139 S. Ct. at 2566.

35a
increased enrollment of individuals already eligible for
Medicaid benefits under pre-ACA eligibility
standards.” This enrollment increase required the
Department to enhance its management systems,
which was “very costly.” Blaise Duran, who is the
Manager for Underwriting, Data Analysis and
Reporting for the Employees Retirement System of
Texas, further documented Texas’ costs of the
reporting requirements. He declared that the Texas
Employees Group Benefits Program “has made
administrative process changes in connection with its
ACA compliance, such as those related to the provision
of Form 1095-Bs to plan participants and the Internal
Revenue Service.” 28
The intervenor-defendant states and the U.S.
House have not challenged the state plaintiffs’
evidence or presented any evidence to the contrary.
Instead, they argue that the reporting requirements
set forth in Sections 6055(a) and 6056(a) “are separate
from the mandate and serve independent purposes.”
U.S. House Reply Br. at 19. Therefore, they claim, “any
resulting injury is thus neither traceable to Section
5000A nor redressable by its invalidation.” U.S. House
Reply Br. at 19. But this misreads the undisputed
evidence in the record. The individual mandate
This list is not exhaustive. For instance, Arlene Larson,
Manager of Federal Health Programs and Policy for Wisconsin
Employee Trust Funds, declared that the state expended funds
by “hir[ing] a vendor to issue 343 Form 1095-Cs” in 2017. And
Mike Michael, Director of the Kansas State Employee Health
Plan, averred that reporting for Form 1094 and 1095 cost the
state $43,138 in 2017 and $38,048 in 2018. No record evidence
indicates that these reporting requirements have been
eliminated. Moreover, the “standing inquiry remains focused on
whether the party invoking jurisdiction had the requisite stake
in the outcome when the suit was filed.” Davis v. Fed. Election
Comm’n, 554 U.S. 724, 734 (2008).
28

36a
commands individuals to get insurance. Every time an
individual gets that insurance through a state
employer, the state employer must send the individual
a form certifying that he or she is covered and
otherwise process that information through in-house
management systems. 29 Thus, the reporting
requirements in Sections 6055(a) and 6056(a) flow
from the individual mandate set forth in Section
5000A(a).
These costs to the state plaintiffs are wellestablished. 30 Moreover, the continuing nature of
Relying on this injury, therefore, does not run afoul of Nat’l
Fed. of the Blind of Texas v. Abbott, 647 F.3d 202 (5th Cir. 2011).
That case prevents plaintiffs from claiming injury based on
provisions whose enforcement would be enjoined only if they are
inseverable from an unconstitutional provision that does not
harm the plaintiff. Id. at 210-11. The state plaintiffs’ injuries
stem from the increased administrative costs created by the
individual mandate itself, not from other provisions. To be sure,
those costs are created in part by the individual mandate’s
practical interaction with other ACA provisions, like the reporting
requirements. But this is no different from the injuries in DAPA,
where the challenged action interacted with Texas’s driver’s
license regulations. It is also no different from Department of
Commerce, where the challenged census question interacted with
constitutional rules tying political representation to a state’s
population.
30 The dissenting opinion, citing no authority, contends that the
state plaintiffs need evidence that at least one specific “employee
enrolled in one of state plaintiffs’ health insurance programs
solely because of the unenforceable coverage requirement.” We
have already explained why the uncontested affidavits suffice.
We note, moreover, that the DAPA court found that Texas had
standing because “it would incur significant costs in issuing
driver’s licenses to DAPA beneficiaries”—without requiring that
Texas first show that it had issued a specific license to a specific
illegal alien because of DAPA. Finally, the dissenting opinion’s
rule would create a split with our sister circuits. See
Massachusetts v. United States Dep’t of Health & Human Seres.,
923 F.3d 209, 225 (1st Cir. 2019) (“[Massachusetts] need not point
29

37a
these fiscal injuries is consistent with Fifth Circuit
and Supreme Court precedent.
In DAPA, we held that the state of Texas had
standing to challenge the federal government’s DAPA
program because it stood to “have a major effect on the
states’ fisc.” Id. at 152. This was because, if DAPA
were permitted to go into effect, it would have
“enable[d] at least 500,000 illegal aliens in Texas” to
satisfy Texas’s requirements that the Department of
Public Safety “‘shall issue’ a license to a qualified
applicant,” including noncitizens who present
“documentation issued by the appropriate United
States agency that authorizes the applicant to be in
the United States.” Id. at 155 (quoting Tex. Transp.
Code §§ 521.142(a), 521.181). Evidence in the record
showed that Texas, which subsidizes its licenses,
would “lose a minimum of $130.89 on each one it
issued to a DAPA beneficiary.” Id. Even a “modest
estimate” of predictable third-party behavior would
rack up costs of “several million dollars.” Id.
The Supreme Court recently applied a similar
analysis in Department of Commerce v. New York, 139
S. Ct. 2551 (2019). In that case, a group of state and
local governments sued to prevent the federal
to a specific person who will be harmed in order to establish
standing in situations like this.”); California v. Azar, 911 F.3d
558, 572 (9th Cir. 2018), cert. denied sub nom. Little Sisters of the
Poor Jeanne Jugan Residence v. California, 139 S. Ct. 2716 (2019)
(“Appellants fault the states for failing to identify a specific
woman likely to lose coverage. Such identification is not
necessary to establish standing.”); Pennsylvania v. President
United States, 930 F.3d 543, 564 (3d Cir. 2019), as amended (July
18, 2019) (“The Government faults the States for failing to
identify a specific woman who will be affected by the Final Rules,
but the States need not define injury with such a demanding level
of particularity to establish standing.”).

38a
government from including a question about
citizenship status on the 2020 census. Id. at 2563. The
Supreme Court held that these plaintiffs had standing
because they met their burden “of showing that third
parties will likely react in predictable ways to the
citizenship question.” Id. at 2566. The census question
would likely lead to “noncitizen households responding
. . . at lower rates than other groups, which in turn
would cause them to be undercounted.” Id. at 2565.
This undercounting of third parties would injure the
state and local governments by “diminishment of
political representation, loss of federal funds,
degradation of census data, and diversion of
resources.” Id.
In both DAPA and Department of Commerce, the
state plaintiffs demonstrated injury by showing that
the challenged law would cause third parties to behave
in predictable ways, which would inflict a financial
injury on the states. The instant case is no different.
The individual mandate commands people to ensure
that they have minimum health insurance coverage.
That predictably causes more people to buy insurance,
which increases the administrative costs of the states
to report, manage, and track the insurance coverage of
their employees and Medicaid recipients. 31
The dissenting opinion contends that our opinion is
inconsistent because we rely on Department of Commerce, in
which the Court found that some individuals will predictably
violate the law, in explaining why some individuals will
predictably “follow the law regardless of the incentives.” In a
large group, there will predictably be some individuals in each
category. Even the dissenting opinion accepts the Congressional
Budget Office’s projection that some people will buy insurance
solely because of a desire to comply with the law. See Cong.
Budget Office, Repealing the Individual Health Insurance
Mandate: An Updated Estimate 1 (Nov. 2017).
31

39a
V.
Having concluded that both groups of plaintiffs
have standing to bring this lawsuit, we must next
determine whether the individual mandate is a
constitutional exercise of congressional power. We
conclude that it is not. We first discuss the Supreme
Court’s holding in NFIB, and then we explain why,
under that holding, the individual mandate is no
longer constitutional.
A.
The NFIB opinion was extremely fractured. In that
case, Chief Justice Roberts wrote an opinion
addressing several issues. Parts of that opinion
garnered a majority of votes and served as the opinion
of the Court. 32 In relevant part, Part III-A of the Chief
Justice’s opinion, joined by no other Justice, observed
that “[t]he most straightforward reading of the
As a general overview, Chief Justice Roberts’s opinion
functioned in the following way. In Part III-A, Chief Justice
Roberts said that the individual mandate was most naturally
read as a command to buy insurance, which could not be
sustained under either the Interstate Commerce Clause or the
Necessary and Proper Clause. Though no Justice joined this part
of the opinion, the four dissenting Justices—Justices Scalia,
Kennedy, Thomas, and Alito—agreed with Part III-A in a
separate opinion. In Part III-B, the Chief Justice wrote that even
though the most natural reading of the individual mandate was
unconstitutional, the Court still needed to determine whether it
was “fairly possible” to read the provision in a way that saved it
from being unconstitutional. In Part III-C, the Chief Justice—
joined by Justices Ginsburg, Breyer, Kagan, and Sotomayor—
concluded that the provision could be construed as constitutional
by reading the individual mandate, in conjunction with the
shared responsibility payment, as a legitimate exercise of
Congress’ taxing power. This last part of the opinion supported
the Court’s ultimate judgment: that the individual mandate was
constitutional as saved.
32

40a
[individual] mandate is that it commands individuals
to purchase insurance,” and that, using that reading of
the statute, the individual mandate is not a valid
exercise of Congress’ power under the Interstate
Commerce Clause. NFIB, 567 U.S. at 562, 546-61
(Roberts, C.J.). The Constitution, he explained, “gave
Congress the power to regulate commerce, not to
compel it.” Id. at 555 (Roberts, C.J.). For similar
reasons, the Chief Justice concluded that this
command to purchase insurance could not be
sustained under the Constitution’s Necessary and
Proper Clause. Id. The individual mandate was not
“proper” because it expanded federal power, “vest[ing]
Congress with the extraordinary ability to create the
necessary predicate to the exercise of’ its Interstate
Commerce Clause powers. Id. at 560.
Though no other Justices joined this part of the
Chief Justice’s opinion, the “joint dissent”—joined by
Justices Scalia, Kennedy, Thomas, and Alito—reached
the same conclusions on the Interstate Commerce
Clause and Necessary and Proper Clause questions.
Id. at 650-60 (joint dissent). A majority of the court,
therefore, concluded that the individual mandate is
not constitutional under either the Interstate
Commerce Clause or the Necessary and Proper
Clause.
This limited reading of the Interstate Commerce
Clause—and, by extension, of the Necessary and
Proper Clause—was necessary to preserving “the
country [that] the Framers of our Constitution
envisioned.” Id. at 554 (Roberts, C.J.). As Chief Justice
Roberts observed, if the individual mandate were a
proper use of the power to regulate interstate
commerce, that power would “justify a mandatory
purchase to solve almost any problem.” Id. at 553

41a
(Roberts, C.J.). If Congress can compel the purchase of
health insurance today, it can, for example,
micromanage Americans’ day-to-day nutrition choices
tomorrow. Id. (Roberts, C.J.); see also id. at 558
(Roberts, C.J.) (reasoning that, under an expansive
view of the Commerce Clause, nothing would stop the
federal government from compelling the purchase of
broccoli).
An expansive reading of the Interstate Commerce
Clause would be foreign to the Framers, who saw the
clause as “an addition which few oppose[d] and from
which no apprehensions [were] entertained.” Id. at 554
(Roberts, C.J.) (quoting The Federalist No. 45, at 293
(J. Madison) (C. Rossiter ed., 1961)). Elevating
Congress’ power to “regulate commerce . . . among the
several states,” U.S. Const. art. I, § 8, cl. 3, to a power
to create commerce among the several states would
make a Leviathan of the federal government,
“everywhere extending the sphere of its activity and
drawing all power into its impetuous vortex.” NFIB,
567 U.S. at 554 (Roberts, C.J.) (quoting The Federalist
No. 48, at 309 (J. Madison) (C. Rossiter ed., 1961)).
Justice Scalia, writing for the joint dissenters,
similarly noted that the more expansive reading of the
Interstate Commerce Clause would render that
provision a “font of unlimited power,” id. at 653 (joint
dissent), or, in the words of Alexander Hamilton, a
“hideous monster whose devouring jaws . . . spare
neither sex nor age, nor high nor low, nor sacred nor
profane,” id. (quoting The Federalist No. 33, at 202 (C.
Rossiter ed., 1961)).
In Part III-B, again joined by no other Justice,
Chief Justice Roberts concluded that because the
individual mandate found no constitutional footing in
the Interstate Commerce or Necessary and Proper

42a
Clauses, the Supreme Court was obligated to consider
the federal government’s argument that, as an
exercise in constitutional avoidance, the mandate
could be read not as a command but as an option to
purchase insurance or pay a tax. This “option”
interpretation of the statute could save the statute
from being unconstitutional, as it would be justified
under Congress’ taxing power. Id. at 561-63 (Roberts,
C.J.); see also id. at 562 (Roberts, C.J.) (“No court
ought, unless the terms of an act rendered it
unavoidable, to give a construction to it which should
involve a violation, however unintentional, of the
constitution.”) (quoting Parsons v. Bedford, 28 U.S. (3
Pet.) 433, 448-49 (1830)); see also id. at 563 (Roberts,
C.J.) (“The question is not whether that is the most
natural interpretation of the mandate, but only
whether it is a ‘fairly possible’ one.”) (quoting Crowell
v. Benson, 285 U.S. 22, 62 (1932)).
In Part III-C, the Chief Justice—writing for a
majority of the Court, joined by Justices Ginsburg,
Breyer, Sotomayor, and Kagan—undertook that
inquiry of determining whether it was “fairly possible”
to read the individual mandate as an option and
thereby save its constitutionality. See id. at 563-74
(majority opinion). Chief Justice Roberts reasoned
that the individual mandate could be read in
conjunction with the shared responsibility payment in
order to save the individual mandate from
unconstitutionality. Read together with the shared
responsibility payment, the entire statutory provision
could be read as a legitimate exercise of Congress’
taxing power for four reasons.
First and most fundamentally, the sharedresponsibility payment “yield[ed] the essential feature
of any tax: It produce[d] at least some revenue for the

43a
Government.” Id. at 564. Second, the sharedresponsibility payment was “paid into the Treasury by
taxpayers when they file their tax returns.” Id. at 563
(alternations and internal quotation marks omitted).
Third, the amount owed under the ACA was
“determined by such familiar factors as taxable
income, number of dependents, and joint filing status.”
Id. Fourth and finally, “[t]he requirement to pay [was]
found in the Internal Revenue Code and enforced by
the IRS, which . . . collect[ed] it in the same manner as
taxes.” Id. at 563-64 (internal quotation marks
omitted).
Because of these four attributes of the shared
responsibility payment, the Court reasoned that “[t]he
Federal Government does have the power to impose a
tax on those without health insurance.” Id. at 575. The
Court concluded that “[s]ection 5000A is therefore
constitutional, because it can reasonably be read as a
tax.” 33 Id. We agree with the dissenting opinion that
33 Seven Justices—Chief Justice Roberts and Justices Scalia,
Kennedy, Thomas, Breyer, Alito, and Kagan—agreed that the
Act’s Medicaid-expansion provisions unconstitutionally coerced
states into compliance. NFIB, 567 U.S. at 575-85 (plurality
opinion); id. at 671-89 (joint dissent). But, in light of a severability
clause, Part IV-B of the Chief Justice’s opinion concluded that the
unconstitutional portion of the Medicaid provisions could be
severed. Id. at 585-88 (plurality opinion). Meanwhile, Justice
Ginsburg, joined by Justice Sotomayor, disagreed that the Act’s
mandatory Medicaid expansion was unconstitutional. Id. at 633
(Ginsburg, J., concurring in the judgment in part, and dissenting
in part). Those two Justices concurred in the judgment with
respect to the Chief Justice’s conclusion that the unconstitutional
provisions could be severed from the remainder of the Act. Id. at
645-46 (Ginsburg, J., concurring in the judgment in part, and
dissenting in part). The four dissenting Justices concluded that
the Act’s Medicaid-expansion provisions were unconstitutionally
coercive and rejected the relief of allowing states to opt into
Medicaid expansion. Id. at 671-90 (joint dissent).

44a
“this case begins and ought to end” with NFIB.
B.
Now that the shared responsibility payment
amount is set at zero, 34 the provision’s saving
construction is no longer available. The four central
attributes that once saved the statute because it could
be read as a tax no longer exist. Most fundamentally,
the provision no longer yields the “essential feature of
any tax” because it does not produce “at least some
revenue for the Government.” Id. at 564. Because the
provision no longer produces revenue, it necessarily
lacks the three other characteristics that once
rendered the provision a tax. The sharedresponsibility payment is no longer “paid into the
Treasury by taxpayer[s] when they file their tax
returns” because the payment is no longer paid by
anyone. Id. at 563 (alteration in original and internal
quotation marks omitted). The payment amount is no
longer “determined by such familiar factors as taxable
income, number of dependents, and joint filing status.”
Id. The amount is zero for everyone, without regard to
any of these factors. The IRS no longer collects the
payment “in the same manner as taxes” because the
IRS cannot collect it at all. Id. at 563-64 (internal
quotation marks omitted).
Because these four critical attributes are now
missing from the shared responsibility payment, it is,
in the words of the state plaintiffs, “no longer ‘fairly
possible’ to save the mandate’s constitutionality under
Congress’ taxing power.” State Plaintiffs’ Br. at 32.
The proper application of NFIB to the new version of
the statute is to interpret it according to what Chief
Justice Roberts—and four other Justices of the
34

26 U.S.C. §§ 5000A(c)(2)(B)(iii), (c)(3)(A).

45a
Court—said was the “most straightforward” reading of
that provision: a command to purchase insurance. Id.
at 562 (Roberts, C.J.). As the district court properly
observed, “the only reading available is the most
natural one.” Under that reading, the individual
mandate is unconstitutional because, under NFIB, it
finds no constitutional footing in either the Interstate
Commerce Clause or the Necessary and Proper
Clause. Id. at 546-61 (Roberts, C.J.); id. at 650-60
(joint dissent).
The intervenor-defendant states have several
arguments against this conclusion, all of which fail.
They first argue that the saving construction of the
individual mandate, interpreting the provision as an
option to buy insurance or pay a tax, is still “fairly
possible.” As the individual plaintiffs point out, the
Court interpreted the individual mandate as an option
only because doing so would save it from being
unconstitutional.
Accordingly,
the
intervenordefendant states must show that the “option” would
still be a constitutional exercise of Congress’ taxing
power. To make that showing, the intervenordefendant states reject the plaintiffs’ attempt to read
a “some revenue” requirement into the Constitution’s
Taxing and Spending Clause, arguing instead for a
potential-to-produce-revenue
requirement.
The
individual mandate, they say, is still set out in the
Internal Revenue Code. It still provides a “statutory
structure through which” Congress could eventually
tax people for failing to buy insurance. It still includes
references to taxable income, number of dependents,
and joint filing status. 26 U.S.C. §§ 5000A(b)(3), (c)(2),
(c)(4). Further, it still does not apply to individuals
who pay no federal income taxes. 26 U.S.C. §
5000A(e)(2).

46a
The intervenor-defendant states have little support
for this reading of the Taxing and Spending Clause.
For starters, NFIB could not be clearer that the
“produc[tion]” of “at least some revenue for the
Government”—not the potential to produce that
revenue—is “the essential feature of any tax.” 567 U.S.
at 564 (majority opinion) (emphasis added). As the
district court observed, when determining whether a
statute is a tax, the actual production of revenue is
“not indicative, not common—[but] essential.”
The intervenor-defendant states also find no
support in United States v. Ardoin, 19 F.3d 177, 17980 (5th Cir. 1994). In that unusual case, Congress had
imposed a tax on machine guns, but subsequently
outlawed machine guns altogether, which prompted
the relevant agency to stop collecting the tax. Id. at
179-80. The defendant was convicted not only for
possessing a machine gun but also for failing to pay
the tax, which remained on the books. Id. at 178. The
court upheld the conviction on the basis that the tax
law at issue could “be upheld on the preserved, but
unused, power to tax or on the power to regulate
interstate commerce.” Id. at 180. But the taxing power
was “preserved” in Ardoin because it was non-revenueproducing only in practice whereas the “tax” here is
actually $0.00 as written on the books. 35 See Fed.
Defendants’ Br. at 32. Expanding Ardoin to apply here
would, as the federal defendants point out, puzzlingly
allow Congress to “prohibit conduct that exceeds its
commerce power through a two-step process of first
This distinction also disposes of the intervenor-defendant
states’ concern about “cast[ing] constitutional doubt on taxes with
delayed start dates or that Congress has temporarily suspended
for periods of time.” Intervenor-Defendant States’ Br. at 43. In
none of the examples the intervenor-defendant states cite did the
statute purport to levy a “tax” of $0.00.
35

47a
taxing it and then eliminating the tax while retaining
the prohibition.” Fed. Defendants’ Br. at 32.
The intervenor-defendant states argue further that
the individual mandate does not even need
constitutional justification because it is merely a
suggestion, not binding legislative action. The
individual mandate, they contend, is no different from
the Flag Code, which, though entered into the pages of
the U.S. Code, “was not intended to proscribe conduct.”
Dimmitt v. City of Clearwater, 985 F.2d 1565, 1573
(11th Cir. 1993) (analyzing 36 U.S.C. §§ 174-76). This
argument is just a repackaged version of their
argument that the individual mandate can still be
read as an option. But, as the state plaintiffs, the
individual plaintiffs, and the federal defendants point
out, the Supreme Court has already held that the
“most straightforward” reading of the individual
mandate—which
emphatically
demands
that
individuals “shall” buy insurance, 26 U.S.C. §
5000A(a)—is as a command to purchase health
insurance. The Court then concluded that that
command lacked constitutional justification. The
zeroing out of the shared responsibility payment does
not render the provision any less of a command. Quite
the opposite: Chief Justice Roberts concluded that the
greater-than-zero shared responsibility payment
actually converted the individual mandate into an
option. NFIB, 567 U.S. at 563-64 (majority opinion).
Now that the shared responsibility payment has been
zeroed out, the only logical conclusion under NFIB is
to read the individual mandate as a command, quite
unlike the Flag Code. It is an individual mandate, not
an individual suggestion.
Moreover, it is not true that when the Court adopts
a limiting construction to avoid constitutional

48a
questions, that construction controls as to all
applications of the statute, regardless of whether the
original constitutional implications are present. The
case on which the U.S. House relies involved different
applications of an identical statute to different facts.
Clark v. Martinez, 543 U.S. 371, 380 (2005) (rejecting
the argument that “the constitutional concerns that
influenced” a previous interpretation of a provision of
the Immigration and Nationality Act were “not
present for” the aliens at issue in that case). This case
is readily distinguishable because the four
characteristics that made the previous interpretation
possible—the production of revenue and other tax-like
features—have now been legislatively removed. The
limiting construction is no longer available as a matter
of statutory interpretation. The interpretation must
accordingly change to comport with what five Justices
of the Supreme Court have said is the “most
straightforward reading” of that interpretation. 36
The dissenting opinion justifies its continued
reliance on the saving construction—even though it is
no longer applicable—by citing Kimble v. Marvel
Entm’t, LLC, 135 S. Ct. 2401 (2015). This approach
fares no better. The dissenting opinion quotes Kimble
to say that “in whatever way reasoned,” the Court’s
Contrary to the dissenting opinion’s suggestion, a saving
construction is no longer available. The canon of constitutional
avoidance applies only “when statutory language is susceptible of
multiple interpretations.” Jennings v. Rodriguez, 138 S. Ct. 830,
836 (2018). In NFIB, § 5000A was amenable to two possible
interpretations. It was either “a command to buy insurance” or “a
tax.” NFIB, 567 U.S. at 574 (Roberts, C.J.). After Congress zeroed
out the shared responsibility payment, one of those possible
interpretations fell away. What was then the “most
straightforward reading” is now the only available reading: it is a
“command to buy insurance” and “the Commerce Clause does not
authorize such a command.” Id.

36

49a
interpretation “effectively become[s] part of the
statutory scheme, subject . . . to congressional change.”
Id. at 2409. The dissenting opinion correctly
acknowledges that the individual mandate was never
changed. But what did change was the provision that
actually mattered: the shared responsibility payment.
When it was set above zero, it could be saved as a tax,
even though five justices agreed this was an unnatural
reading. It would be puzzling if Congress could change
a statute at will, entirely insulated from constitutional
infirmity, just because the Court had previously used
constitutional avoidance to save a previous version of
the statute.
The
intervenor-defendant
states
argue
furthermore that the individual mandate can now be
constitutional under the Interstate Commerce Clause
because it does not compel anyone into commerce. This
is again a repackaged version of their argument that
the individual mandate is an option even without a
revenue-generating shared responsibility payment, an
argument that, as the state plaintiffs point out, the
Supreme Court has already rejected. This argument,
as the district court observed, is also logically
inconsistent. If the individual mandate no longer truly
compels anything, then it can hardly be said to be a
“regulat[ion]” of interstate commerce. In the words of
the district court, the intervenor-defendant states
“hope to have their cake and eat it too.” 37

Any argument that the individual mandate can now be
sustained under the Necessary and Proper Clause fails for the
same reasons. The individual mandate now must be read as a
command, and five Justices in NFIB already rejected the
argument that such a command could be sustained under the
Necessary and Proper Clause. NFIB, 567 U.S. at 561 (Roberts,
C.J.); id. at 654-55 (joint dissent).

37

50a
Finally, we would be remiss if we did not engage
with the dissenting opinion’s contention that § 5000A
is not an exercise of legislative power. This would
likely come as a shock to the legislature that drafted
it, the president who signed it, and the voters who
celebrated or lamented it. It is not surprising that the
dissenting opinion can cite no case in which a federal
court deems a duly enacted statute not an exercise of
legislative power, much less a statute that clearly
commands that an individual “shall” do something. 38
The dissenting opinion is inconsistent on this point: it
argues that the provision’s status as an exercise of
legislative power fluctuates according to the amount of
the
shared
responsibility
payment
while
simultaneously contending that “if the text of the
coverage requirement has not changed, its meaning
could not have changed either.” Our decision breaks no
new ground. We simply observe that § 5000A was
originally cognizable as either a command or a tax.
Today, it is only cognizable as a command. It has
always been an exercise of legislative power.
***
In NFIB, the individual mandate—most naturally
read as a command to purchase insurance—was saved
The dissenting opinion’s theory of the “law that does nothing”
results in some bizarre metaphysical conclusions. The ACA was
signed into law in 2010. No one questions that when it was signed,
§ 5000A was an exercise of legislative power. Yet today, the
dissenting opinion asserts, § 5000A is not an exercise of
legislative power. So did Congress exercise legislative power in
2010, as seen from 2015? As seen from 2018? Does § 5000A
ontologically re-emerge should a future Congress restore the
shared responsibility payment? Perhaps, like Schrödinger’s cat, §
5000A exists in both states simultaneously. The dissenting
opinion does not say. Our approach requires no such quantum
musings.
38

51a
from unconstitutionality because it could be read
together with the shared responsibility payment as an
option to purchase insurance or pay a tax. It could be
read this way because the shared responsibility
payment produced revenue. It no longer does so.
Therefore, the most straightforward reading applies:
the mandate is a command. Using that meaning, the
individual mandate is unconstitutional.
VI.
Having concluded that the individual mandate is
unconstitutional, we must next determine whether, or
how much of, the rest of the ACA is severable from that
constitutional defect. On this question, we remand to
the district court to undertake two tasks: to explain
with more precision what provisions of the post-2017
ACA are indeed inseverable from the individual
mandate; and to consider the federal defendants’
newly-suggested relief of enjoining the enforcement
only of those provisions that injure the plaintiffs or
declaring the Act unconstitutional only as to the
plaintiff states and the two individual plaintiffs. We
address each issue in turn.
A.
The Supreme Court has said that the “standard for
determining the severability of an unconstitutional
provision is well established.” Alaska Airlines, Inc. v.
Brock, 480 U.S. 678, 684 (1987). Unless it is “evident
that the Legislature would not have enacted those
provisions which are within its power, independently
of that which is not, the invalid part may be dropped if
what is left is fully operative as a law.” Id. (quoting
Buckley v. Valeo, 424 U.S. 1, 108 (1976)).
This inquiry into counterfactual Congressional
intent has been crystallized into a “two-part . . .

52a
framework.” NFIB, 567 U.S. at 692 (joint dissent).
First, if a court holds a statutory provision
unconstitutional, it then determines whether the nowtruncated statute will operate in “a manner consistent
with the intent of Congress.” Alaska Airlines, 480 U.S.
at 685 (emphasis omitted). This first step asks
whether the constitutional provisions—standing on
their own, without the unconstitutional provisions—
are “fully operative as a law,” not whether they would
simply “operate in some coherent way” not designed by
Congress. Free Enter. Fund v. Pub. Co. Accounting
Oversight Bd., 561 U.S. 477, 509 (2010) (quoting New
York v. United States, 505 U.S. 144, 186 (1992)); NFIB,
567 U.S. at 692 (joint dissent). Second, even if the
remaining provisions can operate as Congress
designed them to, the court must determine if
Congress would have enacted the remaining
provisions without the unconstitutional portion. If
Congress would not have done so, then those
provisions must be deemed inseverable. Alaska
Airlines, 480 U.S. at 685 (“[T]he unconstitutional
provision must be severed unless the statute created
in its absence is legislation that Congress would not
have enacted.”); Free Enter. Fund, 561 U.S. at 509
(“[N]othing in the statute’s text or historical context
makes it evident that Congress, faced with the
limitations imposed by the Constitution, would have
preferred no Board at all to a Board whose members
are removable at will.” (internal quotation marks
omitted)).
Severability doctrine places courts between a rock
and a hard place. On the one hand, courts strive to be
faithful agents of Congress, 39 which often means
39 See Frank H. Easterbrook, Text, History, and Structure in
Statutory Interpretation, 17 Harv. J. L. & Pub. Pol’y 61, 63 (1994)

53a
refusing to create a hole in a statute in a way that
creates legislation Congress never would have agreed
to or passed. See Murphy, 138 S. Ct. at 1482 (“[Courts]
cannot rewrite a statute and give it an effect altogether
different from that sought by the measure viewed as a
whole.” (quoting R.R. Ret. Bd. v. Alton R.R., 295 U.S.
330, 362 (1935))). On the other hand, courts often try
to abide by the medical practitioner’s maxim of “first,
do no harm,” aiming “to limit the solution to the
problem” by “refrain[ing] from invalidating more of the
statute than is necessary.” Ayotte v. Planned
Parenthood of N. New England, 546 U.S. 320, 328
(2006); Collins v. Mnuchin, 938 F.3d 553, 592 (5th Cir.
2019) (en banc) (Haynes, J.) (severing unconstitutional
removal restriction from remainder of Federal
Housing Finance Agency’s enabling statute). 40 In fact,
courts have a “duty” to “maintain the act in so far as it
is valid” if it “contains unobjectionable provisions
separable from those found to be unconstitutional.”
Alaska Airlines, 480 U.S. at 684 (quoting Regan v.
Time, Inc., 468 U.S. 641, 652 (1984) (plurality
opinion)).
The Supreme Court emphasizes this duty so
strongly that commentators have identified “a
presumption [of severability] implicit in the Court’s”
severability jurisprudence. Adrian Vermeule, Saving
Constructions, 85 Geo. L.J. 1945, 1950 n.28 (1997); see
also Brian Charles Lea, Situational Severability, 103
Va. L. Rev. 735, 744 (2017) (“[C]ourts assume that a
legislature intends for any unlawful part of its
handiwork to be severable from all lawful parts in the
(“[Courts] are supposed to be faithful agents, not independent
principals.”).
40 Judge Haynes wrote the opinion of the court as to the question
of remedy. See Collins, 938 F.3d at 591.

54a
absence of indicia of a contrary intention.”). This
presumption is strongest when Congress includes a
severability clause in the statutory text; however, “[i]n
the absence of a severability clause . . . Congress’s
silence is just that—silence—and does not raise a
presumption against severability.” Alaska Airlines,
480 U.S. at 686.
Nevertheless, the meticulous analysis required by
severability doctrine defies reliance on presumptions
or generalities. The Supreme Court’s latest venture
into severability territory, Murphy v. NCAA, 138 S. Ct.
1461 (2018), provides an example. There, the Court
held that the entirety of the Professional and Amateur
Sports Protection Act was unconstitutional because
one of its provisions—authorizing private sports
gambling—violated the anti-commandeering doctrine.
Id. at 1484. Justice Alito’s majority opinion separately
explored each of the other operative provisions in the
act, reasoning that all of the act’s provisions were
“obviously meant to work together” and be “deployed
in tandem.” Id. at 1483. Because Congress would not
have wanted the otherwise-valid provisions “to stand
alone,” the Court declined to sever them. Id. This
conclusion prompted a dissent from Justice Ginsburg,
who characterized the majority as “wield[ing] an ax . .
. instead of using a scalpel to trim the statute” and
reiterated that “the Court ordinarily engages in a
salvage rather than a demolition operation.” Id. at
1489-90 (Ginsburg, J., dissenting).
These Murphy opinions draw attention to one
difficulty inherent in severability analysis: selecting
the right tool for the job. Justice Thomas’ concurring
opinion goes further, providing two reasons why
navigating between the Scylla of poking small but
critical holes in complex, carefully crafted legislative

55a
bargains and the Charybdis of invalidating more duly
enacted legislation than necessary stands “in tension
with traditional limits on judicial authority.” Murphy,
138 S. Ct. at 1485 (Thomas, J., concurring). “[T]he
judicial power is, fundamentally, the power to render
judgments in individual cases,” and severability
doctrine threatens to violate that vital separation-ofpowers principle in more than one way. Id. (Thomas,
J., concurring).
First, severability doctrine requires “a nebulous
inquiry into hypothetical congressional intent,” as
opposed to the usual judicial bread-and-butter of
“determin[ing] what a statute means.” Id. at 1486
(Thomas, J., concurring) (quoting United States v.
Booker, 543 U.S. 220 at 321 n.7 (2005) (Thomas, J.,
dissenting in part)). Because “Congress typically does
not pass statutes with the expectation that some part
will later be deemed unconstitutional,” id. at 1487, this
requirement often leaves courts to exercise their
imagination or “intuitions regarding what the
legislature would have desired had it considered the
severability issue.” Lea, supra, at 747. This, in turn,
“enmeshes the judiciary in making policy choices” the
Constitution reserves for the legislature, David H.
Gans, Severability as Judicial Lawmaking, 76 Geo.
Wash. L. Rev. 639, 663 (2008), providing unelected
judicial officers with cover to simply implement their
own policy preferences.
Second, severability doctrine forces courts to
“weigh in on statutory provisions that no party has
standing to challenge, bringing courts dangerously
close to issuing advisory opinions.” Murphy, 138 S. Ct.
at 1487 (Thomas, J., concurring); see also Jonathan F.
Mitchell, The Writ-of-Erasure Fallacy, 104 Va. L. Rev.
933, 936 (2018) (“The federal courts have no authority

56a
to erase a duly enacted law from the statute books,
[but can only] decline to enforce a statute in a
particular case or controversy.” 41). As Justice Thomas
points out, when Chief Justice Marshall famously
declared that “[i]t is emphatically the province and
duty of the judicial department to say what the law is,”
he justified that assertion by explaining that “[t]hose
who apply [a] rule to particular cases, must of
necessity expound and interpret that rule.” Marbury v.
Madison, 5 U.S. (1 Cranch) 137, 177 (1803). Yet
severability doctrine directs courts to go beyond the
necessary—that is, the application of a particular
statutory provision to a particular case—to consider
the viability of other provisions without even “ask[ing]
whether the plaintiff has standing to challenge those
other provisions.” Murphy, 138 S. Ct. at 1487 (Thomas,
J., concurring). “[S]everability doctrine is thus an
unexplained exception to the normal rules of standing,
as well as the separation-of-powers principles that
those rules protect.” Id.
Severability analysis is at its most demanding in
the context of sprawling (and amended) statutory
schemes like the one at issue here. The ACA’s
framework of economic regulations and incentives
spans over 900 pages of legislative text and is divided
into ten titles. Most of the provisions directly
regulating health insurance, including the one
challenged in this case, are found in Titles I and II.
See, e.g., 26 U.S.C. § 5000A(a) (individual mandate);
42 U.S.C. § 300gg-14(a) (requiring insurers offering
family plans to cover adult children until age 26), §§
18031-18044 (creating health insurance exchanges).
The other titles generally amend Medicare (Title III),
If that is true, then courts are speaking loosely when they state
that they are “invalidating” or “striking down” a law.

41

57a
fund preventative healthcare programs (Title IV), seek
to expand the supply of healthcare workers (Title V),
enact anti-fraud requirements for Medicare/Medicaid
facilities (Title VI), establish or expand drug
regulations (Title VII), create a voluntary long-term
care insurance program (Title VIII), address taxation
(Title IX), and improve health care for Native
Americans (Title X 42).
The plaintiffs group this host of provisions into
three categories for ease of reference. State Plaintiffs’
Br. at 38. The first category includes the three core
ACA provisions the Supreme Court has called “closely
intertwined”: the individual mandate, 26 U.S.C. §
5000A(a), the guaranteed-issue requirement, 42
U.S.C. §§ 300gg, 300gg-1, and the community-rating
requirement, 42 U.S.C. § 300gg-4. King, 135 S. Ct. at
2487. The second category includes the remaining
“[m]ajor provisions of the Affordable Care Act,” NFIB,
567 U.S. at 697 (joint dissent), namely other provisions
dealing with “insurance regulations and taxes,”
“reductions in federal reimbursements to hospitals
and other Medicare spending reductions,” the
insurance “exchanges and their federal subsidies,” and
“the employer responsibility assessment.” See, e.g., 25
U.S.C. § 4980H; 26 U.S.C. § 36B; 42 U.S.C. §§ 1395ww,
18021-22. The third category includes a variety of
minor provisions, for example taxes on certain medical
devices or provisions requiring the display of
nutritional content at restaurants. See, e.g., 21 U.S.C.
§ 343(q)(5)(H); 26 U.S.C. § 4191(a).
Moreover, Congress has made a number of
substantive amendments to the ACA, revising the
Title X also includes a number of miscellaneous provisions
relating to the other titles.

42

58a
statute in 2010, 2011, 2014, 2017, and 2018. See, e.g.,
Medicare and Medicaid Extenders Act of 2010, Pub. L.
No. 111-309, 124 Stat. 3285 (2010) (modifying tax
credit scale and Medicaid requirements); Department
of Defense and Full-Year Continuing Appropriations
Act, 2011, Pub. L. No. 112-10, 125 Stat. 38 (2011)
(repealing program that required some employers to
provide some employees with vouchers for purchasing
insurance); Bipartisan Budget Act of 2015, Pub. L. No.
114-74, 129 Stat. 584 (2015) (repealing requirement
that employers with more than 200 employees enroll
new full-time employees in health insurance and
continue coverage for current employees). Most of
these amendments occurred prior to the 2017
legislation eliminating the shared responsibility
payment, but some are more recent. See, e.g.,
Bipartisan Budget Act of 2018, Pub. L. No. 115-123,
132 Stat. 64 (2018) (repealing Independent Payment
Advisory Board).
In summary, then, this issue involves a challenging
legal doctrine applied to an extensive, complex, and
oft-amended statutory scheme. All together, these
observations highlight the need for a careful, granular
approach to carrying out the inherently difficult task
of severability analysis in the specific context of this
case. We are not persuaded that the approach to the
severability question set out in the district court
opinion satisfies that need. The district court opinion
does not explain with precision how particular
portions of the ACA as it exists post-2017 rise or fall
on the constitutionality of the individual mandate.
Instead, the opinion focuses on the 2010 Congress’
labeling of the individual mandate as “essential” to its
goal of “creating effective health insurance markets,”
42 U.S.C. § 18091(2)(I), and then proceeds to designate

59a
the entire ACA inseverable. In using this approach,
the opinion does not address the ACA’s provisions with
specificity, nor does it discuss how the individual
mandate fits within the post-2017 regulatory scheme
of the ACA.
The district court opinion begins by addressing the
2010 version of the ACA. Starting with the text of the
ACA, the district court opinion points out that the
2010 Congress incorporated into the text its view that
“the absence of the [individual mandate] would
undercut Federal regulation of the health insurance
market.” 42 U.S.C. § 18091(2)(H). The district court
opinion notes that the 2010 Congress devised the
individual mandate, “together with the other
provisions” of the ACA, to “add millions of new
customers to the health insurance market.” 42 U.S.C.
§ 18091(2)(C). In this way, the 2010 Congress sought
to “minimize th[e] adverse selection” that might
otherwise occur if healthy individuals “wait[ed] to
purchase health insurance until they needed care,” 42
U.S.C. § 18091(2)(I)—a strategic choice that would
otherwise be available given the ACA’s guaranteedissue and community-rating provisions. According to
the district court opinion: because the 2010 Congress
found the individuate mandate “essential” to this plan
to reshape health insurance markets, the individual
mandate is inseverable from the rest of the ACA “[o]n
the unambiguous enacted text alone.”
The district court opinion also addresses ACA
caselaw. Citing the Supreme Court’s decisions in NFIB
and King, the district court opinion states that “[a]ll
nine Justices . . . agreed the Individual Mandate is
inseverable from at least the pre-existing-condition
provisions.” See NFIB, 567 U.S. at 548 (Roberts, C.J.),
596-98 (Ginsburg, J., joined by Breyer, Kagan, and

60a
Sotomayor, JJ.), 695-96 (joint dissent of Scalia,
Kennedy, Thomas, and Alito, JJ.); King, 135 S. Ct. at
2487 (stating that the individual mandate is “closely
intertwined” with the guaranteed-issue and
community-rating provisions). As to the ACA’s other
provisions, the district court opinion notes that the
only group of Justices who fully considered whether
the other major and minor provisions were severable
was the joint dissent in NFIB—and those Justices
would have held that “invalidation of the ACA’s major
provisions requires the Court to invalidate the ACA’s
other provisions.” NFIB, 567 U.S. at 704 (joint
dissent).
Beyond these points, the district court opinion
states that its “conclusion would only be reinforced” if
it “parse[d] the ACA’s provisions one by one.” The
district court opinion arrives at this conclusion by
reasoning that declaring only the individual mandate
unlawful would disrupt the Act’s careful balance of
“shared responsibility.” The district court opinion lists
a few examples of how it would expect this to happen
with regard to the ACA’s major provisions. First, the
district court opinion reasons that “the Individual
Mandate reduces the financial risk forced upon
insurance companies and their customers by the
ACA’s major regulations and taxes.” If the individual
mandate fell and the regulations and taxes did not,
insurance companies would suffer a burden without
enjoying a countervailing benefit—“a choice no
Congress made and one contrary to the text.” Second,
if a court were to declare just the individual mandate
and the protections for preexisting conditions
unlawful—but not the subsidies for health
insurance—then the Act would be transformed into “a
law that subsidizes the kinds of discriminatory

61a
products Congress sought to abolish at, presumably,
the re-inflated prices it sought to suppress.” Third,
Congress never intended “a duty on employers, see 26
U.S.C. § 4980H, to cover the skyrocketing insurance
premium costs” that would “inevitably result from
removing” the individual mandate. Fourth, because
“the Medicaid-expansion provisions were designed to
serve and assist fulfillment of the Individual
Mandate,” removing the individual mandate would
remove the need for that expansion.
As to the ACA’s minor provisions, the district court
opinion states that it is “impossible to know which
minor provisions Congress would have passed absent
the Individual Mandate,” and that such an inquiry
involves too much “legislative guesswork.” Relying on
the 2010 Congress’ labeling of the individual mandate
as “essential,” the district court opinion ultimately
determines that there is “no reason to believe that
Congress would have enacted” the minor provisions
independently. The district court opinion similarly
disclaims the ability to divine the intent of the 2017
Congress—which had zeroed out the shared
responsibility payment but left the rest of the ACA
untouched—labeling such an inquiry “a fool’s errand.”
To the extent it analyzed the intent of the 2017
Congress, the district court opinion determines that
Congress’ failure to repeal the individual mandate
shows that it “knew that provision is essential to the
ACA.” In sum, the district court opinion concludes that
the entire ACA is inseverable from the individual
mandate.
The plaintiffs urge affirmance for essentially the
same reasons stated in the district court opinion. 43 As
43

The individual plaintiffs adopt the state plaintiffs’ severability

62a
to the guaranteed-issue and community-rating
provisions, they rely primarily on the 2010 Congress’
express findings linking those provisions to the
individual mandate. State Plaintiffs’ Br. at 39-44;
Individual Plaintiffs’ Br. at 47-48. The 2010 Congress
found that, without the individual mandate, “many
individuals would wait to purchase health insurance
until they needed care,” creating an “adverse
selection” problem. 42 U.S.C. § 18091(2)(I); see also id.
(finding that the individual mandate is “essential to
creating effective health insurance markets in which
improved health insurance products that are
guaranteed issue and do not exclude coverage of preexisting conditions can be sold”). As to the remaining
major and some of the minor provisions, the plaintiffs
rely primarily on the joint dissent in NFIB for the
proposition that leaving these provisions standing
would “undermine Congress’ scheme of shared
responsibility,” throwing off the balance interlocking
insurance market reforms set out in the ACA. 567 U.S.
at 698 (joint dissent) (internal quotation marks
omitted); State Plaintiffs’ Br. at 44-49. As for the most
minor provisions, they argue that these were “mere
adjuncts” of the more important provisions and would
not have been independently enacted. State Plaintiffs’
Br. at 50.
On appeal, the federal defendants agree with the
plaintiffs that the entirety of the ACA is inseverable
from the individual mandate. Fed. Defendants’ Br. at
36-49. This marks a significant change in litigation
position, as the federal defendants had previously
submitted to the district court that only the
guaranteed-issue and community-rating provisions
were inseverable. And that is not the only new
arguments by reference. See Fed. R. App. P. 28(i).

63a
argument the federal defendants make on appeal. For
the first time on appeal, the federal defendants argue
that the remedy in this case should be limited to
enjoining enforcement of the ACA only to the extent it
harms the plaintiffs. See Fed. Defendants’ Br. at 26–
29 (arguing that the individual “plaintiffs do not have
standing to seek relief against provisions of the ACA
that do not in any way affect them”); Fed. Defendants’
Supp. Br. at 10 (“[T]he judgment itself, as opposed to
its underlying legal reasoning, cannot be understood
as extending beyond the plaintiff states to invalidate
the ACA in the intervenor states.”).
The intervenor-defendant states, meanwhile,
argue that every provision of the ACA is severable from
the individual mandate. They argue that the 2017
Congress’ decision not to repeal or otherwise
undermine any other provision of the ACA shows that
it intended the rest of the ACA to remain operative—
and that the court should not focus on the intent of the
2010 Congress. Intervenor-Defendant States’ Br. at
34-35, 43. They point to the statements of several
legislators in the 2017 Congress that seem to evince an
assumption that other parts of the ACA would not be
altered, 44 and to Congress’ knowledge of reports
Although we decline to opine on the merits of the parties’
arguments at this juncture, we caution against relying on
individual statements by legislators to determine the meaning of
the law. “[L]egislative history is not the law.” Epic Sys. Corp. v.
Lewis, 138 S. Ct. 1612, 1631 (2018); see also Asadi v. G.E. Energy
(USA), LLC, 720 F.3d 620, 626 n.9 (5th Cir. 2013) (“[T]he
authoritative statement is the statutory text, not the legislative
history or any other extrinsic material.”) (quoting Exxon Mobil
Corp. v. Allapattah Servs., Inc., 545 U.S. 546, 568 (2005));
Antonin Scalia & Bryan A. Garner, Reading Law: The
Interpretation of Legal Texts 392-93 (2012) (“Each member
voting for the bill has a slightly different reason for doing so.
There is no single set of intentions shared by all . . . [y]et a

44

64a
highlighting the severe consequences a total
invalidation of the ACA would have. IntervenorDefendant States’ Br. at 40. Finally, they argue that
the passage of time since the ACA’s enactment has
shown that the individual mandate is not all that
crucial after all, and they provide examples of ACA
provisions they say have nothing to do with insurance
markets or became operative years before the
individual mandate took effect. Intervenor-Defendant
States’ Br. at 45.
Although we understand and share the district
court’s general disinclination to engage in what it
refers to as “legislative guesswork”—and what a
Supreme Court Justice has described as “a nebulous
inquiry into hypothetical congressional intent,”
Murphy, 138 S. Ct. at 1486 (Thomas, J., concurring)
(quoting Booker, 543 U.S. at 321 n.7 (Thomas, J.,
dissenting in part))—we nevertheless conclude that
the severability analysis in the district court opinion is
incomplete in two ways.
First, the opinion gives relatively little attention to
the intent of the 2017 Congress, which appears in the
analysis only as an afterthought despite the fact that
the 2017 Congress had the benefit of hindsight over
the 2010 Congress: it was able to observe the ACA’s
actual implementation. Although the district court
opinion states that burdening insurance companies
with taxes and regulations without giving them the
benefit of compelling the purchase of their product is
majority has undeniably agreed on the final language that passes
into law . . . and that is the sole means by which the assembly has
the authority to make law.”). And even among legislative history
devotees, “floor statements by individual legislators rank among
the least illuminating forms.” N.L.R.B. v. SW Gen., Inc., 137 S.
Ct. 929, 943 (2017).

65a
“a choice no Congress made,” it only links this
observation to the 2010 Congress. It does not explain
its statement that the 2017 Congress’ failure to repeal
the individual mandate is evidence of an
understanding that no part of the ACA could survive
without it.
Second, the district court opinion does not do the
necessary legwork of parsing through the over 900
pages of the post-2017 ACA, explaining how particular
segments are inextricably linked to the individual
mandate. The opinion lists a few examples of major
provisions and cogently explains their link to the
individual mandate, at least as it existed in 2010. For
example, the opinion discusses the individual
mandate’s interplay with the guaranteed-issue and
community-rating provisions—all of which are found
in Title I of the ACA—analyzing how Congress
intended those provisions to work and how they might
be expected to work without the individual mandate.
But in order to strike the delicate balance that
severability analysis requires, the district court must
undertake a similar inquiry for each segment of the
post-2017 law that it ultimately declares unlawful—
and it has not done so. Instead, the district court
opinion focuses on the 2010 Congress’ designation of
the individual mandate as “essential to creating
effective health insurance markets” and intention
that, for at least one set of legislative goals, the
individual mandate was intended to work “together
with the other provisions” of the ACA. E.g., 42 U.S.C.
§ 18091(2)(I). On this basis, and on the views of the
dissenting Justices in NFIB addressing the ACA as it
stood in 2012, the district court opinion renders the
entire ACA inoperative. More is needed to justify the
district court’s remedy.

66a
Take, for example, the ACA provisions in Title IV
requiring certain chain restaurants to disclose to
consumers nutritional information like “the number of
calories contained in the standard menu item.” Patient
Protection and Affordable Care Act, Pub. L. No. 111148, § 4206, 124 Stat. 119, 573-74 (2012) (codified at
21 U.S.C. § 343). Or consider the provisions in Title X
establishing the level of scienter necessary to be
convicted of healthcare fraud. Patient Protection and
Affordable Care Act § 10606, 124 Stat. 119, 1006-09,
(codified at 18 U.S.C. § 1347). Without more detailed
analysis from the district court opinion, it is unclear
how provisions like these—which certainly do not
directly regulate the health insurance marketplace—
were intended to work “together” with the individual
mandate. Similarly, the district court opinion’s
assertion that “most of the minor provisions” of the
ACA “are mere adjuncts of’ or “aids to the[] effective
execution” of the project of the individual mandate is
not supported by the actual analysis in the district
court opinion, which does not dive into those
provisions. Finally, some insurance-related reforms
became law years before the effective date of the
individual mandate; the district court opinion does not
explain how provisions like these are inextricably
linked to the individual mandate. See, e.g., 42 U.S.C.
§§ 300gg-11, 300gg-14(a). Whatever the solution to the
problem of “legislative guesswork” the district court
opinion identifies in severability doctrine as it
currently stands, it must include a careful parsing of
the statutory scheme at issue to address questions like
these.
We have long “require[d] that a district court
explain its reasons for granting a motion for summary
judgment in sufficient detail for us to determine

67a
whether the court correctly applied the appropriate
legal test.” Wildbur v. ARCO Chem. Co., 974 F.2d 631,
644 (5th Cir. 1992). This is because we have “little
opportunity for effective review” when the district
court opinion leaves some reasoning “vague” or
“unsaid.” Myers v. Gulf Oil Corp., 731 F.2d 281, 284
(1984). “In such cases, we have not hesitated to
remand . . . .” Id. In this case, the analysis the district
court opinion provides is substantial and far exceeds
the sort of cursory reasoning that normally prompts us
to remand. Yet, the vast, wide-ranging statutory
scheme at issue in this case also far exceeds the
comparatively small number of provisions at issue in
other severability cases, see, e.g., Chadha, 462 U.S. at
931-35 (considering whether 8 U.S.C. § 244(c)(2) could
be severed from the rest of § 244)—especially cases in
which entire legislative acts are determined to be
inseverable, see, e.g., Murphy, 138 S. Ct. at 1481-84
(considering whether part of 28 U.S.C. § 3702(1) could
be severed from §§ 3701-04).
Moreover, the Supreme Court has remanded in the
severability context upon a determination that
additional analysis was necessary. In Ayotte v.
Planned Parenthood of Northern New England, 546
U.S. 320 (2006), the Supreme Court took up the issue
of what relief was appropriate upon a determination
that a New Hampshire provision requiring parental
notification prior to abortion was unconstitutional in
some applications. Id. at 328-32. The Supreme Court
determined that, although the district court’s choice to
use “the most blunt remedy”—total inseverability—
was “understandable” under its own precedent, more
analysis was needed to determine “whether New
Hampshire’s legislature intended the statute to be
susceptible to” severability. Id. at 330-31. As a result,

68a
the Supreme Court remanded for “lower courts to
determine legislative intent in the first instance.” Id.
We do the same here, directing the district court to
employ a finer-toothed comb on remand and conduct a
more searching inquiry into which provisions of the
ACA Congress intended to be inseverable from the
individual mandate. We do not hold forth on just how
fine-toothed that comb should be—the district court
may use its best judgment to determine how best to
break the ACA down into constituent groupings,
segments, or provisions to be analyzed. Nor do we
make any comment on whether the district court
should take into account the government’s new
posture on appeal or what the ultimate outcome of the
severability analysis should be. 45 Although “we cannot
affirm the order as it is presently supported,” we do not
suggest what result will be merited “[a]fter a more
thorough inquiry.” Unger v. Amedisys Inc., 401 F.3d
316, 325 (5th Cir. 2005). We only note that the inquiry
must be made, and that the district court—which has
many tools at its disposal—is best positioned to
determine in the first instance whether the ACA
“remains fully operative as a law’” and whether it is
evident from “the statute’s text or historical context”
that Congress would have preferred no ACA at all to
an ACA without the individual mandate. Free Enter.
Fund, 561 U.S. at 509 (quoting New York, 505 U.S. at
186).
It may still be that none of the ACA is severable
from the individual mandate, even after this inquiry is
concluded. It may be that all of the ACA is severable
The district court should also consider this court’s recent
severability analysis in Collins v. Mnuchin, 938 F.3d 553 (5th Cir.
2019) (en banc). That opinion was issued after both the district
court’s decision and the oral argument here.

45

69a
from the individual mandate. It may also be that some
of the ACA is severable from the individual mandate,
and some is not. 46 But it is no small thing for
unelected, life-tenured judges to declare duly enacted
legislation passed by the elected representatives of the
American people unconstitutional. The rule of law
demands a careful, precise explanation of whether the
provisions of the ACA are affected by the
unconstitutionality of the individual mandate as it
exists today.
B.
Remand is appropriate in this case for a second
reason: so that the district court may consider the
federal defendants’ new arguments as to the proper
scope of relief in this case. The relief the plaintiffs
sought in the district court was a universal nationwide
injunction: an order that totally “enjoin[ed]
Defendants from enforcing the Affordable Care Act
and its associated regulations.” Before the district
court, the federal defendants urged entry of a
declaratory judgment stating that the guaranteedissue and community-rating provisions—at that time,
the only provisions the federal defendants argued were
inseverable—were “invalid[ated]” by the zeroing out of
the shared responsibility payment. This would be
“sufficient relief against the Government,” the federal
For an explanation of some, but certainly not all, of the
potential conclusions with regard to severability, see Josh
Blackman, Undone: The New Constitutional Challenge to
Obamacare, 23 Tex. Rev. L. & Pol. 1, 28-51 (2018) (stating that
the district court could halt the enforcement of just the individual
mandate, halt the enforcement of the entire Act, or halt the
enforcement of the community-rating and guaranteed-issue
provisions along with the individual mandate, for example). The
district court could also issue a declaratory judgment without
enjoining any government official.
46

70a
defendants argued, because a declaratory judgment
would “operate [] in a similar manner as an injunction”
against the federal government, which would be
“presumed to comply with the law” once the court
provides “a definitive interpretation of the statute.”
Ultimately, of course, the district court opinion
determined that no ACA provision was severable and
resulted in a judgment declaring the entire ACA
“invalid.” On appeal, the federal defendants first
changed their litigation position to agree that no ACA
provision was severable. Now they have changed their
litigation position to argue that relief in this case
should be tailored to enjoin enforcement of the ACA in
only the plaintiff states—and not just that, but that
the declaratory judgment should only reach ACA
provisions that injure the plaintiffs. They argue that
the Supreme Court has made clear that “[a] plaintiff’s
remedy must be tailored to redress the plaintiff’s
particular injury.” Gill v. Whitford, 138 S. Ct. 1916,
1934 (2018); see also Printz v. United States, 521 U.S.
898, 935 (1997) (reasoning that the Court has “no
business answering” questions dealing with
enforcement of provisions that “burden . . . no
plaintiff’); see also Murphy, 138 S. Ct. at 1485-86
(Thomas, J., concurring). This argument came as a
surprise to the plaintiffs, who explained at oral
argument that they saw the government’s new
position as a possible “bait and switch.” The federal
defendants admitted at oral argument that they had
raised the scope-of-relief issue on appeal “for the first
time,” but argued that it was necessary to address, as
it went to the district court’s Article III jurisdiction.
The federal defendants therefore suggested that it
“would be appropriate to remand to consider the scope
of the judgment.”

71a
The court agrees that remand is appropriate for the
district court to consider these new arguments in the
first instance. The district court did not have the
benefit of considering them when it crafted the relief
now on appeal. 47 On remand, the district court—which
is in a far better position than this court to determine
which ACA provisions actually injure the plaintiffs—
may consider the federal defendants’ position on the
proper relief to be afforded. As part of this inquiry, the
district court may consider whether the federal
defendants’ arguments were timely raised, and
whether limiting the remedy in this case is supported
by Supreme Court precedent. Once again, we place no
thumb on the scale as to the ultimate outcome; the
district court is free to weigh the federal defendants’
changed arguments as it sees fit.
VII.
For these reasons, the judgment of the district
court is AFFIRMED in part and VACATED in part.
We REMAND for proceedings consistent with this
opinion.

The consideration of limited relief may affect the intervenors
as well. The district court is better suited to resolving these issues
in the first instance.

47

72a
KING, Circuit Judge, dissenting:
Any American can choose not to purchase health
insurance without legal consequence. Before January
1, 2018, individuals had to choose between complying
with the Affordable Care Act’s coverage requirement
or making a payment to the IRS. For better or worse,
Congress has now set that payment at $0. Without any
enforcement mechanism to speak of, questions about
the legality of the individual “mandate” are purely
academic, and people can purchase insurance—or
not—as they please. No more need be said; it has long
been settled that the federal courts deal in cases and
controversies, not academic curiosities.
The majority sees things differently and today
holds that an unenforceable law is also
unconstitutional. If the majority had stopped there, I
would be confident its extra jurisdictional musings
would ultimately prove harmless. What does it matter
if the coverage requirement is unenforceable by
congressional design or constitutional demand? Either
way, that law does not do anything or bind anyone.
But again, the majority disagrees. It feels bound to
ask whether Congress would want the rest of the
Affordable Care Act to remain in force now that the
coverage requirement is unenforceable. Answering
that question should be easy, since Congress removed
the coverage requirement’s only enforcement
mechanism but left the rest of the Affordable Care Act
in place. It is difficult to imagine a plainer indication
that Congress considered the coverage requirement
entirely dispensable and, hence, severable. And yet,
the majority is unwilling to resolve the severability
issue. Instead, it merely identifies serious flaws in the
district court’s analysis and remands for a do-over,

73a
which will unnecessarily prolong this litigation and
the concomitant uncertainty over the future of the
healthcare sector.
I would vacate the district court’s order because
none of the plaintiffs have standing to challenge the
coverage requirement. And although I would not reach
the merits or remedial issues, if I did, I would conclude
that the coverage requirement is constitutional, albeit
unenforceable, and entirely severable from the
remainder of the Affordable Care Act.
I.
To my mind, this case begins and ought to end with
the Supreme Court’s decision in National Federation
of Independent Business v. Sebelius, 567 U.S. 519
(2012). In that case, the Court held that the coverage
requirement would be unconstitutional if it were a
legal command, because neither the Commerce Clause
nor the Necessary and Proper Clause allows Congress
to compel individuals to engage in commerce by
purchasing health insurance. See NFIB, 567 U.S. at
552, 560 (opinion of Roberts, C.J.); id. at 652-53 (joint
dissent). The Court concluded, however, that the
coverage requirement was constitutional, because—
notwithstanding the most natural reading of the
provision’s text—the coverage requirement was not
actually a legal command to purchase insurance.
Instead, according to the NFIB Court, the coverage
requirement “leaves an individual with a lawful choice
to do or not do a certain act,” i.e., purchase health
insurance. Id. at 574 (Roberts, C.J., majority opinion).
All that is required, under this reading, is “a payment
to the IRS” if one chooses not to purchase health
insurance. Id. at 567. Beyond this sharedresponsibility payment, there are no further “negative

74a
legal consequences to not buying health insurance,”
and individuals who forgo insurance do not violate the
law as long as they make the required payment. Id. at
567. “Those subject to the [coverage requirement] may
lawfully forgo health insurance and pay higher taxes,
or buy health insurance and pay lower taxes. The only
thing they may not lawfully do is not buy health
insurance and not pay the resulting tax.” Id. at 574
n.11. Forcing individuals to make that choice was
constitutional, per NFIB, because Congress could
“impose a tax on not obtaining health insurance” by
exercising its enumerated power to lay and collect
taxes, duties, imposts, and excises. Id. at 570.
Contrary to the suggestion of the majority, which I
address specifically infra at Part III, Congress did not
alter the coverage requirement’s operation when it
amended the ACA in 2017. See Tax Cuts and Jobs Act
of 2017, Pub. L. No. 115-97, § 11081, 131 Stat. 2054,
2092 (“TCJA”). All the TCJA did, with respect to
healthcare, was change the amount of the sharedresponsibility payment to zero dollars. Thus, despite
textual appearances, the post-TCJA coverage
requirement does nothing more than require
individuals to pay zero dollars to the IRS if they do not
purchase health insurance, which is to say it does
nothing at all.
This insight, that the coverage requirement now
does nothing, should be the end of this case. Nobody
has standing to challenge a law that does nothing.
When Congress does nothing, no matter the form that
nothing takes, it does not exceed its enumerated
powers. And since courts do not change anything when
they invalidate a law that does nothing, every other
law retains, or at least should retain, its full force and
effect.

75a
II.
But as the majority goes well past NFIB, I respond.
To begin, I emphasize the importance of the rule that
a plaintiff must have standing to invoke a federal
court’s power. This is not an anachronism lingering
from some era in which empty formalities abounded in
legal practice. Quite the opposite: “[T]he requirement
that a claimant have ‘standing is an essential and
unchanging
part
of
the
case-or-controversy
requirement of Article III.’” Davis v. FEC, 554 U.S.
724, 733 (2008) (quoting Lujan v. Defs. of Wildlife, 504
U.S. 555, 560 (1992)); see also Susan B. Anthony List
v. Driehaus, 573 U.S. 149, 157 (2014) (“Article III of
the Constitution limits the jurisdiction of federal
courts to ‘Cases’ and ‘Controversies.’” (quoting U.S.
Const. art. III, § 2)). And “[n]o principle is more
fundamental to the judiciary’s proper role in our
system of government than the constitutional
limitation of federal-court jurisdiction to actual cases
or controversies.” Clapper v. Amnesty Int’l USA, 568
U.S. 398, 408 (2013) (alteration in original) (quoting
DaimlerChrysler Corp. v. Cuno, 547 U.S. 332, 341
(2006)); accord Raines v. Byrd, 521 U.S. 811, 818
(1997).
The
Constitution’s
case-or-controversy
requirement reflects the Framers’ view of the
judiciary’s place among the coequal branches of the
federal government: to fulfill “the traditional role of
Anglo-American courts, which is to redress or prevent
actual or imminently threatened injury to persons
caused by private or official violation of law.” Summers
v. Earth Island Inst., 555 U.S. 488, 492 (2009). Strict
adherence to the case-or-controversy requirement—
and to standing in particular—thus “serves to prevent
the judicial process from being used to usurp the

76a
powers of the political branches.” Clapper, 568 U.S. at
408; see also Town of Chester v. Laroe Estates, Inc., 137
S. Ct. 1645, 1650 (2017) (“This fundamental limitation
preserves the ‘tripartite structure’ of our Federal
Government, prevents the Federal Judiciary from
‘intrud[ing] upon the powers given to the other
branches,’ and ‘confines the federal courts to a
properly judicial role.’” (alteration in original) (quoting
Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016))).
Thus, “federal courts may exercise power only ‘in the
last resort, and as a necessity,’ and only when
adjudication is ‘consistent with a system of separated
powers and [the dispute is one] traditionally thought
to be capable of resolution through the judicial
process.’” Allen v. Wright, 468 U.S. 737, 752 (1984)
(alteration in original) (citation omitted) (first quoting
Chi. & Grand Trunk Ry. Co. v. Wellman, 143 U.S. 339,
345 (1892); then quoting Flast v. Cohen, 392 U.S. 83,
97 (1968)), abrogated on other grounds, Lexmark Int’l,
Inc. v. Static Control Components, Inc., 572 U.S. 118
(2014). And needless to say, a federal court must
conduct an “especially rigorous” standing inquiry
“when reaching the merits of the dispute would force
[it] to decide whether an action taken by one of the
other two branches of the Federal Government was
unconstitutional.” Amnesty Int’l, 568 U.S. at 408
(quoting Raines, 521 U.S. at 819-20). “The importance
of this precondition should not be underestimated as a
means of ‘defin[ing] the role assigned to the judiciary
in a tripartite allocation of power.’” Valley Forge
Christian Coll. v. Ams. United for Separation of
Church & State, 454 U.S. 464, 474 (1982) (alteration
in original) (quoting Flast, 392 U.S. at 95).
The standing doctrine polices this constitutional
limit on the judiciary’s power “by ‘identify[ing] those

77a
disputes which are appropriately resolved through the
judicial process.’” Susan B. Anthony List, 573 U.S. at
157 (alteration in original) (quoting Lujan, 504 U.S. at
560). The party seeking redress in the courts has the
burden to establish standing. See Spokeo, 136 S. Ct. at
1547. To do so, the plaintiff must show it has “(1)
suffered an injury in fact, (2) that is fairly traceable to
the challenged conduct of the defendant, and (3) that
is likely to be redressed by a favorable judicial
decision.” Id. “To establish injury in fact, a plaintiff
must show that he or she suffered ‘an invasion of a
legally protected interest’ that is ‘concrete and
particularized’ and ‘actual or imminent, not
conjectural or hypothetical.’” Id. at 1548 (quoting
Lujan, 504 U.S. 560). This means the injury must be
“personal” to the plaintiff and, although the injury
does not need to be “tangible,” “it must actually exist.”
Id. at 1548-49.
The plaintiffs’ evidentiary burden depends on the
stage of the litigation. At each stage, the plaintiffs
must demonstrate standing “with the manner and
degree of evidence” otherwise required to establish the
plaintiffs’ merits case. Lujan, 504 U.S. at 561. Thus,
because this case comes to us on the plaintiffs’ own
motion for summary judgment, the plaintiffs must
conclusively prove all three elements of standing with
evidence that “would ‘entitle [them] to a directed
verdict if the evidence went uncontroverted at trial.’”
Int’l Shortstop, Inc. v. Rally’s, Inc., 939 F.2d 1257,
1264-65 (5th Cir. 1991) (quoting Golden Rule Ins. Co.
v. Lease, 755 F. Supp. 948, 951 (D. Colo. 1991)). If a
plaintiff meets its burden, the defendant can
nevertheless defeat summary judgment “by merely
demonstrating the existence of a genuine dispute of
material fact.” Id. at 1265. In other words, the

78a
plaintiffs here must show that, considering the
summary-judgment record, all reasonable factfinders
would agree that the plaintiffs demonstrate an injury
traceable to the coverage requirement and redressable
by a favorable decision. See Alonso v. Westcoast Corp.,
920 F.3d 878, 885-86 (5th Cir. 2019).
These general principles alone should make the
majority’s error apparent. More specific authority
illuminates it. I explain first why the majority errs in
concluding the individual plaintiffs have standing,
then I explain why the majority errs in concluding the
state plaintiffs have standing.
A.
The majority concludes that the individual
plaintiffs have standing to challenge the coverage
requirement in the Patient Protection and Affordable
Care Act (the “ACA”), 26 U.S.C. § 5000A(a),
because it forces them to purchase health
insurance that they would not purchase otherwise.
The majority overlooks what will happen if the
individual plaintiffs fail to purchase insurance:
absolutely nothing. The individual plaintiffs will be no
worse off by any conceivable measure if they choose
not to purchase health insurance. Thus, whatever
injury the individual plaintiffs have incurred by
purchasing health insurance is entirely self-inflicted.
1

A long line of cases establishes that self-inflicted
injuries cannot establish standing because a selfinflicted injury, by definition, is not traceable to the
challenged action. See, e.g., Amnesty Int’l, 568 U.S. at
The coverage requirement is sometimes colloquially known as
the “individual mandate.” For reasons that will become clear, this
nickname can be misleading.

1

79a
416 (“[R]espondents cannot manufacture standing
merely by inflicting harm on themselves . . . .”);
Pennsylvania v. New Jersey, 426 U.S. 660, 664 (1976)
(“The injuries to the plaintiffs’ fiscs were self-inflicted,
resulting from decisions by their respective state
legislatures. . . . No State can be heard to complain
about damage inflicted by its own hand.”);
Zimmerman v. City of Austin, 881 F.3d 378, 389 (5th
Cir.) (“[S]tanding cannot be conferred by a selfinflicted injury.”), cert. denied, 139 S. Ct. 639 (2018).
When a plaintiff chooses to incur an expense, the
plaintiff must show that the challenged law forced the
plaintiff to incur that expense to avoid some other
concrete injury. See Amnesty Int’l, 568 U.S. at 415-16
(concluding costs plaintiffs incurred trying to avoid
surveillance were self-inflicted because plaintiffs’ fear
of surveillance was speculative); Contender Farms,
L.L.P. v. USDA, 779 F.3d 258, 266 (5th Cir. 2015)
(finding plaintiff had standing to challenge regulations
that required plaintiff to either “take additional
measures” to comply with regulation or “face harsher,
mandatory penalties” and prosecution). In other
words, a plaintiff can show standing if the challenged
act placed him between the proverbial rock and hard
place. But without showing such a dilemma, a plaintiff
“cannot manufacture standing” by expending costs to
avoid an otherwise noncognizable injury, which is
exactly what the individual plaintiffs did here.
Amnesty Int’l, 568 U.S. at 416.
The majority brushes off this authority by
insisting—without explanation—that labeling the
plaintiffs’ injuries self-inflicted “assumes” that the
coverage requirement does not act as a legal command
to purchase insurance, which the majority refuses to
question at the standing stage. The majority

80a
misunderstands the argument. Even accepting that
the coverage requirement acts as a legal command, the
individual plaintiffs are still free to disregard that
command without legal consequence. Therefore, any
injury they incur by freely choosing to obtain
insurance is still self-inflicted.
Nor does it matter that to avoid inflicting injury
upon themselves, the plaintiffs would have to violate
an unenforceable statute. Plaintiffs may challenge a
statute that requires them “to take significant and
costly compliance measures or risk criminal
prosecution.” Virginia v. Am. Booksellers Ass’n, 484
U.S. 383, 392 (1988) (emphasis added); see also, e.g.,
Int’l Tape Mfrs. Ass’n v. Gerstein, 494 F.2d 25, 28 (5th
Cir. 1974) (explaining that standing to challenge a
statute requires a “realistic possibility that the
challenged statute will be enforced to [the plaintiffs]
detriment”). But “[w]hen plaintiffs ‘do not claim that
they have ever been threatened with prosecution, that
a prosecution is likely, or even that a prosecution is
remotely possible,’ they do not allege a dispute
susceptible to resolution by a federal court.” Babbitt v.
United Farm Workers Nat’l Union, 442 U.S. 289, 29899 (1979) (quoting Younger v. Harris, 401 U.S. 37, 42
(1971)); see also Poe v. Ullman, 367 U.S. 497, 507
(1961) (Frankfurter, J., plurality) (“It is clear that the
mere existence of a state penal statute would
constitute insufficient grounds to support a federal
court’s adjudication of its constitutionality in
proceedings brought against the State’s prosecuting
officials if real threat of enforcement is wanting.”); cf.
Zimmerman, 881 F.3d at 389-90 (“[T]o confer
standing, allegations of chilled speech or ‘selfcensorship must arise from a fear of prosecution that
is not “imaginary or wholly speculative.’”” (quoting

81a
Ctr. for Individual Freedom v. Carmouche, 449 F.3d
655, 660 (5th Cir. 2006))).
Ullman illustrates this principle well. 2 The
plaintiffs there sought to challenge Connecticut’s
criminal prohibition on contraception. Ullman, 367
U.S. at 498 (Frankfurter, J., plurality). But in the more
than 75 years that the statute had been on the books,
only one violation had been prosecuted—and even that
was a collusive prosecution brought to challenge the
law. Id. at 501–02. The Court dismissed the challenge
for lack of standing, holding that “[t]he fact that
Connecticut has not chosen to press the enforcement
of this statute deprives these controversies of the
immediacy which is an indispensable condition of
constitutional adjudication.” Id. at 508. The Court
explained that it could not “be umpire to debates
concerning harmless, empty shadows.” Id. 3
The majority dismisses Ullman as an adversity case.
Nonetheless, as this court and the Supreme Court have
repeatedly recognized, Ullman grounds its analysis in terms of
standing and ripeness. See, e.g., Blum v. Yaretsky, 457 U.S. 991,
1000 (1982); Roark & Hardee LP v. City of Austin, 522 F.3d 533,
544 (5th Cir. 2008); Thomes v. Equitable Sav. & Loan Ass’n, 837
F.2d 1317, 1318 (5th Cir. 1988). In any event, Ullman is just one
example; other cases demonstrate this concept just as well. See,
e.g., Driehaus, 573 U.S. at 158-59 (“One recurring issue in our
cases is determining when the threatened enforcement of a law
creates an Article III injury. . . . [W]e have permitted preenforcement review under circumstances that render the
threatened enforcement sufficiently imminent.”).
3
The lead opinion in Ullman garnered only a four-judge
plurality. But Justice Brennan, who concurred in the judgment,
wrote that he “agree[d] that this appeal must be dismissed for
failure to present a real and substantial controversy” and that
“until the State makes a definite and concrete threat to enforce
these laws . . . this Court may not be compelled to exercise its
most delicate power of constitutional adjudication.” Ullman, 367
U.S. at 509 (Brennan, J., concurring in judgment). Accordingly,
2

82a
Ullman makes this an easy case. Connecticut’s
contraception law at least allowed the possibility of
enforcement, even if it was speculative and unlikely to
ever occur. Here, as I cannot say often enough, the
coverage requirement has no enforcement mechanism.
It is impossible for the individual plaintiffs to ever be
prosecuted (or face any other consequences) for
violating it. In “find[ing] it necessary to pass on” the
coverage requirement, the majority “close[s] [its] eyes
to reality.” Id. 4
The majority does not engage with the lessons of
Ullman and its progeny. The closest it comes is in its
citation to Texas v. EEOC, 933 F.3d 433 (5th Cir.
2019). That case does not abrogate Ullman, Younger,
Babbitt,
American
Booksellers,
or
Tape
Manufacturers—nor could it. In Texas v. EEOC, Texas
challenged EEOC administrative guidance stating
that employers who screen out job applicants with
criminal records could be held liable for disparateimpact discrimination. Id. at 437-38. The EEOC
argued that Texas did not have standing to challenge
the guidance because the guidance reflected only the
EEOC’s interpretation of Title VII, and the Attorney
General, not the EEOC, has the sole power to enforce
Title VII against states. See Brief for Appellants CrossAppellees at 18-19, Texas v. EEOC, 933 F.3d 433 (5th
five Justices agreed that plaintiffs lacked standing absent any
real threat of enforcement.
4
For the same reason, it does not matter that the district court
“expressly found” that the individual plaintiffs “are obligated to”
purchase health insurance. Even ignoring the conclusory nature
of this supposed finding of fact, it is not the abstract obligation
that matters; it is the concrete consequences, if any, that follow
from a violation of that obligation. And the district court did not
find (and there would be no basis for it to find) that the individual
plaintiffs would face any consequences.

83a
Cir. 2019) (No. 18-10638). In rejecting that argument,
this court explained that Title VII’s enforcement
scheme is not so simple. Although the EEOC may not
itself bring enforcement actions against states, it may
investigate states and refer cases to the Attorney
General for enforcement actions. EEOC, 933 F.3d at
447. Therefore, “the possibility of investigation by
EEOC and referral to the Attorney General for
enforcement proceedings if it fails to align its laws and
policies with the Guidance” put pressure on Texas to
conform to the EEOC’s guidance. Id.
In other words, even absent a direct threat of a
formal enforcement action from the EEOC, Texas
faced other consequences for disobeying the
guidance—including the possibility that the Attorney
General would enforce Title VII against it. In fact, we
noted that “[o]ne Texas agency ha[d] already been
required to respond to a charge of discrimination filed
with EEOC based on its no-felon hiring policy.” Id. at
447 n.26. The majority here cites no similar concrete
consequences that will (or even plausibly could) follow
if the plaintiffs violate the coverage requirement.
My conclusion that individual plaintiffs lack
standing is only bolstered by a unanimous opinion
issued mere weeks ago by a panel that included the
author of today’s majority opinion. In that case, the
court held that Austin, Texas could not use a suit
against the Texas Attorney General to challenge a
state statute, which the Attorney General was
authorized to enforce, that barred the city from
enforcing one of its ordinances. City of Austin v.
Paxton, No. 18-50646, F.3d , 2019 WL 6520769,
at *6 (5th Cir Dec. 4, 2019). Although the Paxton court
based its holding on sovereign immunity, it looked to
“our standing jurisprudence,” and “note[d] that it’s

84a
unlikely the City had standing,” because it did not
show that the Attorney General would likely “inflict
‘future harm’” by enforcing the statute against Austin.
Id. at *6-7. If standing was absent in Paxton because
enforcement was insufficiently probable, I have no
idea why standing should be present in this case,
where enforcement of the challenged portion of the
ACA is altogether impossible.
In sum, even if the unenforceable coverage
requirement must be read as a command to purchase
health insurance, it does not harm the individual
plaintiffs because they can disregard it without
consequence. Binding precedent squarely establishes
that plaintiffs may not sue in such circumstances—
and with good reason. The great power of the judiciary
should not be invoked to disrupt the work of the
democratic branches when the plaintiffs can easily
avoid injury on their own. 5
B.
The majority’s conclusion that the state plaintiffs
have standing to challenge the coverage requirement
fares no better. I would deny the state plaintiffs
The majority’s suggestion that NFIB, 567 U.S. at 552 (opinion
of Roberts, C.J.), supports the individual plaintiffs’ standing does
not warrant above-the-line attention. In short, the NFIB Court
did not address standing. See id. at 530-708. At the time NFIB
was decided, the coverage requirement was set to take effect with
the shared-responsibility payment as an enforcement
mechanism. And there is no indication that any of the NFIB
plaintiffs were exempt from the shared-responsibility payment.
Thus, even if the majority seeks to infer from NFIB some
jurisdictional ruling in violation of the Supreme Court’s
“repeated[]” command “that the existence of unaddressed
jurisdictional defects has no precedential effect,” Lewis v. Casey,
518 U.S. 343, 352 n.2 (1996), NFIB offers no inferences of value
for the majority to draw. Further, counsel’s answer to a Justice’s
hypothetical question does not bind this court.
5

85a
standing because there is no evidence in the record,
much less conclusive evidence, to support the state
plaintiffs’ alleged injuries.
1.
The majority first concludes that the state
plaintiffs have standing because it believes that the
coverage requirement increases the number of state
employees who enroll in the states’ employee
healthcare programs. And with more enrollees, the
logic goes, the states as employers must file more
forms with the IRS at a higher cost to the states.
The majority’s biggest mistake is that it ignores the
posture of this case: the defendants appeal from the
district court’s order granting summary judgment to
the plaintiffs. Accordingly, the state plaintiffs face a
tremendous evidentiary burden—they must produce
evidence so conclusive of the coverage requirement’s
effect on their healthcare-administration costs that
the evidence “would ‘entitle [them] to a directed
verdict if the evidence went uncontroverted at trial.’”
Int’l Shortstop, 939 F.2d at 1264-65 (quoting Golden
Rule Ins., 755 F. Supp. at 951). 6 And the state
plaintiffs provided no evidence at all, never mind
conclusive evidence, to support the dubious notion that
even a single state employee enrolled in one of state
plaintiffs’ health insurance programs solely because of
the unenforceable coverage requirement. 7
The district court was free to—but did not—make findings of
jurisdictional fact, which we would review for clear error. See
Krim v. pcOrder.com, Inc., 402 F.3d 489, 494 (5th Cir. 2005).
Indeed, the district court did not address the state plaintiffs’
standing at all. Thus, for the state plaintiffs to establish standing
on their own motion for summary judgment, they must show the
summary-judgment evidence is conclusive.
7
The majority misunderstands my position. See Maj. Op. 32
6

86a
The majority relies on affidavits from several of the
state plaintiffs’ healthcare administrators. But these
affidavits only establish that the state plaintiffs incur
costs complying with the IRS reporting requirements
found in 26 U.S.C. §§ 6055(a) and 6056(a). And as the
majority recognizes, these requirements are distinct
from the coverage requirement. Accordingly, to trace
the state plaintiffs’ reporting burden to the coverage
requirement, the majority must additionally show that
at least some state employees have enrolled in
employer-sponsored health insurance solely because of
the unenforceable coverage requirement. The majority
comes up empty at this step, pointing only to a
conclusory statement from a South Dakota humanresources director claiming that the coverage
requirement, not §§ 6055(a) and 6056(a), caused South
Dakota to incur its reporting expenses. This will not
do. See, e.g., Lujan v. Nat’l Wildlife Fed’n, 497 U.S.
871, 888 (1990) (“The object of [summary judgment] is
not to replace conclusory allegations of the complaint
or answer with conclusory allegations of an
affidavit.”); Shaboon v. Duncan, 252 F.3d 722, 737 (5th
Cir. 2001) (“[U]nsupported affidavits setting forth
‘ultimate or conclusory facts and conclusions of law’
are insufficient to either support or defeat a motion for
summary judgment (alteration in original) (quoting
Orthopedic & Sports Injury Clinic v. Wang Labs., Inc.,
922 F.2d 220, 225 (5th Cir. 1991))). 8
n.31. The state plaintiffs do not need to identify a “specific” person
that is likely to enroll, but they still must establish that at least
one state employee will enroll as a result of the post-TCJA
coverage requirement. Otherwise, the state plaintiffs’ injuries are
not traceable to the provision they challenge and would not be
redressed by its elimination.
8
The majority suggests we must accept this statement as true
because the defendants did not “challenge” this evidence. The

87a
Citing Department of Commerce v. New York, 139
S. Ct. 2551 (2019), the majority argues the state
plaintiffs can establish standing by “showing that
third parties will likely react in predictable ways” to
the coverage requirement. Id. at 2566. But the
majority fails to explain why state employees who do
not want health insurance would nevertheless
predictably enroll in health insurance solely because
an unenforceable statute, here the coverage
requirement, directs them to do so. What the majority
fails to mention in its discussion of Department of
Commerce is that the “predictable” behavior at issue
there was individuals “choosing to violate their legal
duty to respond to the census.” Id. at 2565 (emphasis
added). Thus, Department of Commerce shows that
people will predictably violate the law when
majority cites no authority for this proposition, and I am at a loss
to understand where the majority came up with its challenge rule.
I know of nothing in the Federal Rules of Civil Procedure or the
caselaw requiring litigants to “challenge” conclusory statements
in declarations. On the contrary, courts in this circuit regularly
confront and disregard conclusory statements in the summaryjudgment record. See, e.g., Tex. Capital Bank N.A. v. Dall.
Roadster, Ltd. (In re Dall. Roadster, Ltd.), 846 F.3d 112, 124 (5th
Cir. 2017); Brown v. Mid-Am. Apartments, 348 F. Supp. 3d 594,
602-03 (W.D. Tex. 2018). The district courts and litigants of this
circuit will be surprised to learn about the majority’s new
summary-judgment rule.
The majority also claims that the statement is not conclusory.
But nothing in the affidavit addresses the post-TCJA coverage
requirement. The affiant states that his knowledge is “related to
the enactment of the ACA,” which occurred in 2010. He focuses
on “financial costs associated with ACA regulations” and
concludes that “South Dakota would be significantly burdened if
the ACA remained law.” The affidavit does not explain how the
post-TCJA coverage requirement harms South Dakota. Such
generalities, untethered to the actual law at issue in this appeal,
cannot establish standing—especially not at the summaryjudgment stage.

88a
sufficiently incentivized to do so. This directly
contradicts the assumption undergirding much of the
majority’s analysis—that people tend to follow the law
regardless of the incentives. And state employees who
do not want to enroll in insurance have every incentive
to violate the coverage requirement. 9
2.
The majority similarly argues that the coverage
requirement increases the number of individuals
enrolled in the state plaintiffs’ Medicaid programs.
This argument fails for the same reason: the state
plaintiffs produce no evidence—let alone conclusive
evidence—showing that anyone has enrolled in their
Medicaid programs solely because of the unenforceable
coverage requirement. To this end, the best the
majority can scrape up is a statement from Teresa
MacCartney, a Georgia budget official, stating that
“[a]fter the implementation of the ACA, [Georgia]
experienced increased enrollment of individuals
already eligible for Medicaid benefits under pre-ACA
A Congressional Budget Office report released shortly before
Congress repealed the shared-responsibility payment further
supports this notion. It concluded:

9

If the [shared-responsibility payment] was eliminated
but the [coverage requirement] itself was not repealed . .
. . only a small number of people who enroll in insurance
because of the [coverage requirement] under current law
would continue to do so solely because of a willingness to
comply with the law.
Cong. Budget Office, Repealing the Individual Health Insurance
Mandate: An Updated Estimate at 1 (2017) (hereinafter “CBO
Report”). On this record, we have been given no reason to believe
that any of the state plaintiffs’ employees are among this “small
number of people.” Id.

89a
eligibility standards.” The majority’s takeaway is that
the coverage requirement caused this increase. Maybe
so. But MacCartney’s statement refers specifically to
the coverage requirement at the time of the ACA’s
enactment, when the coverage requirement interacted
with the shared-responsibility payment. This
statement provides no insight into how the coverage
requirement affects Medicaid rolls after the sharedresponsibility payment’s repeal. In fact, MacCartney
signed her declaration on May 14, 2018, more than
seven months before the shared-responsibility
payment’s repeal went into effect. See Budget Fiscal
Year, 2018, Pub. L. No. 115-97, § 11081(b), 131 Stat.
2054, 2092 (2017).
Accordingly, the majority’s analysis again rests on
the necessary assumption that people will obey the
coverage requirement regardless of the incentives, in
direct contradiction to Department of Commerce. And
because Medicaid is available to eligible recipients at
little to no cost, it is especially unlikely that the
unenforceable coverage requirement would play any
significant part in anyone’s decision to enroll. It belies
common sense to conclude that anyone who would
otherwise pass on the significant benefits of Medicaid
would be motivated to enroll solely because of an
unenforceable law.
In sum, the majority cites no actual evidence tying
any costs the state plaintiffs have incurred to the
unenforceable coverage requirement. The state
plaintiffs accordingly cannot show an injury traceable
to the coverage requirement, so they do not have
standing to challenge the coverage requirement.
III.
I would not reach the merits of this case because,

90a
as explained in Part II, I would vacate the district
court’s order for lack of standing. But as the majority
errs on the merits too, I voice my disagreement.
“Neither the Act nor any other law attaches
negative legal consequences to not buying health
insurance, beyond requiring a payment to the IRS.”
NFIB, 567 U.S. at 568 (Roberts, C.J., majority
opinion). Now that Congress has zeroed out that
payment,
the
coverage
requirement
affords
individuals the same choice individuals have had since
the dawn of private health insurance, either purchase
insurance or else pay zero dollars. Thus, to my mind,
the majority’s focus on whether Congress’s taxing
power or the Necessary and Proper Clause authorizes
Congress to pass a $0 tax is a red herring; the real
question is whether Congress exceeds its enumerated
powers when it passes a law that does nothing. 10 And
of course it does not. 11 Congress exercises its
legislative power when it “alter[s] the legal rights,
duties and relations of persons.” INS v. Chadha, 462
U.S. 919, 952 (1983); cf. id. (“Not every action taken by
either House is subject to the bicameralism and
presentment requirements of Art. I. Whether actions
taken by either House are, in law and fact, an exercise
of legislative power depends not on their form but upon
‘whether they contain matter which is properly to be
“In litigation generally, and in constitutional litigation most
prominently, courts in the United States characteristically pause
to ask: Is this conflict really necessary?” Arizonans for Official
English v. Arizona, 520 U.S. 43, 75 (1997). The majority would do
well if it paused to ask whether it is necessary for a federal court
to rule on whether the Constitution authorizes a $0 tax or
otherwise prohibits Congress from passing a law that does
nothing. The absurdity of these inquiries highlights the severity
of the majority’s error in finding the plaintiffs have standing to
challenge this dead letter.
11 The majority does not argue otherwise.
10

91a
regarded as legislative in its character and effect.”’
(citation omitted) (quoting S. Rep. No. 1335, 54th
Cong., 2d Sess., 8 (1897))).
Lest the majority mistake my position and end up
shadowboxing
with
“bizarre
metaphysical
conclusions,”
“quantum
musings,”
or
ersatz
inconsistencies, Maj. Op. at 44 & n.40, I need to make
something explicit at the outset. The TCJA did not
change the text or the meaning of the coverage
requirement, but it did change the real-world effects it
produces. Before the TCJA, the two options afforded
by the coverage requirement—purchasing insurance
or making a shared-responsibility payment—were
both burdensome, but Congress could force individuals
to choose one of those options by exercising its Taxing
Power. Today, the shared-responsibility payment’s
meaning has not changed—it still gives individuals
the choice to purchase insurance or make a sharedresponsibility payment—but the amount of that
payment is zero dollars, which means that the
coverage requirement now does nothing. The
majority’s contrary conclusion rests on the premise
that the coverage requirement compels individuals to
purchase health insurance. With this understanding,
the majority says that the coverage requirement does
exactly what the Supreme Court said it cannot do:
compel participation in commerce. See NFIB, 567 U.S.
at 552 (opinion of Roberts, C.J.); id. at 652-53 (joint
dissent). This conclusion follows fine from the premise,
but the premise is wrong. Despite its seemingly
mandatory language, the coverage requirement does
not compel anyone to purchase health insurance.
In NFIB, although five Justices agreed that “[t]he
most straightforward reading of the [coverage
requirement] is that it commands individuals to

92a
purchase insurance,” id. at 562 (opinion of Roberts,
C.J.); accord id. at 663 (joint dissent), applying the
canon of constitutional avoidance, the Court rejected
this interpretation. Instead, the Court interpreted the
coverage requirement to offer applicable individuals a
“lawful choice” between purchasing health insurance
and paying the shared-responsibility payment, which
the Court interpreted as a valid exercise of Congress’s
taxing power. Id. at 574 (Roberts, C.J., majority
opinion). This is a permissible construction, the Court
concluded,
because
“[w]hile
the
[coverage
requirement] clearly aims to induce the purchase of
health insurance, it need not be read to declare that
failing to do so is unlawful.” Id. at 567-68. The Court
observed that “[n]either the [ACA] nor any other law
attaches negative legal consequences to not buying
health insurance, beyond requiring a payment to the
IRS.” Id. at 568. And the Court further explained:
Indeed, it is estimated that four million
people each year will choose to pay the
IRS rather than buy insurance. We would
expect Congress to be troubled by that
prospect if such conduct were unlawful.
That Congress apparently regards such
extensive failure to comply with the
[coverage requirement] as tolerable
suggests that Congress did not think it
was creating four million outlaws.
Id. (citation omitted).
The NFIB Court’s application of constitutional
avoidance as an interpretive tool does not mean that
the Court rewrote the statute. Only Congress can do
that. Rather, the Court was “choosing between
competing plausible interpretations of a statutory

93a
text, resting on the reasonable presumption that
Congress did not intend the alternative which raises
serious constitutional doubts.” Clark v. Martinez, 543
U.S. 371, 381 (2005). “The canon is thus a means of
giving effect to congressional intent, not of subverting
it.” Id. at 382. Accordingly, when the Court ruled in
NFIB that “[t]hose subject to the [coverage
requirement] may lawfully forgo health insurance,”
NFIB, 567 U.S. at 574 n.11, that was an authoritative
determination regarding what the text of the coverage
requirement meant and what Congress intended.
The majority pushes aside NFIB’s construction,
acting as though the fact that the NFIB Court applied
the canon of constitutional avoidance means that its
interpretation no longer governs following the repeal
of the shared-responsibility payment. But when the
Court construes statutes, its “interpretive decisions, in
whatever way reasoned, effectively become part of the
statutory scheme, subject (just like the rest) to
congressional change.” Kimble v. Marvel Entm’t, LLC,
135 S. Ct. 2401, 2409 (2015) (emphasis added). While
Congress can change its mind and could have amended
the coverage requirement to turn the “lawful choice”
described by NFIB, 567 U.S. at 574, into an
unwavering command, the majority does not suggest
that Congress ever made such a choice. Sure, Congress
amended the shared-responsibility payment in 2017.
Yet as the district court went to great lengths to
establish and the majority is elsewhere eager to point
out, the coverage requirement and the sharedresponsibility payment are distinct provisions. See
Maj. Op. at 19 (“To bring a claim against the [coverage
requirement], therefore, the plaintiffs needed to show
injury from the individual mandate—not from the
shared responsibility payment.”); Texas v. United

94a
States, 340 F. Supp. 3d 579, 596 (N.D. Tex. 2018) (“It
is critical to clarify something at the outset: the
shared-responsibility payment, 26 U.S.C. § 5000A(b),
is distinct from the [coverage requirement], id. §
5000A(a).”). And Congress did not touch the text of the
coverage requirement when it amended the sharedresponsibility payment. See Budget Fiscal Year, 2018,
Pub. L. No. 115-97, § 11081. Compare § 5000A(a), with
26 U.S.C. § 5000A(a) (2011). At risk of stating the
obvious, if the text of the coverage requirement has not
changed, its meaning could not have changed either.
By “giv[ing] these same words a different meaning,”
the majority “invent[s] a statute rather than
interpret[s] one.” Clark, 543 U.S. at 378.
The majority is thus left on unsteady ground:
amendment by implication, which “will not be
presumed unless the legislature’s intent is ‘clear and
manifest.’” In re Lively, 717 F.3d 406, 410 (5th Cir.
2013) (quoting Nat’l Ass’n of Home Builders v. Defs. of
Wildlife, 551 U.S. 644, 662 (2007)); see also, e.g., Epic
Sys. Corp v. Lewis, 138 S. Ct. 1612, 1624 (2018) (“[I]n
approaching a claimed conflict, we come armed with
the ‘stron[g] presum[ption]’ that repeals by implication
are ‘disfavored’ and that ‘Congress will specifically
address’ preexisting law when it wishes to suspend its
normal operations in a later statute.” (second and
third alterations in original) (quoting United States v.
Fausto, 484 U.S. 439, 452-53 (1988))). This rule
operates with equal force when a judicial construction
previously illuminated the meaning of the purportedly
amended statute. See TC Heartland LLC v. Kraft
Foods Grp. Brands LLC, 137 S. Ct. 1514, 1520 (2017)
(“When Congress intends to effect a change of [a
statute’s earlier judicial interpretation], it ordinarily
provides a relatively clear indication of its intent in the

95a
text of the amended provision.”); Midlantic Nat’l Bank
v. N.J. Dep’t of Envtl. Prot., 474 U.S. 494, 501 (1986)
(“The normal rule of statutory construction is that if
Congress intends for legislation to change the
interpretation of a judicially created concept, it makes
that intent specific.”); cf. Whitman v. Am. Trucking
Ass’n, 531 U.S. 457, 468 (2001) (“Congress, we have
held, does not alter the fundamental details of a
regulatory scheme in vague terms or ancillary
provisions—it does not, one might say, hide elephants
in mouseholes.”). Congress’s silence on the matter is
thus conclusive.
Yet even if one probes further, it boggles the mind
to suggest that Congress intended to turn a
nonmandatory provision into a mandatory provision
by doing away with the only means of incentivizing
compliance with that provision. Congress quite plainly
intended to relieve individuals of the burden the
coverage requirement put on them; it did not intend to
increase that burden. And if it did, it certainly did not
make that intent “clear and manifest.” Lively, 717 F.3d
at 410. Moreover, the considerations that led the NFIB
Court to conclude that Congress did not intend the
coverage requirement to impose a legal command to
purchase health insurance are even more compelling
in the absence of the shared-responsibility payment.
Whereas before the only “negative legal consequence[]
to not buying health insurance” was the payment of a
tax, NFIB, 567 U.S. at 567-68, now there are no
consequences at all. And as the Congressional Budget
Office (“CBO”) has predicted, without the sharedresponsibility payment, most applicable individuals
will not maintain health insurance solely for the
purpose of obeying the coverage requirement. See
Cong. Budget Office, Repealing the Individual Health

96a
Insurance Mandate: An Updated Estimate at 1 (2017).
“That Congress apparently regards such extensive
failure to comply with the [coverage requirement] as
tolerable suggests that Congress did not think it was
creating [millions of] outlaws.” NFIB, 567 U.S. at 568.
Ergo, when Congress zeroed-out the sharedresponsibility payment without amending the
coverage requirement, it did not do away with the
lawful choice it previously offered applicable
individuals; it simply changed the parameters of that
choice. Under the old scheme, applicable individuals
could lawfully choose between maintaining health
insurance and paying a tax. Under the new scheme,
applicable individuals can lawfully choose between
maintaining health insurance and doing nothing. In
other words, the coverage requirement is a dead
letter—it functions as an expression of national policy
or words of encouragement, at most. Accordingly,
although I would not reach the merits, I would reverse
if I did.
IV.
I agree with much of what the majority has to say
about the district court’s severability ruling. But I fail
to understand the logic behind remanding this case for
a do-over. Severability is a question of law that this
court can review de novo. And the answer here is quite
simple—indeed, a severability analysis will rarely be
easier. After all, “[o]ne determines what Congress
would have done by examining what it did,” and
Congress declawed the coverage requirement without
repealing any other part of the ACA. Legal Servs. Corp
v. Velazquez, 531 U.S. 533, 560 (2001) (Scalia, J.,
dissenting); see also Ayotte v. Planned Parenthood of
N. New Eng., 546 U.S. 320, 330 (2006) (“[T]he

97a
touchstone for [severability analysis] is legislative
intent.”). Consequently, little guesswork is needed to
determine that Congress believed the ACA could stand
in its entirety without the unenforceable coverage
requirement.
The majority suggests that remand is necessary
because the district court “has many tools at its
disposal” and is thus “best positioned to undertake”
the severability inquiry. Maj. Op. at 60. It is true that
the district court is better able to assess factual issues
than appellate judges, because it can hold evidentiary
hearings, but I cannot see how that could be relevant,
since severability is a question of law that we review
de novo. Further, it is not clear what sort of evidence
the district court could receive that would be useful
when deciding severability questions except perhaps
legislative history, a source which the majority
derides. See Maj. Op. at 56 n.45 (“[W]e caution against
relying on individual statements by legislators to
determine the meaning of the law.”). When it comes to
analyzing the statute’s text and historical context, see
id., we are just as competent as the district court.
There is thus no reason to prolong the uncertainty this
litigation has caused to the future of this indubitably
significant statute. 12
The majority also suggests that remand is necessary so that
the district court can consider remedial issues, raised by the
United States for the first time on appeal, regarding the
appropriate scope of relief. But such issues are largely moot if, as
I believe, the coverage requirement is completely severable from
the rest of the ACA. For example, I do not perceive a meaningful
difference between a nationwide injunction prohibiting
enforcement of the already-unenforceable coverage requirement
versus an injunction against enforcement that is limited to the
plaintiff states. In any case, this court could—and, in my view,
should— resolve the severability issue even if remanding

12

98a
A.
Before I address the more specific problems with
the district court’s inseverability ruling, some
background on the ACA is in order. Congress passed
the ACA in 2010 to address a growing crisis of
Americans living without health insurance. Prior to
the ACA, nearly 50 million Americans (about 15
percent of the population at the time) were uninsured.
Florida ex rel. Atty Gen. v. U.S. Dep’t of Health &
Human Servs., 648 F.3d 1235, 1244 (11th Cir. 2011),
rev’d on other grounds, NFIB, 567 U.S. 519. Although
many large employers provided health insurance,
coverage was often cost prohibitive for small
businesses and consumers seeking insurance through
the individual market (i.e., directly instead of through
an employer). See U.S. Gov’t Accountability Office,
GAO-12-166R, Health Care Coverage: Job Lock and
the Potential Impact of the Patient Protection and
Affordable Care Act 3-4 (2011). Moreover, insurance
companies
could—and
regularly
would—deny
coverage to high-risk consumers, especially those with
preexisting medical conditions. Id. at 4.
The pre-ACA status quo created numerous
economic and social problems. Most obviously,
America’s uninsured population could not afford
spiraling healthcare costs, thus exacerbating health
problems, leading to an estimated 45,000 premature
deaths annually, Andrew P. Wilper et al., Health
Insurance and Mortality in US Adults, 99 Am. J. Pub.
Health 2289, 2292 (2009), and causing “62 percent of
all personal bankruptcies,” 42 U.S.C. § 18091(2)(G).
The uninsured crisis caused some subtler problems
too. For one thing, hospitals would have to absorb the
remedial issues is appropriate.

99a
costs of treating uninsured patients and would
inevitably pass those costs along to insurance
companies, which would then pass them along to
consumers. See § 18091(2)(F) (“The cost of providing
uncompensated care to the uninsured was
$43,000,000,000 in 2008. To pay for this cost, health
care providers pass on the cost to private insurers,
which pass on the cost to families.”). See generally
Amicus Br. of HCA Healthcare, Inc. at 9-13. And
dependency on employer-based healthcare decreased
labor mobility, discouraged entrepreneurship, and
kept potential caregivers away from the home. See
GAO-12-166R, supra, at 5-6.
In enacting the ACA, Congress sought to address
these and other problems with the national healthcare
system by drastically reducing the number of
uninsured and underinsured Americans. To achieve
this goal, the ACA undertook a series of reforms, most
notably to the individual insurance market. See
generally Patient Protection and Affordable Care Act,
Pub. L. No. 111-148, tit. I, 124 Stat. 119 (2010). Among
the ACA’s most important (and visible) reforms are
two related provisions: guaranteed issue and
community rate. See 42 U.S.C. §§ 300gg, 300gg-1. The
guaranteed-issue provision requires health-insurance
providers to accept every individual who applies for
coverage, thus preventing insurers from denying
coverage based on a consumer’s preexisting medical
condition. See § 300gg-1(a). The community-rate
provision prevents insurers from charging a higher
rate because of a policyholder’s medical condition. See
§ 300gg(a).
Left without some counterbalance, the guaranteedissue and community-rate provisions threatened to
overload insurers’ risk pools with high-risk policy

100a
holders. Beyond allowing more high-risk consumers to
purchase health insurance (as intended), these
provisions disincentivized healthy (i.e., low risk)
consumers from purchasing health insurance because
it allowed them to wait until they developed costly
health problems to purchase insurance. 13 This would
have caused premiums to skyrocket, exacerbating
many of the problems Congress sought to solve. See
generally Amicus Br. of Blue Cross Blue Shield Ass’n
at 3-4. Thus, the ACA included several provisions to
incentivize low-risk consumers to purchase health
insurance. It offered tax credits to offset much of the
cost of health insurance for middle-income consumers.
See 26 U.S.C. § 36B(b). It created healthcare
exchanges to facilitate competition among health
plans and to lower transaction costs. See 42 U.S.C. §§
18031, 18041. It limited new enrollments to an openenrollment period set by the Secretary of Health and
Human Services, which mitigates the adverseselection problem by preventing consumers from
purchasing health insurance only when they need it.
See § 18031(c)(6). And it included the coverage
requirement at issue in this lawsuit. See § 5000A(a).
Although the coverage requirement has been
among the ACA’s best-known provisions, the ACA’s
reforms to the private insurance market extend well
beyond it. As just mentioned, Congress created other
mechanisms to achieve the same goal as the coverage
requirement: incentivize low-risk consumers to
purchase health insurance. The ACA also included
other provisions expanding access to the private
insurance market, including a requirement that
employers with 50 or more employees offer health
insurance, see 26 U.S.C. § 4980H, and a requirement
13

This is known as the adverse-selection problem.

101a
that health-insurance providers allow young adults to
remain on their parents’ insurance until they turn 26,
see 42 U.S.C. § 300gg-14. And it included provisions
designed to make health-insurance policies more
attractive, such as those directly regulating premiums,
see, e.g., id. § 300gg-18(b), limiting benefits caps, see
id. § 300gg-11, and prescribing certain minimumcoverage requirements for health plans, see, e.g., id. §
300gg-13. Moreover, the ACA contains countless other
provisions that are unrelated to the private insurance
market—and many that are only tangentially related
to health insurance at all. 14 The following are only
some of many possible examples:

• Section 3006, which directs the Secretary of

Health and Human Services to “develop a
plan to implement a value-based purchasing
program for payments under the Medicare
program . . . for skilled nursing facilities.”

• Section

4205, which requires chain
restaurants to conspicuously display “the
number of calories contained in . . . standard
menu item[s].”

• Section 5204, which creates a student-loan

repayment assistance program “to eliminate
critical public health workforce shortages in
Federal, State, local and tribal public health
agencies.”

• Section 6402, which, among other things,
strengthens

criminal

laws

prohibiting

The ACA contains ten titles. Only the first title focuses on the
private insurance industry. The other titles address wide-ranging
topics from the “prevention of chronic disease,” ACA tit. IV, to the
“health care work force,” id. tit. V.

14

102a
healthcare fraud.

• Title III of Part X, which reauthorizes and
amends
the
Indian
Health
Care
Improvement Act, a decades-old statute
creating and maintaining the infrastructure
for tribal healthcare services.

Given the breadth of the ACA and the importance of
the problems that Congress set out to address, it is
simply unfathomable to me that Congress hinged the
future of the entire statute on the viability of a single,
deliberately unenforceable provision. 15
B.
In Planned Parenthood of Northern New England,
the Court announced the three principles that must
guide our severability analysis. “First, we try not to
nullify more of a legislature’s work than is necessary,
for we know that ‘[a] ruling of unconstitutionality
frustrates the intent of the elected representatives of
the people.’” Planned Parenthood of N. New Eng., 546
U.S. at 329 (alteration in original) (quoting Regan v.
Time, Inc., 468 U.S. 641, 652 (1984) (plurality
opinion)). “Second, mindful that our constitutional
mandate and institutional competence are limited, we
restrain ourselves from ‘rewrit[ing] [a] law to conform
it to constitutional requirements’ even as we strive to
salvage it.” Id. (first alteration in original) (quoting
Am. Booksellers, 484 U.S. at 397). “Third, the
15I

do not mean to suggest that, as a policy matter, Congress chose
the best (or even worthwhile) solutions to these problems. Such
matters are beyond my job description, so I express no opinion on
them. But the district court should have thought more critically
about whether Congress likely intended to leave its chosen
solution to a serious problem so vulnerable to judicial
invalidation.

103a
touchstone for any decision about remedy is legislative
intent, for a court cannot ‘use its remedial powers to
circumvent the intent of the legislature.’” Id. at 330
(quoting Califano v. Westcott, 443 U.S. 76, 94 (1979)
(Powell, J., concurring in part and dissenting in part)).
In accordance with these principles, the Court’s
cases suggest a two-part inquiry. First, we must ask
“whether the law remains ‘fully operative’ without the
invalid provisions.” Murphy v. NCAA, 138 S. Ct. 1461,
1482 (2018); see also United States v. Booker, 543 U.S.
220, 258-59 (2005); Alaska Airlines, Inc. v. Brock, 480
U.S. 678, 684 (1987). If so, the remaining provisions
are “presumed severable” from the invalid provision.
Chadha, 462 U.S. at 934 (quoting Champlin Ref. Co.
v. Corp. Comm’n, 286 U.S. 210, 234 (1932)). This
presumption is rebutted only if “the statute’s text or
historical context makes it ‘evident’ that Congress,
faced with the limitations imposed by the
Constitution, would have preferred” no statute over
the statute with only the permissible provisions. Free
Enter. Fund v. Pub. Co. Accounting Oversight Bd., 561
U.S. 477, 509 (2010). And as should be clear by now,
“the ‘normal rule’ is ‘that partial, rather than facial,
invalidation is the required course.’” Id. at 508
(quoting Brockett v. Spokane Arcades, Inc., 472 U.S.
491, 504 (1985)).
1.
The majority has identified the most glaring flaw
in the district court’s severability analysis: the district
court “gives relatively little attention to the intent of
the 2017 Congress, which appears in the analysis only
as an afterthought.” When one takes this fact into
account, there can be little doubt as to Congress’s
intent.

104a
We have unusual insight into Congress’s thinking
because Congress was given a chance to weigh in on
the ACA’s future without an effective coverage
requirement and it decided the ACA should remain in
place. By zeroing out the shared-responsibility
payment, the 2017 Congress left the coverage
requirement unenforceable. If Congress viewed the
coverage requirement as so essential to the rest of the
ACA that it intended the entire statute to rise and fall
with the coverage requirement, it is inconceivable that
Congress would have declawed the coverage
requirement as it did. And make no mistake: Congress
declawed the coverage requirement. As the CBO found
only a month before Congress passed the TCJA, “[i]f
the [coverage requirement] penalty was eliminated
but the [coverage requirement] itself was not repealed,
the results would be very similar to” if the coverage
requirement itself were repealed. 2017 CBO Report,
supra, at 1. Regardless of lofty civic notions about
people who follow the law for the sake of following the
law, the objective evidence before Congress was that
“only a small number of people” would obey the
coverage
requirement
without
the
sharedresponsibility payment. Id.; cf. Dep’t of Commerce, 139
S. Ct. at 2565-66 (concluding people will
“predictabl[y]” “violate their legal duty” when
incentivized to do so). Congress accordingly knew that
repealing the shared-responsibility payment would
have the same essential effect on the ACA’s statutory
scheme as would repealing the coverage requirement.
Furthermore, as various amici highlight, judicial
repeal of the ACA would have potentially devastating
effects on the national healthcare system and the
economy at large. See, e.g., Amicus Br. of Am.’s Health
Ins. Plans (discussing impact on health-insurance

105a
industry); Amicus Br. of 35 Counties, Cities, and
Towns (discussing impact on municipalities); Amicus
Br. of Bipartisan Econ. Scholars (discussing impact on
economy); Amicus Br. of Am. Hosp. Ass’n et al.
(discussing impact on hospitals). Regardless of
whether the ACA is good or bad policy, it is
undoubtedly significant policy. It is unlikely that
Congress would want a statute on which millions of
people rely for their healthcare and livelihoods to
disappear overnight with the wave of a judicial wand.
If Congress wanted to repeal the ACA through the
deliberative legislative process, it could have done so.
But with the stakes so high, it is difficult to imagine
that this is a matter Congress intended to turn over to
the judiciary.
2.
A second flaw in the district court’s analysis is the
great weight it places on the fact that Congress in 2017
did not repeal its statutory findings emphasizing the
coverage requirement’s importance to the guaranteedissue and community-rate provisions. See 42 U.S.C. §
18091. The district court overread the significance of §
18091. Congress enacted the findings in § 18091 to
demonstrate the coverage requirement’s role in
regulating interstate commerce. When it invokes its
commerce power, Congress routinely makes such
findings to facilitate judicial review. See United States
v. Morrison, 529 U.S. 598, 612 (2000) (“While
‘Congress normally is not required to make formal
findings as to the substantial burdens that an activity
has on interstate commerce,’ the existence of such
findings may ‘enable us to evaluate the legislative
judgment that the activity in question substantially
affect[s] interstate commerce, even though no such
substantial effect [is] visible to the naked eye.’”

106a
(alterations in original) (citation omitted) (quoting
United States v. Lopez, 514 U.S. 549, 562-63 (1995))).
Indeed, § 18091(2), the subsection the district court
focused its attention on, is entitled “Effects on the
national economy and interstate commerce.”
Section 18091 is not an inseverability clause, and
nothing in its text suggests that Congress intended to
make the coverage requirement inseverable from the
remainder of the ACA. If Congress intended to draft
an inseverability clause, it knew how to do so. See
Office of Legislative Counsel, U.S. Senate, Senate
Legislative Drafting Manual § 131(b) (1997)
(explaining purpose of inseverability clause). Compare
id. § 131(c) (providing as example of proper form for
inseverability clause: “EFFECT OF INVALIDITY ON
OTHER PROVISIONS OF ACT.—If section 501, 502,
or 503 of the Federal Election Campaign Act of 1971
(as added by this section) or any part of those sections
is held to be invalid, all provisions of and amendments
made by this Act shall be invalid”), with § 18091(2)(H)
(“The requirement is an essential part of this larger
regulation of economic activity, and the absence of the
requirement would undercut Federal regulation of the
health insurance market.”). In fact, both the House
and the Senate legislative drafting guides suggest that
Congress should include an inseverability clause if it
wants to make a statute inseverable because “[t]he
Supreme Court has made it quite clear that invalid
portions of statutes are to be severed ‘unless it is
evident that the Legislature would not have enacted
those provisions which are within its powers,
independently of that which is not.’” Office of
Legislative Counsel, U.S. House of Representatives,
House Legislative Counsel’s Manual on Drafting Style
§ 328 (1995) (quoting Chadha, 462 U.S. at 931); accord

107a
Senate Legislative Drafting Manual, supra, at §
131(a). The absence of a genuine inseverability clause
should be all but conclusive in assessing the
legislature’s intent.
Moreover, the argument that § 18091 is meant to
signal Congress’s intent that the coverage
requirement be inseverable proves far too much.
Section 18091 discusses the coverage requirement’s
importance to the entire federal healthcare regulatory
scheme, including—along with the ACA—the Public
Health Service Act (“PHSA”) and the Employee
Retirement Income Security Act (“ERISA”). See §
18091(2)(H) (“Under the Employee Retirement Income
Security Act of 1974 (29 U.S.C. 1001 et seq.), the Public
Health Service Act (42 U.S.C. 201 et seq.), and this
Act, the Federal Government has a significant role in
regulating health insurance. The [coverage]
requirement is an essential part of this larger
regulation of economic activity, and the absence of the
requirement would undercut Federal regulation of the
health insurance market.” (emphasis added)). It is not
suggested that Congress intended a court to strike
down the PHSA and ERISA if it found the coverage
requirement unconstitutional. This would be
especially implausible given the intensity of the debate
over the coverage requirement’s constitutionality from
the get-go. See NFIB, 567 U.S. at 540 (“On the day the
President signed the [ACA] into law, Florida and 12
other States filed a complaint in the Federal District
Court for the Northern District of Florida.”). Yet in
signaling that the coverage requirement is “an
essential part of this larger regulation,” Congress did
not distinguish between the ACA and these prior
statutes. Thus, § 18091 cannot reasonably be read to
bear on the coverage requirement’s severability.

108a
3.
Another flaw in the district court’s analysis is its
suggestion that the Supreme Court concluded in NFIB
and King v. Burwell, 135 S. Ct. 2480 (2015), that the
coverage requirement is inseverable from the ACA’s
guaranteed-issue and community-rate provisions. The
district court misconstrued these opinions. And even if
the district court read them correctly, these opinions
address the coverage requirement as enforced by the
shared-responsibility payment. They give little
valuable insight into the coverage requirement’s role
in the post-TCJA ACA.
In NFIB, only the dissenters addressed the
coverage requirement’s severability. The district court
did not suggest it is bound by a Supreme Court dissent,
and of course it is not. The district court instead took
language from the other five Justices out of context to
conclude that each of them viewed the coverage
requirement as inseverable. But none of the language
the district court cited addresses severability. See
NFIB, 567 U.S. at 547-48 (opinion of Roberts, C.J.)
(discussing Government’s argument that coverage
requirement plays a role in regulating interstate
commerce); id. at 597 (Ginsburg, J., dissenting in part)
(same). Although the Justices’ reasoning certainly
suggests that they saw the coverage requirement as an
important part of the statutory scheme as it existed in
2012, this does not mean the Justices found it
“evident” that Congress would have preferred the
entire statute to fall without the coverage
requirement. Alaska Airlines, 480 U.S. at 684.
King likewise contains some helpful commentary
about the ACA’s original statutory scheme, but it does
not discuss severability or otherwise control the

109a
severability analysis. The Court ruled in King that the
ACA’s tax credits were available to every eligible
consumer regardless of whether the state in which a
consumer lived established its own exchange or relied
on the federally operated exchange. 135 S. Ct. at 2496.
The coverage requirement came up because many
more individuals would have been exempt from the
shared-responsibility payment if tax credits were not
available to them. Id. at 2493-95; see also §
5000A(e)(1)(A) (“No penalty shall be imposed . . . with
respect to . . . [a]ny applicable individual for any month
if the applicable individual’s required contribution
(determined on an annual basis) for coverage for the
month exceeds 8 percent of such individual’s
household income . . . .”). 16 Noting the importance of
the tax credits and coverage requirement (as enforced
by the shared-responsibility payment) to the statutory
structure, the Court concluded as a matter of statutory
interpretation that Congress did not intend a scheme
in which neither tax credits nor the coverage
requirement were operating to bring low-risk
consumers into the insurance pools. See King, 135 S.
Ct. at 2492-94 (“The combination of no tax credits and
an ineffective coverage requirement could well push a
State’s individual insurance market into a death
spiral. . . . It is implausible that Congress meant the
[ACA] to operate in this manner.”).
The district court framed King as saying that
Congress intrinsically tied the community-rate and
Lest there be any confusion, the exemption at issue in King
exempted individuals otherwise subject to the coverage
requirement from the shared-responsibility payment; it did not
exempt them from the coverage requirement itself. Exemptions
from the shared-responsibility payment are listed in §
5000A(e)(1), whereas exemptions from the coverage requirement
itself are listed in § 5000A(d).
16

110a
guaranteed-issue provisions to the coverage
requirement, meaning that those provisions must be
inseverable from the coverage requirement. But the
district court ignored a crucial aspect of the King
Court’s analysis: it explicitly discussed the coverage
requirement as enforced by the shared-responsibility
payment. See id. at 2493 (referring to the coverage
requirement as “a requirement that individuals
maintain health insurance coverage or make a
payment to the IRS” (emphasis added)). Indeed, as the
Court identified it, the crux of the problem with
denying consumers tax credits in federal-exchange
states was that doing so would make a large number
of individuals unable to afford insurance, thus
exempting them from the shared-responsibility
payment. See id. These widespread exemptions would,
in turn, make the coverage requirement “ineffective.”
Id. King thus speaks far more to the sharedresponsibility payment’s role in the ACA’s pre-TCJA
statutory scheme than it does the coverage
requirement’s role in the statutory scheme.
Even to the extent the Court in NFIB or King
meant to opine on the coverage requirement’s
severability, these cases were both decided before the
TCJA. They thus give no insight into how the coverage
requirement fits into the post-TCJA scheme. Whatever
reservations the Court previously harbored about
severing the coverage requirement, Congress plainly
did not share those concerns when it zeroed out the
shared-responsibility payment. Congress either
concluded that healthcare markets under the ACA had
reached a point of stability at which they no longer
needed an effective coverage requirement, 17 or it chose
17 See CBO Report, supra, at 1 (concluding that “[n]ongroup
insurance markets would continue to be stable in almost all areas

111a
to accept the negative side effects of effectively
repealing the coverage requirement as a cost of
relieving the burden it placed on applicable
individuals. Either way, the legislative considerations
have necessarily shifted.
In sum, there was no reason for the district court to
conclude that any provision in the ACA was
inseverable from the coverage requirement. The
majority does not necessarily disagree. I thus do not
understand its decision to remand when, even on the
majority’s analysis of the case, it could instead reverse
and render a judgment declaring only the coverage
requirement unconstitutional.
V.
Limits on judicial power demand special respect in
a case like this. For one thing, careless judicial
interference has the potential to be especially
pernicious when it involves a complex statute like the
ACA, which carries such significant implications for
the welfare of the economy and the American populace
at large. For another, the legitimacy of the judicial
branch as a countermajoritarian institution in an
otherwise democratic system depends on its ability to
operate with restraint—and especially so in a highprofile case such as the one at bar. The district court’s
opinion is textbook judicial overreach. The majority
perpetuates that overreach and, in remanding,
ensures that no end for this litigation is in sight.
I respectfully dissent.
of the country throughout the coming decade” if the coverage
requirement were repealed); Amicus Br. of Blue Cross Blue
Shield Ass’n at 24-27 (explaining that tax credits and other ACA
provisions are driving enough consumers into insurance markets
to make the coverage requirement unnecessary).

112a
APPENDIX B
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-10011
STATE OF TEXAS; STATE OF WISCONSIN;
STATE OF ALABAMA; STATE OF ARIZONA;
STATE OF FLORIDA; STATE OF GEORGIA;
STATE OF INDIANA; STATE OF KANSAS; STATE
OF LOUISIANA; PAUL LEPAGE, Governor of
Maine; STATE OF MISSISSIPPI, by and through
Governor Phil Bryant; STATE OF MISSOURI;
STATE OF NEBRASKA; STATE OF NORTH
DAKOTA; STATE OF SOUTH CAROLINA; STATE
OF SOUTH DAKOTA; STATE OF TENNESSEE;
STATE OF UTAH; STATE OF WEST VIRGINIA;
STATE OF ARKANSAS; NEILL HURLEY; JOHN
NANTZ,
Plaintiffs – Appellees,
v.
UNITED STATES OF AMERICA; UNITED STATES
DEPARTMENT OF HEALTH & HUMAN
SERVICES; ALEX AZAR, II, SECRETARY, U.S.
DEPARTMENT OF HEALTH AND HUMAN
SERVICES; UNITED STATES DEPARTMENT OF
INTERNAL REVENUE; CHARLES P. RETTIG, in
his Official Capacity as Commissioner of Internal
Revenue,
Defendants – Appellants,
STATE OF CALIFORNIA; STATE OF
CONNECTICUT; DISTRICT OF COLUMBIA;

113a
STATE OF DELAWARE; STATE OF HAWAII;
STATE OF ILLINOIS; STATE OF KENTUCKY;
STATE OF MASSACHUSETTS; STATE OF NEW
JERSEY; STATE OF NEW YORK; STATE OF
NORTH CAROLINA; STATE OF OREGON; STATE
OF RHODE ISLAND; STATE OF VERMONT;
STATE OF VIRGINIA; STATE OF WASHINGTON;
STATE OF MINNESOTA,
Intervenor Defendants – Appellants.
Appeals from the United States District Court
for the Northern District of Texas
[Filed: February 14, 2019]
Before: SOUTHWICK, Circuit Judge.
ORDER:
The United States House of Representatives has
moved to intervene in this appeal.
The House argues that it is entitled to intervene
as of right or, in the alternative, that it is entitled to
permissive intervention. The House has no right to
intervene under Rule 24(a)(1) or under 28 U.S.C. §
530D. It is questionable that it has the right under
Rule 24(a)(2), but no ruling on such a right is
necessary. The House does under Rule 24(b)(1)(B)
have “a claim or defense that shares with the main
action a common question of law or fact.” In the
absence of any other federal governmental party in
the case presenting a complete defense to the
Congressional enactment at issue, this court may
benefit from the participation by the House. In the
context of this case, the motion to intervene was not
untimely. Further, intervention will not unduly delay
or prejudice the rights of the original parties.
IT IS ORDERED that the opposed motion to

114a
intervene filed by the U.S. House of Representatives
is GRANTED.
/s/ Leslie H. Southwick
LESLIE H. SOUTHWICK
UNITED STATES CIRCUIT
JUDGE

115a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
Civil Action No. 4:18-cv-00167-o
TEXAS, et al.,
Plaintiffs,
v.
UNITED STATES OF AMERICA, et al.,
Defendants,
CALIFORNIA, et al.
Intervenors-Defendants.
[Filed: December 14, 2018]
MEMORANDUM OPINION AND ORDER
The United States healthcare system touches
millions of lives in a daily and deeply personal way.
Health-insurance policy is therefore a politically
charged affair—inflaming emotions and testing
civility. But Article III courts, the Supreme Court has
confirmed, are not tasked with, nor are they suited to,
policymaking. 1 Instead, courts resolve discrete cases
See Nat’l Fed’n of Indep. Businesses v. Sebelius (NFIB), 567 U.S.
519, 530-38 (2012) (noting the wisdom of legislative policy is
entrusted to the Nation’s elected leaders).
1

116a
and controversies. And sometimes, a court must
determine whether the Constitution grants Congress
the power it asserts and what results if it does not. If
a party shows that a policymaker exceeded the
authority granted it by the Constitution, the fruit of
that unauthorized action cannot stand.
Here, the Plaintiffs allege that, following passage
of the Tax Cuts and Jobs Act of 2017 (TCJA), the
Individual Mandate in the Patient Protection and
Affordable Care Act (ACA) is unconstitutional. They
say it is no longer fairly read able as an exercise of
Congress’s Tax Power and continues to be
unsustainable under the Interstate Commerce Clause.
They further urge that, if they are correct, the balance
of the ACA is untenable as inseverable from the
Invalid Mandate.
Resolution of these claims rests at the intersection
of the ACA, the Supreme Court’s decision in NFIB, and
the TCJA. In NFIB, the Supreme Court held the
Individual Mandate was unconstitutional under the
Interstate Commerce Clause but could fairly be read
as an exercise of Congress’s Tax Power because it
triggered a tax. The TCJA eliminated that tax. The
Supreme Court’s reasoning in NFIB—buttressed by
other binding precedent and plain text—thus compels
the conclusion that the Individual Mandate may no
longer be upheld under the Tax Power. And because
the Individual Mandate continues to mandate the
purchase
of
health
insurance,
it
remains
unsustainable under the Interstate Commerce
Clause—as the Supreme Court already held.
Finally,
Congress
stated
many
times
unequivocally—through enacted text signed by the
President—that the Individual Mandate is “essential”

117a
to the ACA. And this essentiality, the ACA’s text
makes clear, means the mandate must work “together
with the other provisions” for the Act to function as
intended. All nine Justices to review the ACA
acknowledged this text and Congress’s manifest intent
to establish the Individual Mandate as the ACA’s
“essential” provision. The current and previous
Administrations have recognized that, too. Because
rewriting the ACA without its “essential” feature is
beyond the power of an Article III court, the Court thus
adheres to Congress’s textually expressed intent and
binding Supreme Court precedent to find the
Individual Mandate is inseverable from the ACA’s
remaining provisions.
Construing the Plaintiffs’ Application for
Preliminary Injunction, (ECF No. 39), as a motion for
partial summary judgment, the Court therefore
DENIES Plaintiffs’ request for an injunction but
GRANTS summary judgment on Count I of the
Amended Complaint. See FED. R. CIV. P. 56(f); July 16,
2018 Order, ECF No. 176.
I.

BACKGROUND

More than any factual developments, the
background to this case involves the nuances of the
ACA, NFIB, and the TCJA, which the Court traces
below.
A.

The ACA

The ACA became law on March 23, 2010. See
Patient Protection and Affordable Care Act, Pub. L.
111-148, 124 Stat. 119-1045 (2010). Congress intended
the ACA to achieve “near-universal” health-insurance
coverage and to “lower health insurance premiums”
through the “creation of effective health insurance
markets” and new statutory requirements for

118a
individuals and insurance companies. See, e.g., 42
U.S.C. §§ 18091(2)(D), (2)(F), and (2)(I). It pursued
these goals through a carefully balanced restructuring
of the Nation’s health-insurance ecosystem.
For starters, the ACA established a “[r]equirement
to maintain minimum essential coverage”—commonly
known as the “Individual Mandate.” 26 U.S.C. §
5000A(a). To compel compliance with the Individual
Mandate, Congress imposed a tax penalty on
individuals who were subject to the requirement but
chose to disobey it. Id. § 5000A(b). The ACA labeled
this penalty the “[s]hared responsibility payment.” It
was originally to be assessed at either $695.00 or a 2.5
percent share of a family’s household income—
whichever was greater. Id. § 5000A(c).
From the start, Congress exempted some
individuals from Individual Mandate. For example:
those qualifying for a “[r]eligious exemption[],” id. §
5000A(d)(2)(A); “member[s] of a health care sharing
ministry,” id. § 5000(d)(2)(B); individuals who are “not
. . . citizen[s] or national[s] of the United States . . . or
alien[s] lawfully present in the United States,” id. §
5000A(d)(3); and “[i]ncarcerated individuals,” id. §
5000A(d)(4). At the same time, Congress exempted five
categories of individuals from the sharedresponsibility payment but not the Individual
Mandate. See id. § 5000A(e). This means several
classes of individuals are obligated by § 5000A(a) to
obtain minimum-essential coverage but are not
subject to the tax penalty for failure to do so. 2
These classes included “[i]ndividuals who cannot afford
coverage,” id. § 5000A(e)(1); taxpayers with income “less than 100
percent of the poverty line for the size of the family involved,” id.
§ 5000A(e)(2); members of an Indian tribe, id. § 5000A(e)(3);

2

119a
Congress also wanted to ensure affordable health
insurance for those with pre-existing conditions. See
42 U.S.C. § 18091(2)(I) (“By significantly increasing
health insurance coverage, the [Individual Mandate],
together with the other provisions of this Act, will
minimize . . . adverse selection and broaden the health
insurance risk pool to include healthy individuals,
which will lower health insurance premiums . . . [and]
creat[e] effective health insurance markets in which
improved health insurance products that are
guaranteed issue and do not exclude coverage of preexisting conditions can be sold.”). Congress therefore
required insurers to cover high-risk individuals via the
“guaranteed-issue”
and
“community-rating”
provisions. The guaranteed-issue provision requires
insurers to “accept every employer and individual in
the State that applies for . . . coverage.” Id. § 300gg-1.
The community-rating provision prohibits insurers
from charging higher rates to individuals based on
age, sex, health status, or other factors. Id. § 300gg-4.
The ACA includes many other integral regulations
and taxes as well. These include, among other things,
an excise tax on high-cost insurance plans, 26 U.S.C. §
4980I; the elimination of coverage limits, 42 U.S.C. §
300gg-11; and a provision allowing dependent children
to remain on their parents’ insurance until age 26, id.
§ 300gg-14(a). The ACA also implemented an employer
mandate and an employer-responsibility assessment.
These provisions require employers with at least fifty
full-time employees to pay the federal government a
penalty if they fail to provide their employees with
individuals experiencing “short coverage gaps” in health
insurance, id. § 5000A(e)(4); and individuals who have received a
“hardship” exemption from the Secretary of Health and Human
Services, id. § 5000A(e)(5).

120a
ACA-compliant health-plan options. See 26 U.S.C. §
4980H.
But just as Congress funneled nearly all Americans
into health-insurance coverage on the one hand—
through the Individual Mandate and employer
mandate,
e.g.—it
also
significantly
reduced
reimbursements to hospitals by more than $200 billion
over ten years on the other. 42 U.S.C. §§
1395ww(b)(3)(B)(xi)-(xii), 1395ww(q), 1395ww(r), and
1396r-4(f)(7).
Notably, several ACA provisions are tied to another
signature reform—the creation and subsidization of
health-insurance exchanges. See id. §§ 18031-44.
Through these and other provisions, the ACA allocated
billions of federal dollars to subsidize the purchase of
health insurance through government-run exchanges.
Plus, the ACA expanded the scope of Medicaid, adding
millions of people to the eligibility roster. See id. §
1396a(a)(10)(A)(i)(VIII).
The ACA also lays out hundreds of minor
provisions, spanning the Act’s 900-plus pages of
legislative text, that complement the above-mentioned
major provisions and others.
B.

NFIB

After the ACA took effect, states, individuals, and
businesses challenged its constitutionality in federal
courts across the country. 3 One of those cases reached

3 In the interest of brevity, a full history of the lower-court
decisions leading up to NFIB is not included here. But legal
scholars have documented that history to help explain this
complex statutory scheme and the Supreme Court’s decision in
2012. See, e.g., JOSH BLACKMAN, UNPRECEDENTED: THE
CONSTITUTIONAL CHALLENGE TO OBAMACARE 79-158 (2013)

121a
the Supreme Court in 2012. See NFIB, 567 U.S. at 519.
In NFIB, twenty-six states, along with several
individuals and an organization of independent
businesses, challenged the ACA’s Individual Mandate
and Medicaid expansion as exceeding Congress’s
enumerated powers. In short, the Supreme Court held
the Individual Mandate was beyond Congress’s
Interstate Commerce Power but salvageable under its
Tax Power. The decision was highly splintered and
warrants explanation.
1.

Chief Justice Roberts

Chief Justice Roberts authored a lengthy opinion
considering several issues. See id. at 530–89. Only
certain parts of that opinion garnered a majority of
votes or otherwise reached a conclusion agreed to by a
majority of the Supreme Court. Here are the pertinent
parts.
In Part III-A, Chief Justice Roberts concluded the
Individual Mandate is not a valid exercise of
Congress’s power under the Interstate Commerce
Clause. Id. at 546-61 (Roberts, C.J.). The Government
argued the Individual Mandate could be sustained
under the Interstate Commerce Clause because
individual decisions to not buy health insurance
collectively “ha[ve] a substantial and deleterious effect
on interstate commerce.” Id. at 548-49 (citing Brief for
United States). It also asserted insurance reforms
without a mandate would create cost-shifting
problems whereby insurers would increase premiums
to cover the costs of high-risk individuals. Id. at 54748.
The Chief Justice disagreed and held the Interstate
[hereinafter “BLACKMAN”].

122a
Commerce Clause authorizes regulating “activity,” not
inactivity. Id. at 553. He warned the Government’s
theory would “extend[] the sphere of [Congress’s]
activity and draw[] all power into its impetuous
vortex.” Id. at 554 (quoting THE FEDERALIST NO. 48, at
309 (James Madison)). “The Framers gave Congress
the power to regulate commerce,” he reasoned, “not to
compel it.” Id. at 555 (emphasis in original).
Though no other Justice joined this part of the
Chief Justice’s opinion, the “joint dissent”—consisting
of Justices Scalia, Kennedy, Thomas, and Alito—
reached the same conclusion on the Interstate
Commerce Clause question. Id. at 657 (joint dissent).
Accordingly, a majority of the Supreme Court found
the Individual Mandate is unconstitutional under the
Interstate Commerce Clause, 4 and even the four
Justices not reaching that conclusion recognized it as
the holding of the Court. See id. at 572 (majority) (“The
Court today holds that our Constitution protects us
from federal regulation under the Commerce Clause so
long as we abstain from the regulated activity.”).
In Part III-B, the Chief Justice concluded that,
because the Individual Mandate is impermissible
under the Interstate Commerce Clause, the Supreme
Court was obligated to entertain the Government’s
argument that the mandate could be upheld under the
Tax Power. Id. at 561-63 (Roberts, C.J.). He noted that
“[t]he most straightforward reading of the mandate is
that it commands individuals to purchase insurance.”
Id. at 562. “But, for the reasons explained above, the
The same five Justices also found that the Individual Mandate
could not be upheld as an essential component of the ACA’s
insurance reforms under the Necessary and Proper Clause. Id. at
560 (Roberts, C.J.); id. at 654-55 (joint dissent).

4

123a
Commerce Clause does not give Congress that power.”
Id.
In Part III-C, the Chief Justice wrote a majority
opinion, joined by Justices Ginsburg, Breyer,
Sotomayor, and Kagan, holding that 26 U.S.C. §
5000A—including the Individual Mandate and the
shared-responsibility payment—was a constitutional
exercise of Congress’s Tax Power. Id. at 563-74
(majority). The Supreme Court’s analysis in this
section focused more on the shared-responsibility
payment than on the Individual Mandate. See, e.g, id.
at 563 (“The exaction the Affordable Care Act imposes
on those without health insurance looks like a tax in
many respects. The ‘[s]hared responsibility payment,’
as the statute entitles it, is paid into the Treasury . . .
.”); id. at 566 (“The same analysis here suggests that
the shared responsibility payment may for
constitutional purposes be considered a tax.”); id. at
568 (reasoning “the shared responsibility payment
merely imposes a tax citizens may lawfully choose to
pay in lieu of buying health insurance”); id. at 569
(“Our precedent demonstrates that Congress had the
power to impose the exaction in § 5000A under the
taxing power.” (emphasis added)).
The Supreme Court’s conclusion that § 5000A
constituted a constitutional exercise of Congress’s Tax
Power turned on several factors. First, the sharedresponsibility payment “is paid into the Treasury by
taxpayers when they file their tax returns.” Id. at 563
(cleaned up). Second, the amount owed under the ACA
“is determined by such familiar factors as taxable
income, number of dependents, and joint filing status.”
Id. (citing 26U.S.C. §§ 5000A(b)(3 ), (c)(2), (c)(4)). And
“[t]he requirement to pay is found in the Internal
Revenue Code and enforced by the IRS, which . . . must

124a
assess and collect it ‘in the same manner as taxes.’” Id.
at 563-64. Third and finally, the shared-responsibility
payment “yields the essential feature of any tax: It
produces at least some revenue for the Government.”
Id. at 564 (citing United States v. Kahriger, 345 U.S.
22, 28 n.4 (1953)) (emphasis added). On these bases,
the Supreme Court held, “The Federal Government
does have the power to impose a tax on those without
health insurance. Section 5000A is therefore
constitutional, because it can reasonably be read as a
tax.” Id. at 575.
Finally, in Part IV, Chief Justice Roberts was
joined by Justices Breyer and Kagan in concluding
that the ACA’s Medicaid-expansion provisions
unconstitutionally coerced States into compliance—
but given the existence of a severability clause, the
unconstitutional portion of the Medicaid provisions
could be severed. Id. at 575-88 (Roberts, C.J., joined by
Breyer and Kagan, JJ). While Justice Ginsburg, joined
by Justice Sotomayor, disagreed that the ACA’s
mandatory
Medicaid
expansion
was
unconstitutionally coercive, see id. at 624-45
(Ginsburg, J., joined by Sotomayor, J.), she agreed
with the Chief Justice’s conclusion—only because the
Chief Justice found the expansion unconstitutional—
that the offending provisions could be severed from the
remainder of the Act, see id. at 645 (“But in view of
THE CHIEF JUSTICE’S disposition, I agree with him
that the Medicaid Act’s severability clause determines
the appropriate remedy.”).
2.

Joint Dissent

Justices Scalia, Kennedy, Thomas, and Alito
agreed with the Chief Justice that the Individual
Mandate exceeds Congress’s powers under the

125a
Interstate Commerce and Necessary and Proper
Clauses, but they concluded § 5000A could not be
characterized as a tax. 5 Id. at 652-57 (joint dissent).
The joint dissent noted that Congress rejected an
earlier version of the ACA that “imposed a tax instead
of a requirement-with-penalty” and reasoned that
characterizing § 5000A, including the Individual
Mandate, as a tax was therefore contrary to
congressional intent. Id. at 669 (citations omitted).
Because the joint dissenters concluded the
Individual Mandate and the Medicaid expansion were
unconstitutional, they—and only they—addressed
whether “all other provisions of the Act must fall as
well.” Id. at 691. The dissenters noted that the ACA
“was passed to enable affordable, ‘near universal’
health insurance coverage.” Id. at 694 (citing 42 U.S.C.
§ 18091(2)(D)). And to effectuate this goal, the ACA
“consists of mandates and other requirements;
comprehensive regulation and penalties; some
undoubted taxes; and increases in some governmental
expenditures, decreases in others.” Id. The dissenters
then asked whether this “closely interrelated” scheme
could “function in a coherent way and as Congress
would have intended, even when the major provisions
establishing the Individual Mandate and Medicaid
Expansion are themselves invalid.” Id. at 691, 694.
They opined it could not.
In passing the ACA, the dissenters noted, Congress
understood the fiscal concerns surrounding healthcare
reform and engineered a system whereby “it did not
intend to impose the inevitable costs on any one
The joint dissent also agreed the ACA’s Medicaid expansion
exceeded “Congress’ power to attach conditions to federal grants
to the States.” NFIB, 567 U.S. at 671.

5

126a
industry or group of individuals.” Id. at 694. The
dissenters reasoned the ACA “attempts to achieve
near-universal health insurance coverage by
spreading its costs to individuals, insurers,
governments, hospitals, and employers—while, at the
same time, offsetting significant portions of those costs
with new benefit s to each group.” Id. at 695. In a
nutshell:
the Federal Government bears the burden
of paying billions for the new entitlements
mandated by the Medicaid Expansion and
federal subsidies for insurance purchases
on the exchanges; but it benefits from
reductions in the reimbursements it pays
to hospitals. Hospitals lose those
reimbursements; but they benefit from the
decrease in uncompensated care, for under
the insurance regulations it is easier for
individuals with pre-existing conditions to
purchase
coverage
that
increases
payments
to
hospitals.
Insurance
companies bear new costs imposed by a
collection of insurance regulations and
taxes, including “guaranteed issue” and
“community rating” requirements to give
coverage regardless of the insured’s preexisting conditions; but the insurers
benefit from the new, healthy purchasers
who are forced by the Individual Mandate
to buy the insurers’ product and from the
new low-income Medicaid recipients who
will enroll in insurance companies’
Medicaid-funded managed care programs.
In summary, the Individual Mandate and
Medicaid Expansion offset insurance

127a
regulations and taxes, which offset
reduced reimbursements to hospitals,
which offset increases in federal spending.
Id. at 695-96. “In summary, the Individual
Mandate and Medicaid Expansion offset insurance
regulations and taxes, which offset reduced
reimbursements to hospitals, which offset increases in
federal spending.” Id. at 696. And Congress intended
the Individual Mandate and Medicaid Expansion to
work together with the rest of the ACA. Id. (citing 42
U.S.C. §§ 18091(2)(C), (2)(E), (2)(F), (2)(G), (2)(I),
(2)(J)).
Next, the joint dissenters detailed the ACA’s major
provisions. They concluded, given the above, that
these provisions—insurance regulations and taxes;
hospital-reimbursement
reductions
and
other
reductions in Medicare expenditures; healthinsurance exchanges and their federal subsidies; and
the employer-responsibility assessment—are all
inseverable from the Individual Mandate. See id. at
697-703. They concluded the same with respect to the
ACA’s minor provisions. See, e.g, id. at 704 (“if the
major provision were unconstitutional, Congress
would not have passed the minor one”). In sum, the
joint dissenters would have declared the ACA “invalid
in its entirety.” Id. at 707.
C.

The TCJA

On December 22, 2017, the Tax Cuts and Jobs Act
of 2017 was signed into law. See Pub. L. No. 115-97,
131 Stat. 2054 (2017). Congress passed the TCJA
through budget reconciliation, “an expedited
procedure [for] considering legislation that would
bring existing spending, revenue, and debt limit laws

128a
into compliance with the current fiscal priorities
established in the annual budget resolution.” Megan
S. Lynch & James V. Saturno, The Budget
Reconciliation Process: Stages of Consideration, at 1,
CONGRESSIONAL RESEARCH SERVICE (Jan. 4, 2017).
Budget reconciliation limits congressional action to
fiscal matters.
In the TCJA, Congress reduced the ACA’s sharedresponsibility payment to zero, effective January 1,
2019. See TCJA § 11081. Congress took no other action
pertaining to the ACA. Nor could it. The reconciliation
process limited Congress to doing exactly what it did:
reducing taxes. See Fed. Defs.’ Resp. 16 n.4, ECF No.
92 (“Although Congress was able to revoke the tax
penalty, it could not have revoked the guaranteedissue or community-rating provisions through
reconciliation.”); Sept. 5, 2018 Hr’g Tr. at 36:7-12
(Intervenor Defendants) [hereinafter “Hr’g Tr.”]
(“Congress did not repeal any part of the ACA,
including the shared responsibility payment. In fact, it
could not do so through the budget reconciliation
procedures it used.”).
II.

PROCEDURAL BACKGROUND

Plaintiffs are the States of Alabama, Arizona,
Arkansas, Florida, Georgia, Indiana, Kansas,
Louisiana, Mississippi, Missouri, Nebraska, North
Dakota, South Carolina, South Dakota, Tennessee,
Texas, Utah, West Virginia, Wisconsin, Governor Paul
LePage of Maine (the “State Plaintiffs”), and
individuals Neill Hurley and John Nantz (the
“Individual Plaintiffs” and, collectively with the State
Plaintiffs, “Plaintiffs”).
Defendants are the United States of America, the
United States Department of Health and Human

129a
Services (“HHS”), Alex Azar, in his official capacity as
Secretary of HHS, the United States Internal Revenue
Service (the “IRS”), and David J. Kautter, in his official
capacity as Acting Commissioner of Internal Revenue
(collectively, the “Federal Defendants”).
Finally, the States of California, Connecticut,
Delaware, Hawaii, Illinois, Kentucky, Massachusetts,
Minnesota, New Jersey, New York, North Carolina,
Oregon, Rhode Island, Vermont, Virginia, and
Washington, and the District of Columbia intervened
as
defendants
(collectively,
the
“Intervenor
Defendants”).
The Plaintiffs sued the Federal Defendants
seeking, among other things, a declaration that the
Individual Mandate, as amended by the TCJA, is
unconstitutional and that the remainder of the ACA is
inseverable. Am. Compl. ¶ 2, ECF No. 27. Their theory
is that, because the TCJA eliminated the sharedresponsibility tax payment, the tax-based saving
construction developed in NFIB no longer applies. Id.
at 2-3. Plaintiffs further argue that, as the four joint
dissenters reasoned in NFIB, the Individual Mandate
is inseverable from the rest of the ACA. Pls.’ Br.
Prelim. Inj. 35, ECF No. 40 (citing NFIB, 567 U.S. at
691-703 (joint dissent)) [hereinafter “Pls.’ Br.”].
The Federal Defendants agree the Individual
Mandate is unconstitutional and inseverable from the
ACA’s pre-existing-condition provisions. But they
argue all other ACA provisions are severable from the
mandate. The Intervenor Defendants argue all the
Plaintiffs’ claims fail.
The Plaintiffs filed an Application for Preliminary
Injunction, (ECF No. 39), on April 26, 2018; the
Federal Defendants and the Intervenor Defendants

130a
responded, (ECF Nos. 91 and 92), on June 7, 2018; and
Plaintiffs replied, (ECF No. 175), on July 5, 2018.
Because the Federal Defendants argued a judgment,
as opposed to an injunction, was more appropriate, the
Court provided notice of its intent to resolve the issues
in this case on summary judgment. See July 16, 2018
Order, ECF No. 176 (citing FED. R. CIV. P. 56(f)(3)).
The parties responded. See ECF Nos. 177-79.
The Plaintiffs argued they desire a preliminary
injunction but are unopposed to “simultaneously
considering Plaintiffs’ application as a motion for
partial summary judgment on the constitutionality of
the ACA’s mandate.” See Pls.’ Resp. July 16, 2018
Order, ECF No. 181 (emphasis in original). The
Intervenor Defendants opposed converting the
preliminary-injunction briefing to a summaryjudgment ruling because they wished to more fully
brief issues such as Article III standing, the Interstate
Commerce Clause, and the scope of injunctive relief.
Intervenor Defs.’ Resp. July 16, 2018 Order 2, ECF No.
182. At the hearing, the Federal Defendants requested
the Court “to defer any ruling until after the close of
the open enrollment period which is in mid December,
[as] that would ensure that there is no disruption to
the open enrollment period.” Hr’g Tr. at 30:15-18.
The Court finds the Intervenor Defendants
adequately briefed and argued at the September 5,
2018 hearing the standing and Interstate Commerce
Clause issues. The Court therefore construes the
application as a motion for partial summary judgment.
III.

LEGAL STANDARDS
A.

Article III Standing

“Every party that comes before a federal court must
establish that it has standing to pursue its claims.”

131a
Cibolo Waste, Inc. v. City of San Antonio, 718 F.3d 469,
473 (5th Cir. 2013). Standing doctrine is rooted in the
Constitution’s grant of judicial power to adjudicate
cases or controversies. “The doctrine developed in our
case law to ensure that federal courts do not exceed
their authority as it has been traditionally
understood.” Spokeo, Inc. v. Robins, 136 S. Ct. 1540,
1547 (2016).
“The doctrine of standing asks ‘whether the litigant
is entitled to have the court decide the merits of the
dispute or of particular issues.’” Cibolo Waste, 718 F.3d
at 473 (quoting Elk Grove Unified Sch. Dist. v.
Newdow, 542 U.S. 1, 11 (2004)). Standing has both
constitutional and prudential components. See id.
(quoting Elk Grove, 542 U.S. at 11) (stating standing
“contain[s] two strands: Article III standing . . . and
prudential standing”). The “irreducible constitutional
minimum” of Article III standing consists of three
elements. Spokeo, 135 S. Ct. at 1547; Lujan v.
Defenders of Wildlife., 504 U.S. 555, 560 (1992). The
plaintiff must have (1) suffered an injury in fact (2)
that is fairly traceable to the challenged conduct of the
defendant and (3) that is likely to be redressed by a
favorable decision. Lujan, 504 U.S. at 560-61. It is not
necessary for all plaintiffs to demonstrate Article III
standing. Rather, “one party with standing is
sufficient to satisfy Article Ill’s case-or-controversy
requirement.” Texas v. United States, 809 F.3d 134,
151 (5th Cir. 2015) (quoting Rumsfeld v. Forum for
Academic & Institutional Rights, Inc., 547 U.S. 47, 52
n.2 (2006)).
“Prudential standing requirements exist in
addition to ‘the immutable requirements of Article III,’
. . . as an integral part of ‘judicial self-government.’”
ACORN v. Fowler, 178 F.3d 350, 362 (5th Cir. 1999)

132a
(quoting Lujan, 504 U.S. at 560). “The goal of this selfgovernance is to determine whether the plaintiff ‘is a
proper party to invoke judicial resolution of the
dispute and the exercise of the court’s remedial
power.’” Id. (quoting Bender v. Williamsport Area Sch.
Dist., 475 U.S. 534, 546 n.8 (1986)). The Supreme
Court has observed that prudential standing
encompasses “at least three broad principles,”
including “the general prohibition on a litigant’s
raising another person’s legal rights . . .” Lexmark Int’l,
Inc. v. Static Control Components, Inc., 134 S. Ct.
1377, 1386 (2014); Cibolo Waste, 718 F.3d at 474
(quoting Elk Grove, 542 U.S. at 12).
As the parties invoking jurisdiction, the Plaintiffs
must show the requirements of standing are satisfied.
See Ramming v. United States, 281 F.3d 158, 161 (5th
Cir. 2001).
B.

Summary Judgment

Summary judgment is proper when the pleadings
and evidence show “that there is no genuine dispute as
to any material fact and the movant is entitled to
judgment as a matter of law.” FED. R. CIV. P. 56(a).
“[T]he substantive law will identify which facts are
material.” Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 248 (1986). A genuine issue of material fact exists
“if the evidence is such that a reasonable jury could
return a verdict for the nonmoving party.” Id. The
movant makes a showing that there is no genuine
issue of material fact by informing the court of the
basis of its motion and by identifying the portions of
the record that reveal there are no genuine materialfact issues. See FED. R. CIV. P. 56(c); Celotex Corp. v.
Catrett, 477 U.S. 317, 323 (1986).
When reviewing the evidence on a motion for

133a
summary judgment, the court must resolve all
reasonable doubts and inferences in the light most
favorable to the non-movant. See Walker v. Sears,
Roebuck & Co., 853 F.2d 355, 358 (5th Cir. 1988). The
court cannot make a credibility determination in light
of conflicting evidence or competing inferences.
Anderson, 477 U.S. at 255. And if there appears to be
some support for the disputed allegations, such that
“reasonable minds could differ as to the import of the
evidence,” the court must deny the motion for
summary judgment. Id. at 250.
IV.

ANALYSIS

The Court’s analysis involves three separate
inquiries and conclusions. First, the Court finds the
Parties satisfy the applicable standing requirements.
Second, the Court finds the Individual Mandate can no
longer be fairly read as an exercise of Congress’s Tax
Power and is still impermissible under the Interstate
Commerce Clause—meaning the Individual Mandate
is unconstitutional. Third, the Court finds the
Individual Mandate is essential to and inseverable
from the remainder of the ACA.
A.

Article III Standing

No party initially challenged the Plaintiffs’
standing. But amici raised the issue 6 and the
The American Medical Association filed an amicus brief that
argued the Individual Plaintiffs lack standing because they “seek
to leverage their own voluntary decisions to purchase minimum
essential coverage into cognizable injuries-in-fact” and therefore
impermissibly base standing on a self-inflicted injury. See Br. of
the Am. Med. Ass’n et al. 7, ECF No. 113. The Association also
challenged the State Plaintiffs’ standing, arguing their alleged
injury is too attenuated and speculative to support standing. See
id. at 11-12.
6

134a
Intervenor Defendants addressed it at oral argument.
See, e.g, Hr’g Tr. at 52-58; 64-68. And because Article
III standing is a requirement of subject-matter
jurisdiction, it cannot be waived. See FW/PBS, Inc. v.
City of Dallas, 493 U.S. 215, 231 (1990) (“The federal
courts are under an independent obligation to examine
their own jurisdiction”).
The Individual Plaintiffs, who are citizens and
residents of the State of Texas, challenge the
Individual
Mandate
as
an
unconstitutional
requirement to purchase ACA-compliant health
insurance. They argue they are injured by the
“obligation to comply with the individual mandate . . .
despite the provision’s unconstitutionality.” Am.
Compl. ¶ 43, ECF No. 27. Injury-in-fact must be both
particularized and concrete, not conjectural or
hypothetical. Spokeo, 136 S. Ct. at 1548 (quoting
Lujan, 504 U.S. at 560). For an injury to be
particularized, it “must affect the plaintiff in a
personal and individual way.” Id. Under Lujan, a
concrete and particularized injury generally exists if
the “plaintiff is himself an object of the action (or
forgone action) at issue. If he is, there is ordinarily
little question that the action or inaction has caused
him injury, and that a judgment preventing or
requiring the action will redress it.” Lujan, 504 U.S. at
561-62. The question of “whether someone is in fact an
object of a regulation is a flexible inquiry rooted in
common sense” and “underlies all three elements of
standing.” Contender Farms, LLP v. USDA, 779 F.3d
258, 264, 266 (5th Cir. 2015).
In Contender Farms, a company and its principal,
McGartland, challenged a regulation under the Horse
Protection Act that required certain entities to
suspend horse trainers who engaged in “soring.” Id. at

135a
262. The Fifth Circuit analyzed whether the plaintiffs
had standing to challenge the regulation and the scope
of the agency’s rulemaking authority. Applying a
“commonsense approach to the facts in [the] case,” the
court held first that the plaintiffs were the object of the
challenged regulation because the regulation
“target[ed] participants in Tennessee walking horse
events like Contender Farms and McGartland.” Id. at
265. Second, the court determined the regulation
amounted to an increased regulatory burden because
it subjected the plaintiffs to “harsher, mandatory
penalties” for violation of the soring rules—it also
required competitors to “take additional measures to
avoid even the appearance of soring.” Id. at 266.
Because “[a]n increased regulatory burden typically
satisfies the injury in fact requirement,” and because
the Fifth Circuit found that causation and
redressability naturally flowed from the type of injury
alleged, the plaintiffs satisfied Article III standing. Id.
Here, the Individual Plaintiffs are the object of the
Individual Mandate. It requires them to purchase and
maintain certain health-insurance coverage. See 26
U.S.C. § 5000A(a); see also Pls.’ App. Supp. Prelim.
Inj., Ex. A (Nantz Decl.) ¶ 15, ECF No. 41 (“I am
obligated to comply with the [ACA’s] individual
mandate”); Pls.’ App. Supp. Prelim. Inj., Ex. B (Hurley
Decl.) ¶ 15, ECF No. 41 (“I continue to maintain
minimum essential health coverage because I am
obligated . . . .”). Cf. Lujan, 504 U.S. at 561-62; Time
Warner Cable, Inc. v. Hudson, 667 F.3d 630, 636 (5th
Cir. 2012).
The American Medical Association argues the
Individual Plaintiffs have created their own financial
injury because they can choose not to comply with the
Individual Mandate and, beginning in January 2019,

136a
no penalty will be assessed against them. See Br. Am.
Med. Ass’n 8-9, ECF No. 113; Hr’g Tr. at 37:9-16. But
this argument begs a leading question in this case by
assuming the Individual Plaintiffs need not comply
with the Individual Mandate. Moreover, a showing of
economic injury is not required.
In warning lower courts not to conflate the “actualinjury inquiry with the underlying merits” of a claim,
the Fifth Circuit recognizes that standing can be
established where a plaintiff alleges that a federal
statute or regulation “deters the exercise of his
constitutional rights.” Duarte, 759 F.3d at 520. Here,
the Individual Plaintiffs allege just that. They claim
“Section 5000A’s individual mandate exceeded
Congress’s enumerated powers by forcing Individual
Plaintiffs to maintain ACA-compliant health
insurance coverage.” Am. Compl. ¶ 49, ECF No. 27.
Intervenor Defendants, meanwhile, contend the
Individual Mandate remains a constitutional exercise
of Congress’s tax or regulatory authority. As a result,
the “conflicting contentions of the parties . . . present
a real, substantial controversy between parties having
adverse legal interests, a dispute definite and
concrete, not hypothetical or abstract.” Babbitt v.
United Farm Workers Nat’l Union, 442 U.S. 289, 298
(1979) (quoting Railway Mail Assn. v. Corsi, 326 U.S.
88, 93 (1945)). The Individual Plaintiffs have therefore
sufficiently alleged an injury in fact that sits at the
center of a live controversy.
“Causation and redressability then flow naturally
from” the injury created by the Individual Mandate.
Contender Farms, 779 F.3d at 266. Without it, the
Individual Plaintiffs would not be required to
maintain health-insurance coverage and would not be
subject to an increased regulatory burden. A favorable

137a
decision for the Plaintiffs—a declaration that the
Individual Mandate is unconstitutional—would
redress the alleged injury. The Individual Plaintiffs,
for example, would be free to forego purchasing health
insurance altogether or to otherwise purchase health
insurance below the “minimum essential coverage”
better suited to their health and financial realities. At
a minimum, they would be freed from what they
essentially allege to be arbitrary governance.
The Court finds the Individual Plaintiffs have
standing to challenge the constitutionality of the
Individual Mandate. 7 And because the Individual
Plaintiffs have standing, the case-or-controversy
requirement is met. See Watt v. Energy Action Educ.
Found., 454 U.S. 151, 160 (1981) (“Because we find
California has standing, we do not consider the
standing of the other plaintiffs.”); Rumsfeld, 547 U.S.
at 53 n.2.
B. The Individual Mandate
With standing satisfied, the Court “must . . .
determine whether the Constitution grants Congress
powers it now asserts, but which many States and
individuals believe it does not possess.” NFIB, 567
U.S. at 534 (Roberts, C.J.). The Court recalls the
principles undergirding NFIB. Namely, “deference in
matters of policy cannot. . . become abdication in
matters of law.” Id. at 538. This means “respect for
The Court does not analyze whether the Individual Plaintiffs
have prudential standing to bring their claims because
“prudential standing (unlike Article III standing) is not
jurisdictional, meaning that prudential standing has been
forfeited” and is not properly before the court, if, like here, no
party contests it. Grocery Mfrs. Ass’n v. EPA, 693 F.3d 169, 181
(D.C. Cir. 2012) (Kavanaugh, J., dissenting).
7

138a
Congress’s policy judgments . . . can never extend so
far as to disavow restraints on federal power that the
Constitution carefully constructed.” Id. “The peculiar
circumstances of the moment may render a measure
more or less wise, but cannot render it more or less
constitutional.” Id. (quoting Chief Justice John
Marshall, A Friend of the Constitution No. V,
Alexandria Gazette, July 5, 1819, reprinted in JOHN
MARSHALL’S DEFENSE OF MCCULLOCH v. MARYLAND
190-91 (G. Gunther ed. 1969)). “And there can be no
question that it is the responsibility of this Court to
enforce the limits on federal power by striking down
acts of Congress that transgress those limits.” Id.
(citing Marbury v. Madison, 5 U.S. 137, 175-76 (1803)).
The
question
of
constitutionality
is
straightforward: Is the Individual Mandate a
constitutional exercise of Congress’s enumerated
powers when the shared-responsibility payment is
zero? Because the Supreme Court upheld the
Individual Mandate under Congress’s Tax Power, the
Court will begin there before proceeding to an
Interstate Commerce Clause analysis. The Court finds
that both plain text and Supreme Court precedent
dictate
that
the
Individual
Mandate
is
unconstitutional under either provision.
1.

Congress’s Tax Power

In NFIB, the Supreme Court held 26 U.S.C. §
5000A to be a constitutional exercise of Congress’s Tax
Power. Id. at 570 (majority) (“Our precedent
demonstrates that Congress had the power to impose
the exaction in § 5000A under the taxing power, and
that § 5000A need not be read to do more than impose
a tax. That is sufficient to sustain it.”). That power
authorizes Congress to “lay and collect Taxes, Duties,

139a
Imposts, and Excises, to pay the Debts and provide for
the common Defence and general Welfare of the
United States.” U.S. CONST, art. I, § 8, cl. 1. Previously,
the shared-responsibility provision, 26 U.S.C. §
5000A(b), imposed an “exaction” for failure to obey the
Individual Mandate, id. § 5000A(a). The question here
is whether an eliminated shared-responsibility
exaction continues to justify construing the Individual
Mandate as an exercise of Congress’s Tax Power to
implement § 5000A.
The Plaintiffs and Federal Defendants say “no.”
Pls.’ Br. 26, ECF No. 40; Fed. Defs.’ Resp. 11, ECF No.
92. The Intervenor Defendants, on the other hand,
argue § 5000A can still fairly be read as a tax because
it continues to satisfy the tax factors discussed in
NFIB, including that previous shared-responsibility
payments will make their way into the treasury for
years to come. Intervenor Defs.’ Resp. 16-22, ECF No.
91.
a.

Sections 5000A(a) and (b) Are Distinct

It is critical to clarify something at the outset: the
shared-responsibility payment, 26 U.S.C. § 5000A(b),
is distinct from the Individual Mandate, id. §
5000A(a). For one thing, the latter is in subsection (a)
while the former is in subsection (b). 8 And the
Plaintiffs challenge only the Individual Mandate, not
the shared-responsibility penalty, as unconstitutional.
See, e.g., Am. Compl. ¶ 49, ECF No. 27 (“Section
5000A’s individual mandate exceeds Congress’s
enumerated powers . . . .” (emphasis added)); id. (“the
individual mandate cannot be upheld under any other
Subsection (c) sets the amount of the shared-responsibility
payment erected in subsection (b), see id. § 5000A(c), and it is the
subsection set at zero percent by the TCJA, see TCJA § 11081(a).

8

140a
provision of the Constitution”); id. at ¶¶ 55-56 (“[A]fter
Congress amended Section 5000A, it is no longer
possible to interpret this statute as a tax enacted
pursuant to a valid exercise of Congress’s
constitutional power to tax. Rather, the only reading
available is the most natural one; Section 5000A
contains a stand-alone legal mandate . . . Accordingly,
Section
5000A’s
individual
mandate
is
unconstitutional.” (emphasis added)). The Court
cannot ignore that the Individual Mandate, §
5000A(a), is separate and distinct from the sharedresponsibility penalty, § 5000A(b). 9
Other ACA text and functionality demand §§
5000A(a) and (b) not be lumped together, too. Most
obviously, Congress exempted some individuals from
the shared-responsibility penalty but not the
Individual Mandate. See 26 U.S.C. § 5000A(e). For
example, § 5000A(e)(1) provides that “[i]ndividuals
who cannot afford coverage” are exempt from the
penalty, but not the mandate. Id. § 5000A(e)(1).
“Members of Indian tribes” are also subject to the
mandate but not the penalty. See id. § 5000A(e)(3).
Congress could not possibly have intended the
mandate and penalty to be treated as one when it
treated them as two. 10
See ANTONIN SCALIA & BRYAN A. GARNER, READING LAW: THE
INTERPRETATION OF LEGAL TEXTS 174-79 (2012) (Surplusage
Canon) [hereinafter “READING LAW”].
9

Federal agencies recognize this as well. See, e.g., CENTERS FOR
MEDICARE & MEDICAID SERVICES, ONE PAGER - INDIAN
EXEMPTION,
https://marketplace.cms.gov/technical-assistanceresources/exemption-indian-health-care-provider.pdf (last visited
December 2018) (“Under the Affordable Care Act, everyone who
can afford to is now required by law to have health coverage . . .
However, those who can’t afford coverage or meet other conditions
10

141a
Congress’s codified ACA findings support the
distinction as well. As the Plaintiffs argue, those
“findings identify the individual mandate itself—‘[t]he
requirement’ to purchase health insurance”—while
“making no mention of the separate tax penalty that
attaches to some individuals’ failure to comply with
the mandate.” Pls.’ Br. 8-9, ECF No. 40 (citation
omitted) (emphasis in Plaintiffs’ Brief). The Court
agrees the findings highlight that Congress believed
that, “if there were no requirement”—i.e., no
Individual Mandate—“many individuals would wait to
purchase health insurance until they needed care.” 42
U.S.C. § 18091(2)(I) (emphasis added). That is the
belief it acted on and on which it formed its intent. 11
The 2010 Congress therefore intended the mandate
and penalty to be distinct. The 2017 Congress
solidified that intent. Section 11081 of the TCJA is
entitled “Elimination of shared responsibility payment
for individuals failing to maintain minimum essential
coverage.” TCJA § 11081. This section amends 26
U.S.C. § 5000A(c)—the provision setting the amount of
the shared-responsibility penalty, id. § 5000A(b)—to
“[e]liminat[e]” the existing payment and replace it
with “Zero percent” and “$0.” TCJA § 11081(a). It does
may qualify for [a shared-responsibility-payment] exemption.”).
See also CONGRESSIONAL BUDGET OFFICE, KEY ISSUES IN
ANALYZING MAJOR HEALTH INSURANCE PROPOSALS 53 (Dec. 2008),
available
at
https://www.cbo.gov/sites/default/files/110thcongress-2007-2008/reports/12-18-keyissues.pdf
(December
2008) (“[S]ome compliance is generally observed, even when there
is little or no enforcement of mandates. Compliance, then, is
probably affected by an individual’s personal values and by social
norms. Many individuals and employers would comply with a
mandate, even in the absence of penalties, because they believe
in abiding by the nation’s laws.”).
11

142a
not eliminate the Individual Mandate. So, just as the
2010 Congress subjected some individuals to the
Individual Mandate but no shared-responsibility
payment, the 2017 Congress subjected all applicable
individuals to the Individual Mandate but no sharedresponsibility payment. Congress never intended the
two things to be one.
As described below, the Supreme Court’s Tax
Power analysis in NFIB proceeded along these lines—
recognizing the Individual Mandate as separate and
distinct from the shared-responsibility penalty. This
distinction is critical to the Court’s remaining legal
analysis.
b.

Section 5000A(a) Can No
Longer Be Sustained as an
Exercise of Congress’s Tax
Power

NFIB does not contravene Congress’s intent to
separate the Individual Mandate and sharedresponsibility penalty. To the extent the Supreme
Court held § 5000A could be fairly read as a tax, it
reasoned only that the Individual Mandate could be
viewed as part and parcel of a provision supported by
the Tax Power—not that the Individual Mandate itself
was a tax.
The Supreme Court stated its “precedent
demonstrate[d] that Congress had the power to impose
the exaction in § 5000A under the taxing power”—and
§ 5000A(b) is the exaction—“and that § 5000A need not
be read to do more than impose a tax. That is sufficient
to sustain it.” NFIB, 567 U.S. at 570 (emphasis added).
In other words, it was only because of the totally
distinct shared-responsibility payment, or exaction,
that the Supreme Court could construe § 5000A as a

143a
tax provision. As the Government argued at the time,
and as Chief Justice Roberts recognized, that meant
“the mandate [could] be regarded as establishing a
condition—not owning health insurance—that
triggers a tax”' Id. at 563 (Roberts, C.J.) (emphasis
added).
Put plainly, because Congress had the power to
enact the shared-responsibility exaction, § 5000A(b),
under the Tax Power, it was fairly possible to read the
Individual Mandate, § 5000A(a), as a functional part
of that tax also enacted under Congress’s Tax Power.
Therefore, § 5000A as a whole could be viewed as an
exercise of Congress’s Tax Power.
The majority’s analysis compels this conclusion. 12
In its very first breath under Part III-C, the majority
reasoned:
The exaction the Affordable Care Act
imposes on those without health
insurance looks like a tax in many
respects. The “[s]hared responsibility
payment,” as the statute entitles it, is paid
into the Treasury by “taxpayer[s]” when
they file their tax returns. 26 U.S.C. §
5000A(b). It does not apply to individuals
who do not pay federal income taxes
because their household income is less
than the filing threshold in the Internal
Revenue Code. § 5000A(e)(2). For
taxpayers who do owe the payment, its
Intervenor Defs.’ Resp. 17, ECF No. 91 (“In NFIB, the
Supreme Court explained that the shared responsibility payment
‘looks like’ a tax in several respects.” (emphasis added)).

12 Accord

144a
amount is determined by such familiar
factors as taxable income, number of
dependents, and joint filing status. §§
5000A(b)(3), (c)(2), (c)(4). The requirement
to pay is found in the Internal Revenue
Code and enforced by the IRS, which—as
we previously explained—must assess and
collect it “in the same manner as taxes.”
NFIB, 567 U.S. at 563-64 (majority) (final citation to
ACA omitted). The Supreme Court’s baseline analysis
thus turned on the following: the exaction looks like a
tax; it is paid into the treasury; it does not apply to
individuals who pay no federal income taxes; familiar
tax factors are applied to folks who owe the payment;
and the requirement to pay is in the revenue code. Id.
Only one of those factors applies to the Individual
Mandate, § 5000A(a): it is in the Internal Revenue
Code. But the Individual Mandate is not in § 5000A(b),
is not called the shared-responsibility payment, is not
an exaction, is not paid into the Treasury or otherwise
a payment, does not exclude those who pay no federal
taxes for income reasons, and is not determined by
familiar tax factors. Section 5000A(b) is all those
things.
Crucially, after assessing § 5000A(b) against the
factors above, the Supreme Court concluded § 5000A
“yields the essential feature of any tax: It produces at
least some revenue for the Government.” Id. at 564
(citing United States v. Kahriger, 345 U.S. 22, 28 n.4
(1953)).
The Supreme Court thus identified three basic
criteria to conclude § 5000A could be viewed as an
exercise of the Tax Power: (1) a payment is paid into

145a
the Treasury, (2) the payment amount is determined
with reference to income and other familiar factors,
and (3) the payment produces revenue for the
Government. Id. at 563-64. In their brief, the
Intervenor Defendants urge the “shared responsibility
payment continues to maintain these tax-like
characteristics.” Intervenor Defs.’ Resp. 18, ECF No.
91. But at the hearing, they seemed to concede § 5000A
will no longer meet the first and second criteria
starting January 1, 2019. See Hr’g Tr. at 70:10-16;
70:23-25. They instead focus on the third factor,
contending the “production of revenue at all times is
not a constitutional requirement for a lawful tax.”
Intervenor Defs.’ Resp. 18, ECF No. 91.
But the Intervenor Defendants downplay the
Supreme Court’s most crucial conclusion: § 5000A
“yield[ed] the essential feature of any tax: It produce[d]
at least some revenue for the Government.” NFIB, 567
U.S. at 564 (emphasis added); accord Rosenberger v.
Rector and Visitors of Univ. of Virginia, 515 U.S. 819,
841 (1995) (“A tax, in the general understanding of the
term, and as used in the Constitution, signifies an
exaction for the support of the Government.” (citation
omitted)). Not indicative, not common—essential. 13
Thus, the bottom line is the Individual Mandate was
buoyed by Congress’s Tax Power only because it
“trigger[ed]” a provision that “produce[d] at least some
revenue for the Government.” And it was high tide
See Essential, WEBSTER’S THIRD NEW INTERNATIONAL
DICTIONARY 777 (1986) (defining as “of or relating to an essence”;
“having or realizing in itself the essence of its kind”; and
“necessary, indispensable”); see also BLACK’S LAW DICTIONARY
(10th ed. 2014) (“1. Of, relating to, or involving the essence or
intrinsic nature of something. 2. Of the utmost importance; basic
and necessary.”).
13

146a
when the Supreme Court decided NFIB because the
shared-responsibility payment was still a payment.
But with the TCJA, the tide has gone out. Section
5000A no longer contains an exaction.
The Intervenor Defendants argue that “[e]ven if
Plaintiffs were correct that a constitutionally-valid tax
must produce revenue at all times”—a condition the
Supreme Court called essential—“it will be years
before the shared responsibility payment ceases to do
so.” Intervenor Defs.’ Resp. 21, ECF No. 91. They
contend that, due to the frequency of late payments
and deferrals, the government will continue to receive
revenue from 2018 shared-responsibility payments
“until 2020 or beyond.” Id.
Intervenor Defendants cite no authority for the
proposition that the relevant timeframe to analyze tax
revenue is the tax year in which it is remunerated.
Plaintiffs reply that “the revenue IntervenorDefendants identify is attributable to tax year 2018.”
Pls.’ Reply 8 n.9, ECF No. 175.
It is a well-accepted practice that tax revenue is
attributable to the tax year in which it is assessed, not
the one in which it is paid. See, e.g., NFIB, 567 U.S. at
563 (“the payment is expected to raise about $4 billion
per year by 2017”) (emphasis added); CONGRESSIONAL
BUDGET OFFICE, ANALYSIS OF MAJOR HEALTH CARE
LEGISLATION ENACTED IN MARCH 2010, at 14 (Mar. 30,
2011) (analyzing by fiscal year estimated budgetary
effects of ACA tax credits and revenue from excise
taxes). When individuals file tax returns in April 2019,
for example, the taxes they pay and the returns they
receive will affect the government’s 2018 tax-year
revenue. The same holds true even if individuals
receive deferrals or make late payments in the months

147a
and years thereafter. And at any rate, because the
TCJA eliminated the shared-responsibility payment
“beginning after December 31, 2018,” that provision no
longer produces revenue for the Government—present
tense—and any future monies that come in will be
because the provision once produced revenue for the
Government—past tense. So, it is true the sharedresponsibility payment once had the essential feature
of any tax. But it no longer does.
Finally, the Intervenor Defendants point to three
examples of Congress delaying or suspending taxes
within the ACA: the Cadillac Tax, the Medical Device
Tax, and the Health Insurance Providers Fee.
Intervenor Defs.’ Resp. 18-20. Drawing on these
examples, the Intervenor Defenders argue “[t]he
shared responsibility payment has not been rendered
unconstitutional merely because it will be $0 in 2019.”
Id. at 18.
As an initial matter, suspending or delaying a tax
is not equivalent to eliminating it. And the TCJA does
not suspend collection of the shared-responsibility
payment, it eliminates it. See TCJA § 11081
(“Elimination of shared responsibility payment for
individuals failing to maintain minimum essential
coverage.”). Put differently, until a change in law,
there is no shared-responsibility payment. True,
Congress may reinstate the payment in the future. But
that would be a change in law. The Court cannot rule
on a hypothetical counterfactual. It may only “say
what the law is,” not what it someday could be.
Marbury, 5 U.S. at 177.
But at a more fundamental level, the Intervenor
Defendants’
argument
demonstrates
they
misapprehend the Plaintiffs’ basic position. The

148a
Intervenor
Defendants
assert:
“The
shared
responsibility payment has not been rendered
unconstitutional merely because it will be $0 in 2019.”
Intervenor Defs.’ Resp. 18, ECF No. 91 (emphasis
added). The Plaintiffs do not argue that: they argue
the Individual Mandate is unconstitutional. And as
the Court has explained, the text of the ACA and
TCJA, as well as the Supreme Court’s reasoning in
NFIB, all hinge on an understanding that the
Individual Mandate and the shared-responsibility
payment are two very different creatures. The saving
construction in NFIB was available only because §
5000A(a) triggered a tax. 14 And § 5000A(b) was a tax
because it produced some revenue for the Government.
Sozinsky v. United States, 300 U.S. 506, 513-14 (1937);
United States v. Ross, 458 F.2d 1144, 1145 (5th Cir.
1972) (“The test of validity is whether on its face the
tax operates as a revenue generating measure and the
attendant regulations are in aid of a revenue
purpose.”).
Under the law as it now stands, the Individual
Mandate no longer “triggers a tax” beginning in 2019.
So long as the shared-responsibility payment is zero,
This distinction also explains why the Cadillac Tax, the
Medical Device Tax, and the Health Insurance Providers Fee are
all inapposite. Even if, for example, Congress had eliminated the
payment under Medical Device Tax—which it did not—the
analogy would not hold for the fact pattern before the Court.
Instead, to make the Medical Device Tax analogous, it would need
to contain a provision requiring all applicable individuals to
purchase medical devices. And it would also need to contain a
separate provision taxing any applicable individual who did not
purchase medical devices. Then, if Congress delayed or
suspended the tax under that scheme, the Medical Device Tax
would be at least usefully analogous. But the Medical Device Tax
does not tax inactivity and is therefore unhelpful here.
14

149a
the saving construction articulated in NFIB is
inapplicable and the Individual Mandate cannot be
upheld under Congress’s Tax Power. See NFIB, 567
U.S. at 574 (“Congress’s authority under the Taxing
power is limited to requiring an individual to pay
money into the Federal Treasury, no more.” (emphasis
added)).
2.
Congress’s Interstate Commerce
Power
Because the Individual Mandate can no longer be
read as an exercise of Congress’s Tax Power, the Court
takes up the Intervenor Defendants’ argument that
the mandate is now sustainable under the Interstate
Commerce Clause.
The Constitution grants Congress the power to
“regulate Commerce . . . among the several States.”
U.S. CONST, art. 1, § 8, cl. 3. Before TVFTB, the
Supreme Court had never considered whether
Congress’s power to regulate interstate commerce
allowed it to compel citizens into commerce—i.e., to
regulate inactivity. 567 U.S. at 647 (joint dissent)
(identifying issue of first impression). As outlined
above, the Supreme Court concluded it does not. It
therefore held the Individual Mandate could not be
sustained under the Interstate Commerce Clause. See
id. at 572 (majority).
The Plaintiffs argue this issue is decided because
the Supreme Court already concluded in NFIB that
the Individual Mandate cannot be upheld under the
Interstate Commerce Clause. Pls.’ Br. 22, ECF No.
40. 15 The Intervenor Defendants respond that the
15 The Federal Defendants did not separately brief the Interstate
Commerce Clause issue but agree with the Plaintiffs. See Fed.
Defs.’ Resp. 11, ECF No. 92 (“[O]nce the associated financial

150a
Individual Mandate “may now be sustained under the
Commerce Clause” because “with a tax of zero dollars,
there is no compulsion.” Intervenor Defs.’ Resp. 18
n.17, ECF No. 91. They argue the constitutional
problem identified in NFIB—Congress “compelling the
purchase of insurance”—is no longer a problem
because a tax of zero dollars imposes no legal
consequence on individuals who do not comply with
the Individual Mandate. Id. (emphasis in original); see
also Hr’g Tr. at 37:9-25, 66:14-68:7.
The Individual Mandate provides: “An applicable
individual shall . . . ensure that the individual . . . is
covered under minimum essential coverage . . .” 26
U.S.C. § 5000A(a). The Intervenor Defendants argue
the provision “gives the individuals the same choice
they’ve always had—to either purchase insurance or
pay the tax.” Hr’g Tr. at 67:17-19. But the Intervenor
Defendants’ position is logically self-defeating and
contrary to the evidence in this case, the language of
the ACA, and Fifth Circuit and Supreme Court
precedent.
a.
The Intervenor Defendants’
Position Is Logically Inconsistent
At the threshold, the Intervenor Defendants hope
to have their cake and eat it too by arguing the
Individual Mandate does absolutely nothing but
regulates interstate commerce. That is, they first say
the Individual Mandate “does not compel anyone to
penalty is gone, the ‘tax’ saving construction will no longer be
fairly possible and thus the individual mandate will be
unconstitutional. As a majority of the Supreme Court held in
NFIB, ‘[t]he Federal Government does not have the power to
order people to buy health insurance. Section 5000A would
therefore be unconstitutional if read as a command.’” (citations
omitted)).

151a
purchase insurance.” Hr’g Tr. at 37:12. Yet they ask
the Court to find the provision “regulate[s] Commerce
. . . among the several States.” U.S. CONST. art. 1, § 8,
cl. 3. The Intervenor Defendants’ theory, then, is that
Congress regulates interstate commerce when it
regulates nothing at all. But to “regulate” is “to govern
or direct according to rule” and to “bring under the
control of law or constituted authority.” WEBSTER’S
THIRD NEW INTERNATIONAL DICTIONARY 1913 (1986).
Accepting Intervenor Defendants’ theory that the
Individual Mandate does nothing thus requires
finding that it is not an exercise of Congress’s
Interstate Commerce Power. Cf. Gibbons v. Ogden, 22
U.S. 1, 189-90 (1824) (“Commerce . . . is regulated by
prescribing rules . . . .” (emphasis added)).
b.
The Intervenor Defendants’
Position Contradicts the Evidence
Despite the Intervenor Defendants’ logical
gymnastics, the undisputed evidence in this case
suggests the Individual Mandate fixes an obligation.
The Individual Plaintiffs assert they feel compelled to
comply with the law. Pls.’ App. Supp. Prelim. Inj., Ex.
A (Nantz Decl.) ¶ 15, ECF No. 41 (“I value compliance
with my legal obligations . . . [t]he repeal of the
associated health insurance tax penalty did not relieve
me of the requirement to purchase health insurance”);
Pls.’ App. Supp. Prelim. Inj., Ex. B (Hurley Decl.) ¶ 15,
ECF No. 41 (“I continue to maintain minimum
essential health coverage because I am obligated to
comply with the [ACA’s] individual mandate”). This
should come as no surprise. “It is the attribute of law,
of course, that it binds; it states a rule that will be
regarded as compulsory for all who come within its
jurisdiction.” HADLEY ARKES, FIRST THINGS: AN
INQUIRY INTO THE FIRST PRINCIPLES OF MORALS AND

152a
JUSTICE 11 (1986). Law therefore has an enormous
influence on social norms and individual conduct in
society. See CONGRESSIONAL BUDGET OFFICE, KEY
ISSUES IN ANALYZING MAJOR HEALTH INSURANCE
PROPOSALS at 53 (Dec. 2008) (noting compliance “is
generally observed, even when there is little or no
enforcement”). That is the point.
Undoubtedly, now that the shared-responsibility
payment has been eliminated, more individuals will
choose not to comply with the Individual Mandate. See
CONGRESSIONAL BUDGET OFFICE, REPEALING THE
INDIVIDUAL HEALTH INSURANCE MANDATE: AN
UPDATED ESTIMATE at 1 (Nov. 8, 2017). And that is
likely to undermine Congress’s intent in passing the
ACA: Near-universal healthcare and reduced
healthcare costs. See id. But the fact that many
individuals will no longer feel bound by the Individual
Mandate does not change either that some individuals
will feel so bound—such as the Individual Plaintiffs
here—or that the Individual Mandate is still law.
c.

The Intervenor Defendants’
Position Is Contrary to Text
and Binding Precedent

And therein lies the rub. The Individual Mandate
is law. 26 U.S.C. § 5000A(a). To be precise, the
“[r]equirement to maintain minimum essential
coverage” is still law. Id. § 5000A(a) (emphasis added).
As the Intervenor Defendants concede, Congress
“deliberately left the rest of the ACA untouched”—
including the Individual Mandate. Hr’g Tr. at 40:1213.
That the Individual Mandate persists, the Court
must conclude, is no mistake. “[I]t is no more the
court’s function to revise by subtraction than by

153a
addition.” READING LAW, supra note 9, at 174. The
surplusage canon holds that, while “[s]ometimes
lawyers will seek to have a crucially important word
ignored,” courts must “avoid a reading that renders
some words altogether redundant” or “pointless.” Id.
at 174, 176. And this is just as true when parties
“argue that an entire provision should be ignored.” Id.
at 175; see also Yates v. United States, 135 S. Ct. 1074,
1085 (2015) (“We resist a reading . . . that would render
superfluous an entire provision . . . .”).
To accept the Intervenor Defendants’ argument
that the Individual Mandate does nothing would be
doubly sinful under the canon against surplusage—it
would require ignoring both the mandatory words of
the provision and the function of the provision itself.
As to the words of the provision, it is entitled,
“Requirement to maintain minimum essential
coverage,” and provides that “[a]n applicable
individual shall . . . ensure” that she or he is covered
under an appropriate plan. 26 U.S.C. § 5000A(a).
These words must be interpreted according to their
plain meaning. See United States v. Yeatts, 639 F.2d
1186, 1189 (5th Cir. 1981) (“A basic canon of statutory
construction is that words should be interpreted as
taking their ordinary and plain meaning.” (citing
Perrin v. United States, 444 U.S. 37, 42 (1980)));
READING LAW, supra note 9, at 69.
The words “requirement” and “shall” are both
mandatory. Webster’s defines “requirement” as
“something required,” “something wanted or needed,”
and “something called for or demanded.” WEBSTER’S
THIRD NEW INTERNATIONAL DICTIONARY 1929 (1986).
And it provides the following as the non-archaic
meaning of “shall”: “used to express a command or
exhortation.” Id. at 2085. But a plethora of binding

154a
caselaw already establishes that there is nothing
permissive about a Congressionally enacted
requirement that properly 16 employs the verbiage
“shall.” See, e.g., Fed. Express Corp. v. Holowecki, 552
U.S. 389, 399 (2008) (reasoning “‘shall’ imposes
obligations on agencies to act”); Lopez v. Davis, 531
U.S. 230, 241 (2001) (noting “shall” indicates an intent
to “impose discretionless obligations”); Crane v.
Napolitano, No. 3:12-cv-03247-O, 2013 WL 1744422,
at *8 (N.D. Tex. Apr. 23, 2013), aff’d sub nom. Crane v.
Johnson, 783 F.3d 244 (5th Cir. 2015) (“Congress’s use
of the word ‘shall’ . . . imposes a mandatory
obligation”).
This is precisely why Chief Justice Roberts, in
explaining his road to the NFIB majority, noted that
the Individual Mandate “reads more naturally as a
command to buy insurance.” NFIB, 567 U.S. at 574
(Roberts, C.J.). Indeed, the Chief Justice reasoned that
he “would uphold it as a command if the Constitution
allowed it.” Id. But because courts “have a duty to
construe a statute to save it, if fairly possible,” id, and
because “§ 5000A [could] be interpreted as a tax” at the
time, id., the Chief Justice construed the Individual
Mandate “as establishing a condition . . . that triggers
a tax,” id. at 563. In other words, to the extent the
majority construed the Individual Mandate as
something other than a standalone mandate, it did so
There are some instances where drafters improperly use the
word “shall” as part of a negative command. For example,
“Neither party shall claim reimbursement for its expenses from
the other party.” READING LAW, supra note 9, at 113. In such an
instance, “shall” means something more akin to the traditionally
permissive “may.” But § 5000A(a) is not a negative command. And
“[w]hen drafters use shall . . . correctly”—as in § 5000A(a)—“the
traditional rule holds”—i.e., “that shall is mandatory.” Id. at 112.
16

155a
only because it was possible to construe the provision
as triggering a tax. That “fundamental construct,” as
the Intervenor Defendants call it, see Hr’g Tr. at 66:15,
was just that—a construct. And in light of this Court’s
finding on the Tax Power today, the construct no
longer holds.
But even under the NFIB construct, the Individual
Mandate created an obligation. 17 As the majority
noted, “the individual mandate clearly aims to induce
the purchase of health insurance.” 18 NFIB, 567 U.S. at
567 (majority). It continued, “Neither the Act nor any
other law attaches negative legal consequences to not
buying health insurance, beyond requiring a payment
to the IRS.” Id. at 568. And the Government agreed at
the time, “if someone chooses to pay rather than obtain
health insurance, they have fully complied with the
law.” Id.
The logic of the NFIB construct is that an
individual can comply with the law after disobeying
the Individual Mandate only by paying the sharedresponsibility payment. “The only thing they may not
lawfully do is not buy health insurance and not pay the
resulting tax.” Id. at 574 n.11. But this means the
Individual Mandate is no more optional than the tax.
Cf. READING LAW, supra note 9, at 63 (Presumption Against
Ineffectiveness).

17

That conduct-inducing characteristic is what led five Justices
to conclude the Individual Mandate was unsustainable under the
Interstate Commerce Clause. See NFIB, 567 U.S. at 552 (Roberts,
C.J.) (“The individual mandate, however, does not regulate
existing commercial activity. It instead compels individuals to
become active in commerce . . . .”); id. at 649 (joint dissent) (“To
be sure, purchasing insurance is ‘Commerce’; but one does not
regulate commerce that does not exist by compelling its
existence.”).

18

156a
If an individual can satisfy the law only by
satisfying either Condition 1 (the Individual Mandate)
or Condition 2 (the tax), then both conditions are
equally optional and mandatory. To state it
differently, under the NFIB construct, failing
Condition 1 no more triggers Condition 2 than failing
Condition 2 triggers Condition 1. So, an individual who
disobeys the Individual Mandate can satisfy the law
only by paying a tax, but an individual who disregards
the tax can satisfy the law only by obeying the
Individual Mandate. And only in a world where the
Individual Mandate were truly non-binding could an
individual disobey the Individual Mandate and forego
the tax. But under the NFIB majority’s construct, that
is not the case. That is because logic demands that the
Individual Mandate was never—pardon the
oxymoron—a non-binding law.
The remainder of the ACA proves that, too. As
noted above, § 5000A(e), did and still does exempt
some individuals from the eliminated sharedresponsibility payment but not the Individual
Mandate—“a distinction that would make no sense if
the mandate were not a mandate.” Id. at 665 (joint
dissent). What is more, Congress exempted, and
continues to exempt, certain individuals from the
Individual Mandate itself. See 26 U.S.C. § 5000A(d)(1).
Why would Congress exempt individuals from a
mandate that is not mandatory? To ask is to answer.
At least five Justices agreed the Individual
Mandate reads more naturally as a command to buy
health insurance than as a tax, 19 and those five
19 Justices Ginsburg, Breyer, Kagan, and Sotomayor seemingly
took no position on this construction but instead reasoned that
the Individual Mandate was constitutional even it were construed
as a command. See, e.g., NFIB, 567 U.S. at 610 (Ginsburg, J.,

157a
Justices agreed the mandate could not pass muster
under the Interstate Commerce Clause. Given that the
Individual Mandate no longer “triggers a tax,” the
Court finds the Individual Mandate now serves as a
standalone command that continues to be
unconstitutional under the Interstate Commerce
Clause.
***
The Court today finds the Individual Mandate is no
longer fairly readable as an exercise of Congress’s Tax
Power and continues to be unsustainable under
Congress’s Interstate Commerce Power. The Court
therefore finds the Individual Mandate, unmoored
from a tax, is unconstitutional and GRANTS
Plaintiffs’ claim for declaratory relief as to Count I of
the Amended Complaint.
C.

Severability

Since the Individual Mandate is unconstitutional,
the next question is whether that provision is
severable from the rest of the ACA. The Plaintiffs and
the Federal Defendants agree, based on the text of 42
U.S.C. § 18091 and all the opinions in NFIB, that the
guaranteed-issue and community-rating provisions of
the ACA are inseverable from the Individual Mandate.
See Pls.’ Br. 30-35, ECF No. 40; Fed. Defs.’ Resp. 1316, ECF No. 92; Pls.’ Reply 9, ECF No. 175. The
Plaintiffs, however, argue the Individual Mandate is
inseverable from the entire ACA, pointing again to §
18091 and NFIB Pls.’ Br. 27-40, ECF No. 40. The
joined by Breyer, Kagan, and Sotomayor, JJ.) (“Requiring
individuals to obtain insurance unquestionably regulates the
interstate health-insurance and health-care markets, both of
them in existence well before the enactment of the ACA.”).

158a
Intervenor Defendants first argue the Individual
Mandate is severable from all provisions in the ACA.
Intervenor Defs.’ Resp. 2833, ECF No. 91. But they
also specifically urge that the guaranteed-issue and
community-rating provisions are severable from the
Individual Mandate. Id. at 33-43.
Notably, the parties dispute which Congress’s
intent controls—the 2010 Congress that passed the
ACA or the 2017 Congress that passed the TCJA. See
Pls.’ Reply 14, ECF No. 175 (arguing the intent of the
2010 Congress controls); Intervenor Defs.’ Resp. 28-30,
ECF No. 91 (contending the intent of the 2017
Congress controls); Hr’g Tr. at 43-44. This is a bit of a
red herring because, applying the relevant standards,
the Court finds both Congresses manifested the same
intent: The Individual Mandate is inseverable from
the entire ACA.
Because the story begins with the 2010 Congress,
the Court begins there as well, analyzing both plain
text and Supreme Court precedent. But first, a word
about severability doctrine.
1.

Severability Doctrine

The doctrine of severability is rooted in the
separation of powers. See Ayotte v. Planned
Parenthood of N. New Eng., 546 U.S. 320, 329-30
(2006); Regan v. Time, Inc., 468 U.S. 641, 652-53
(1984) (plurality opinion). The Supreme Court has
therefore
frequently
severed
unconstitutional
provisions from constitutional ones. 20 This practice
20 See, e.g., Chadha, 462 U.S. at 931-35 (severing the legislativeveto provision from the remainder of the Immigration and
Nationality Act); Alaska Airlines, 480 U.S. at 684-97 (holding the
legislative-veto provision severable from the remainder of the
Airline Deregulation Act of 1978); New York v. United States, 505

159a
reflects a judicial duty to “try to limit the solution to
the problem.” Ayotte, 546 U.S. at 328. In other words,
“a court should refrain from invalidating more of the
statute than is necessary.” Regan, 468 U.S. at 652.
Severability, however, is possible only where “an
act of Congress contains unobjectionable provisions
separable from those found to be unconstitutional.” Id.
(quoting El Paso & Ne. R. Co. v. Gutierrez, 215 U.S. 87,
96 (1909)) (emphasis added). Were a court to overplay
deference to sever an inseverable statute, it would
embrace the very evil the doctrine is designed to deter.
See, e.g., RR Ret. Bd. v. Alton R.R. Co., 295 U.S. 330,
362 (1935) (“[W]e cannot rewrite a statute and give it
an effect altogether different from that sought by the
measure viewed as a whole.”). Put bluntly, severing an
inseverable statute “is legislative work beyond the
power and function of the court.” Hill v. Wallace, 259
U.S. 44, 70 (1922). For that reason, the Supreme Court
has also readily held whole statutes unconstitutional
due to an inseverable part. 21
U.S. at 186-87 (holding the take provision severable from the
remainder of the Low-Level Radioactive Waste Policy
Amendments Act of 1985); Buckley v. Valeo, 424 U.S. 1, 108-09
(1976) (holding campaign expenditure limits severable from other
provisions in the Federal Election Campaign Act of 1971).
21 See, e.g., Wallace, 259 U.S. at 70 (“Section 4 with its penalty to
secure compliance with the regulations of Boards of Trade is so
interwoven with those regulations that they cannot be separated.
None of them can stand.”); Alton, 295 U.S. at 362 (“[W]e are
confirmed by the petitioners’ argument that, as to some of the
features we hold unenforceable, it is ‘unthinkable’ and
‘impossible’ that the Congress would have created the compulsory
pension system without them. They so affect the dominant aim of
the whole statute as to carry it down with them.”). See also
Minnesota v. Mille Lacs Band of Chippewa Indians, 526 U.S. 172,
191 (1999) (applying “the severability standard for statutes” to an

160a
In light of these background principles, the test for
severability is often stated as follows: “Unless it is
evident that the Legislature would not have enacted
those provisions which are within its power,
independently of that which is not, the invalid part
may be dropped if what is left is fully operative as a
law.” 22 Alaska Airlines, 480 U.S. at 684. Even under
this statement of the rule, “[t]he inquiry into whether
a statute is severable is essentially an inquiry into
legislative intent.” Mille Lacs, 526 U.S. at 191. 23 It
“requires judges to determine what Congress would
have intended had it known that part of its statute was
unconstitutional.” Murphy, 138 S. Ct. at 1486-87
(Thomas, J., concurring). And consistent with the
separation of powers, “enacted text is the best
indicator of intent.” Nixon v. United States, 506 U.S.
224, 232 (1993); cf United States v. Maturino, 887 F.3d
716, 723 (5th Cir. 2018) (“Text is the alpha and the
omega of the interpretive process.”).
So, a court’s severability analysis begins with a
bread-and-butter exercise: parsing a provision’s text
and gleaning the ordinary meaning. See Murphy, 138
S. Ct. at 1486 (Thomas, J., concurring) (“Because
Executive Order and holding “it is clear that President Taylor
intended the 1850 order to stand or fall as a whole”).
22 This statement of the rule represents something of a departure
from the Supreme Court’s reasoning in other decisions that there
is a “presumption . . . of an intent that, unless the act operates as
an entirety, it shall be wholly ineffective.” Alton, 295 U.S. at 362
(citing Wallace, 259 U.S. at 70). But even as stated in Alton, the
crux of the inquiry is Congressional “intent.”

See Murphy v. Nat’l Collegiate Athletic Ass’n, 138 S. Ct. 1461,
1485-87 (2018) (Thomas, J. concurring) (discussing the problems
with applying the modem severability doctrine as a remedy
rather than an exercise in statutory interpretation).
23

161a
courts cannot take a blue pencil to statutes, the
severability doctrine must be an exercise in statutory
interpretation.”). If the text reflects Congress’s intent
that an unconstitutional provision not be severed—
i.e., if “it is evident” Congress “would not have enacted
those provisions which are within its power,
independently of that which is not,” Alaska Airlines,
480 U.S. at 684—the analysis ends. The provision is
inseverable.
If the text does not reflect a clear legislative intent,
however, the court must ask whether the
constitutional
provisions,
severed
from
the
unconstitutional one, would remain “fully operative as
a law.” Free Enterprise, 561 U.S. at 509 (citing New
York, 505 U.S. at 186; Alaska Airlines, 480 U.S. at
684). This is because “Congress could not have
intended a constitutionally flawed provision to be
severed from the remainder of the statute if the
balance of the legislation is incapable of functioning
independently.” Alaska Airlines, 480 U.S. at 684. Here
too the touchstone is intent.
Applying these standards, the Court finds the 2010
Congress expressed through plain text an
unambiguous intent that the Individual Mandate not
be severed from the ACA. Supreme Court precedent
supports that finding. And in passing the TCJA
through the reconciliation process, the 2017 Congress
further entrenched the intent manifested by the 2010
Congress.
2.

The Intent of the 2010 Congress

The Intervenor Defendants contend that, “even if it
were proper to consider the legislative intent of the
2010 Congress that passed the minimum coverage
provision in its original. . . form—and to graft that

162a
intent onto a statutory amendment passed by a
different Congress—that would still be of no
assistance to Plaintiffs.” Intervenor Defs.’ Resp. 30,
ECF No. 91. They first briefly point to the fact that
several ACA provisions went into effect before the
Individual Mandate. Id. at 31-32. They then argue
that, “[i]n light of the ACA’s numerous stand-alone
provisions addressing a vast array of diverse topics, it
is not remotely ‘evident’ that Congress would want the
extraordinary disruption that would be caused by” a
finding of inseverability. Id. at 32-33. Finally, the
Intervenor Defendants devote ten pages to explaining
why the Individual Mandate is specifically severable
from the guaranteed-issue and community-rating
provisions, arguing Congress intended to end
discriminatory underwriting practices and that
Congress’s findings are irrelevant as they focused on
an adverse-selection problem that no longer exists. Id.
at 33-43.
a.

The ACA’s Plain Text

“[T]he touchstone for any decision about remedy is
legislative intent, for a court cannot use its remedial
powers to circumvent the intent of the legislature.”
Ayotte, 546 U.S. at 330 (citation and quotation marks
omitted). And if it is “the well-established rule that the
plain language of the enacted text is the best indicator
of intent,” Nixon, 506 U.S. at 232, then the intent of
the 2010 Congress could not be clearer. Congress
codified its intent plainly in 42 U.S.C. § 18091,
“Requirement to maintain minimum essential
coverage; findings.” Those findings are not mere
legislative history—they are enacted text that
underwent the Constitution’s requirements of
bicameralism and presentment; agreed to by both
houses of Congress and signed into law by President

163a
Obama. See INS v. Chadha, 462 U.S. 919, 951 (1983)
(noting “the Framers were acutely conscious that the
bicameral requirement and the Presentment Clauses
would serve essential constitutional functions” and
“[i]t emerges clearly that the prescription for
legislative action . . . represents the Framers’ decision
that the legislative power of the Federal government
be exercised in accord with a single, finely wrought
and exhaustively considered, procedure”).
The findings state Congress intended to
“significantly increas[e] healthcare coverage,” “lower
health insurance premiums,” ensure that “improved
health insurance products that are guaranteed issue,”
and ensure that such health insurance products “do
not ex elude coverage of preexisting conditions.” 42
U.S.C. § 18091(2)(I). And Congress intended to achieve
those goals in a very specific way. Congress knew that
“[i]n the absence of the requirement, 24 some
individuals would make an economic and financial
decision to forego health insurance coverage and
attempt to self-insure, which increases financial risks
to households and medical providers.” Id. §
18091(2)(A).
So,
Congress
designed
“[t]he
requirement, together with the other provisions of this
Act” to “add millions of new customers to the health
insurance market.” Id. § 18091(2)(C) (emphasis
added).
“The requirement,” Congress intended, would
“achieve[] near-universal coverage”—a major goal of
the ACA—“by building upon and strengthening the
private employer-based health insurance system.” Id.
§ 18091(2)(D). Congress believed this would work
In § 18091, the Individual Mandate is “referred to as the
‘requirement.’” Id. § 18091(1).
24

164a
because “[i]n Massachusetts, a similar requirement
ha[d] strengthened private employer-based coverage.”
Id. Moreover, Congress stated “the requirement,
together with the other provisions of this Act, will
significantly reduce [the] economic cost” caused by
uninsured individuals. Id. § 18091(2)(E). Congress
also intended the Individual Mandate to achieve
another stated goal: “By significantly reducing the
number of the uninsured, the requirement, together
with the other provisions of this Act, will lower health
insurance premiums.” Id. § 18091(2)(F). And “the
requirement, together with the other provisions of this
Act,” Congress stated, “will improve financial security
for families.” Id. § 18091(2)(G).
If there were any lingering doubt Congress
intended the Individual Mandate to be inseverable,
Congress removed it: “The requirement is an essential
part of this larger regulation of economic activity, and
the absence of the requirement would undercut Federal
regulation of the health insurance market.” Id. §
18091(2)(H) (emphasis added). That is because, “if
there were no requirement, many individuals would
wait to purchase health insurance until they needed
care.” Id. § 18091(2)(I). And that would undermine the
entire project. So, Congress intended “the
requirement, together with the other provisions of this
Act,” to “minimize this adverse selection and broaden
the health insurance risk pool . . . which will lower
health insurance premiums.” Id. In other words, “[t]he
requirement is essential to creating effective health
insurance markets in which improved health
insurance products that are guaranteed issue and do
not exclude coverage of pre-existing conditions can be
sold.” Id. (emphasis added).
Congress closed by adding that it intended “the

165a
requirement, together with the other provisions,” to
“significantly reduce administrative costs and lower
health insurance premiums.” Id. § 18091(2)(J). “The
requirement is essential” Congress reiterated, “to
creating effective health insurance markets that do
not require underwriting and eliminate its associated
administrative costs.” Id. (emphasis added).
All told, Congress stated three separate times that
the Individual Mandate is essential to the ACA. 25 That
is once, twice, three times and plainly. It also stated
the absence of the Individual Mandate would
“undercut” its “regulation of the health insurance
market.” Thirteen different times, Congress explained
how the Individual Mandate stood as the keystone of
the ACA. And six times, Congress explained it was not
just the Individual Mandate, but the Individual
Mandate “together with the other provisions” that
allowed the ACA to function as Congress intended.
As the Supreme Court has repeatedly explained,
“The best evidence of congressional intent . . . is the
statutory text that Congress enacted.” 26Marx v. Gen.
See supra note 13 (defining “essential” as, among other
imperatives, “the essence of its kind,” “indispensable,” and “[o]f
the utmost importance; basic and necessary”) (citations omitted).

25

26 It is also instructive to consider what text Congress did not
enact. In NFIB, the Supreme Court held that the unconstitutional
portions of the ACA’s Medicaid-expansion provisions could be
severed from the constitutional portions because Congress
included a severability clause. See NFIB, 567 U.S. at 585-86
(Roberts, C.J., joined by Breyer and Kagan, JJ); id. at 645
(Ginsburg, J., joined by Sotomayor, J.). In severing the
unconstitutional portions of the Medicaid-expansion provisions,
the Supreme Court was “follow[ing] Congress’s explicit textual
instruction.” Id. at 586 (Roberts, C.J., joined by Breyer and
Kagan, JJ); accord id. at 645 (Ginsburg, J., joined by Sotomayor,
J.) (“I agree . . . that the Medicaid Act’s severability clause

166a
Revenue Corp., 568 U.S. 371, 392 n.4 (2013) (citing
West Virginia Univ. Hospitals, Inc. v. Casey, 499 U.S.
83, 98 (1991)). 27 On the issue of severability, the text
of the ACA is unequivocal. Virtually every subsection
of 42 U.S.C. § 18091 is teeming with Congress’s intent
that the Individual Mandate be inseverable—because
it is essential—from the entire ACA—because it must
work together with the other provisions.
On the unambiguous enacted text alone, the Court
finds the Individual Mandate is inseverable from the

determines the appropriate remedy.” (emphasis added)). The
Supreme Court’s Medicaid-severability analysis in NFIB thus
supports this Court’s finding of Individual Mandate
inseverability in two ways. First, it confirms the Court must
foremost look to Congress’s “explicit textual instruction”—here,
that the mandate is “essential” to the ACA. See 42 U.S.C. §
18091(2). Second, it confirms Congress knew exactly how to
signal its intent that an offending ACA provision be severed from
non-offending provisions—i.e., through enacted text. Cf. GozlonPeretz v. United States, 498 U.S. 395, 404 (1991) (“[W]here
Congress includes particular language in one section of a statute
but omits it in another section of the same Act, it is generally
presumed that Congress acts intentionally and purposely in the
disparate inclusion or exclusion.” (quoting Russello v. United
States, 464 U.S. 16, 23 (1983))). Yet Congress sent up no such
signals anywhere in the ACA with respect to the Individual
Mandate. While not dispositive, the lack of a severability clause
covering the Individual Mandate is therefore not only consistent
with Congress’s repeated statements that the Individual
Mandate is “essential” to the ACA but also probative of Congress’s
intent on its own terms.
also EEOC v. Hernando Bank, Inc., 724 F .2d 1188, 1190
(5th Cir. 1984) (noting severability requires “the court [to] inquire
into whether Congress would have enacted the remainder of the
statute in the absence of the invalid provision” and reasoning
“Congressional intent and purpose are best determined by an
analysis of the language of the statute in question”).
27 See

167a
Act to which it is essential. 28
b.

The Supreme Court’s ACA Decisions

While the ACA’s plain text alone justifies finding
complete inseverability, this text-based conclusion is
further compelled by two separate Supreme Court
decisions. All nine Justices to address the issue, for
example, agreed the Individual Mandate is
inseverable from at least the preexisting-condition
provisions. 29 In NFIB, Chief Justice Roberts explained
See Barnhart v. Sigmon Coal Co., 534 U.S. 438, 450 (2002)
(reasoning statutory construction “ceases if the statutory
language is unambiguous and the statutory scheme is coherent
and consistent” (cleaned up)); Connecticut Nat’l Bankv. Germain,
503 U.S. 249, 253-54 (1992) (“[I]n interpreting a statute a court
should always turn first to one, cardinal canon before all others.
We have stated time and again that courts must presume that a
legislature says in a statute what it means and means in a statute
what it says there . . . When the words of a statute are
unambiguous, then, this first canon is also the last: ‘judicial
inquiry is complete.’” (citing United States v. Ron Pair Enters.,
Inc., 489 U.S. 235, 241-42 (1989); Rubin v. United States, 449 U.S.
424, 430 (1981); United States v. Goldenberg, 168 U.S. 95, 102-03
(1897); and Oneale v. Thornton, 6 Crunch 53, 68 (1810))).
28

29 The Federal Defendants here are consistent in taking the same
position the previous administration took during the NFIB
litigation. See Br. for Resp. (Severability) at 45, NFIB, 567 U.S.
519 (No. 11-393) (“Congress’s findings establish that the
guaranteed-issue and community-rating provisions are
inseverable from the minimum coverage provision.”); id. at 11; see
also Memorandum from Att’y Gen. Jefferson B. Sessions III for
Speaker Paul Ryan (June 7, 2018) (on file with the Dep’t of
Justice) (noting that, “[i]n NFIB, the Department previously
argued that if Section 5000A(a) is unconstitutional, it is severable
from the ACA’s other provisions, except” the guaranteed-issue
and community-rating provisions). Also notable is that many of
the Intervenor Defendants appeared as amici in NFIB and
expressly declined to challenge the Government’s concession that
the community-rating and guaranteed-issue provisions were
inseverable from the Individual Mandate. See Br. for California

168a
“Congress addressed the problem of those who cannot
obtain insurance coverage because of preexisting
conditions or other health issues . . . through the
[ACA’s] ‘guaranteed-issue’ and ‘community-rating’
provisions.” NFIB, 567 U.S. at 547-48 (Roberts, C.J.).
But these “reforms sharply exacerbate [the] problem”
of healthy individuals foregoing health insurance. Id.
at 548. “The reforms also threaten to impose massive
new costs on insurers,” the Chief Justice continued. Id.
“The individual mandate was Congress’s solution to
these problems. By requiring that individuals
purchase health insurance, the mandate prevents cost
shifting . . . [and] allows insurers to subsidize the costs
of covering the unhealthy individuals the reforms
require them to accept.” Id. The Individual Mandate,
the Chief Justice thus explained, was the fulcrum on
which the macro-level trade-offs pivoted.
Justice Ginsburg, joined by Justices Breyer,
Kagan, and Sotomayor, agreed. She wrote: “To make
its chosen approach work . . . Congress had to use some
new tools, including a requirement that most
individuals obtain private health insurance coverage.”
Id. at 596 (Ginsburg, J., joined by Breyer, Kagan, and
Sotomayor, JJ.) (citing 26 U.S.C.§ 5000A) (emphasis
added). She elaborated: “To ensure that individuals
with medical histories have access to affordable
insurance, Congress devised a three-part solution.” Id.
at 597. Part one: guaranteed issue. Id. Part two:
et al. as Amici Curiae Supporting Respondents at 3 n.2, NFIB,
567 U.S. 519 (No. 11-393) (“Respondents have conceded that the
guaranteed issue and community rating provisions that go into
effect in 2014 should be invalidated if the Court concludes the
minimum coverage provision is unconstitutional. Amici States do
not seek to challenge this concession.”). But that was then, and
this is now.

169a
community rating. Id. “But these two provisions,
Congress comprehended, could not work effectively
unless individuals were given a powerful incentive to
obtain insurance.” Id. (emphasis added). Congress
drew this lesson from the “disastrous” results of seven
different states that experienced “skyrocketing
insurance premium costs, reductions in individuals
with coverage, and reductions in insurance products
and providers” after “enact[ing] guaranteed-issue and
community-rating laws without requiring universal
acquisition of insurance coverage.” Id. at 59798
(citations and quotation marks omitted).
Based on these lessons, “Congress comprehended
that guaranteed-issue and community-rating laws
alone will not work” Id. at 598 (emphasis added). So,
taking a cue from Massachusetts, “Congress passed
the minimum coverage provision as a key component of
the ACA.” Id. at 599 (emphasis added). As did the
Chief Justice, then, Justices Ginsburg, Breyer, Kagan,
and Sotomayor all understood what Congress
understood: Without the Individual Mandate, the
guaranteed-issue and community-rating provisions
“could not work.”
Make that nine Justices. As the joint dissent
explained, “Insurance companies bear new costs
imposed by a collection of insurance regulations and
taxes, including ‘guaranteed issue’ and ‘community
rating’ requirements to give coverage regardless of the
insured’s pre-existing conditions.” Id. at 695 (joint
dissent). But, keeping with the careful balance
described by the other Justices, “the insurers benefit
from the new, healthy purchasers who are forced by
the Individual Mandate to buy the insurers’ product
and from the new low-income Medicaid recipients who
will enroll in insurance companies’ Medicaid-funded

170a
managed care programs.” Id. at 695-96. Because the
Supreme Court held the ACA’s Medicaid Expansion
could not be compulsory, see id. at 575–85 (Roberts,
C.J.), the Court’s finding today that the Individual
Mandate is unconstitutional means both components
the joint dissenters found to be inseverable from the
pre-existing-conditions provisions have now fallen.
In King v. Burwell, the Supreme Court reaffirmed
many of the Justices’ severability conclusions from
NFIB. See 135 S. Ct. 2480, 2485-87 (2015). There, a
six-Justice majority recounted the history of several
states attempting to expand health-insurance
coverage without implementing a mandate—an
experiment that repeatedly “led to an economic ‘death
spiral.’” Id. at 2486. It then explained what all nine
Justices in NFIB expressed: the guaranteed-issue
provision, the community-rating provision, and the
Individual Mandate “are closely intertwined.” Id. at
2487. And citing directly to Congress’s findings for
support, 30 the Supreme Court stated unequivocally:
“Congress found that the guaranteed issue and
community rating requirements would not work
without the coverage requirement.” Id. (citing 42
U.S.C. § 18091(2)(I)) (emphasis added).
So, after King, the Government 31 and all nine
As noted above, the Intervenor Defendants argue Congress’s
ACA findings are no longer relevant to severability because they
addressed only how the ACA would be created, not how it would
work. See Intervenor Defs,’ Resp. 39-43, ECF No. 91. But the
Supreme Court relied on those findings in 2015—after the ACA
was up and running—when deciding King. See 135 S. Ct. at 2487.
30

See Randy Barnett, Commandeering the People: Why the
Individual Health Insurance Mandate Is Unconstitutional, 5
N.Y.U. J.L. & LIBERTY 581, 614-21 (2010) (detailing the
Government’s position leading up to the NFIB litigation that the
31

171a
Justices had agreed that at least the guaranteed-issue
and community-rating provisions “could not work”
without the Individual Mandate. 32 And all of them
cited Congress’s findings in reaching that conclusion.
But the reasoning in the above opinions also
confirms the Individual Mandate is inseverable from
the entirety of the ACA. See, e.g., King, 135 S. Ct. at
2486 (noting the successful Massachusetts model used
by Congress relied not only on a mandate but instead
on “[t]he combination of these three reforms—
insurance market regulations, a coverage mandate,
and tax credits’ (emphasis added)). Notably, the joint
dissent in NFIB was the only block of Justices to fully
consider severability because it was the only block of
Justices
to
find
the
Individual
Mandate
unconstitutional—which is now the controlling
framework. And they explained why the Individual
Mandate was inseverable from the ACA as a whole.
That explanation is consistent with the reasoning
offered in the Chief Justice’s opinion and in Justice
Ginsburg’s opinion.
The joint dissent first detailed how “[t]he whole
design of the [ACA] is to balance the costs and benefits
affecting each set of regulated parties.” Id. at 694;
accord id. at 548 (Roberts, C.J.) (noting “the mandate
prevents cost shifting”); id. at 593 (Ginsburg, J., joined
Individual Mandate was constitutional under the Interstate
Commerce Clause because it was “essential” to “a broader
regulatory scheme”).
The Intervenor Defendants nearly agree. See Intervenor Defs,’
Resp. 37, ECF No. 91 (“To be sure, Congress intended that the
requirement to purchase health insurance, along with the
community-rating and guaranteed-issue provisions, would work
together harmoniously to increase the number of insured
Americans and lower premiums.”).
32

172a
by Breyer, Kagan, and Sotomayor, JJ.) (noting
Congress wanted to address “[t]hose with health
insurance subsidiz[ing] the medical care of those
without it”). To that end, “individuals are required to
obtain health insurance”; insurers must “sell them
insurance regardless of . . . pre-existing conditions and
. . . comply with a host of other regulations . . . [and]
pay new taxes”; “States are expected to expand
Medicaid eligibility and to create regulated
marketplaces”; “[s]ome persons who cannot afford
insurance are provided it through the Medicaid
Expansion, and others are aided in their purchase of
insurance through federal subsidies”; “[t]he Federal
Government’s increased spending is offset by new
taxes and cuts in other federal expenditures”; and
certain employers “must either provide employees
with adequate health benefits or pay a financial
exaction.” Id. at 694-95 (joint dissent) (citations
omitted). “In short,” the joint dissent explained, “the
Act attempts to achieve near-universal health
insurance coverage by spreading its costs to
individuals, insurers, governments, hospitals, and
employers—while, at the same time, offsetting
significant portions of those costs with new benefits to
each group.” Id. at 695; accord id. at 596 (Ginsburg, J.,
joined by Breyer, Kagan, and Sotomayor, JJ.) (“A
central aim of the ACA is to reduce the number of
uninsured U.S. residents . . . The minimum coverage
provision advances this objective.” (citing 42 U.S.C. §§
18091(2)(C) and (I))). Congress, in other words, “did
not intend to impose the inevitable costs on any one
industry or group of individuals.” Id. at 694 (joint
dissent); accord id. at 548 (Roberts, C.J.) (noting “the
mandate forces into the insurance risk pool more
healthy individuals, whose premiums on average will
be higher than their health care expenses” which

173a
“allows insurers to subsidize the costs of covering the
unhealthy individuals the reforms require them to
accept”).
As the joint dissent concluded, “the Act’s major
provisions are interdependent.” Id. at 696 (joint
dissent). Indeed, the ACA “refers to these
interdependencies as ‘shared responsibility.’” Id.
(citations omitted). And the joint dissent cited
Congress’s findings to buttress its conclusion on the
Individual Mandate’s complete inseverability, noting
that “[i]n at least six places, the Act describes the
Individual Mandate as working ‘together with the
other provisions of this Act.’” Id. (citing 42 U.S.C. §§
18091(2)(C), (E), (F), (G), (I), and (J)). The joint dissent
further noted that the ACA “calls the Individual
Mandate ‘an essential part’ of federal regulation of
health insurance and warns that ‘the absence of the
requirement would undercut Federal regulation of the
health insurance market.’” Id. (citing 42 U.S.C. §
18091(2)(H)).
“In sum, Congress passed the minimum coverage
provision as a key component of the ACA” Id. at 599
(Ginsburg, J., joined by Breyer, Kagan, and
Sotomayor, JJ.) (emphasis added); accord id. at 539
(majority) (“This case concerns constitutional
challenges to two key provisions, commonly referred to
as the individual mandate and the Medicaid
expansion.” (emphasis added)). Not a key component
of the guaranteed-issue and community-rating
provisions, but of the ACA. The Supreme Court’s only
reasoning on the topic thus supports what the text
says: The Individual Mandate is essential to the ACA.

174a
c.
The Individual Mandate is
Inseverable from the Entire ACA
The ACA’s text and the Supreme Court’s decisions
in NFIB and King thus make clear the Individual
Mandate is inseverable from the ACA. As Justice
Ginsburg explained, “Congress could have taken over
the health-insurance market by establishing a taxand-spend federal program like Social Security.” Id. at
595 (Ginsburg, J., joined by Breyer, Kagan, and
Sotomayor, JJ). But it did not. “Instead of going this
route, Congress enacted the ACA . . . To make its
chosen approach work, however, Congress had to use .
. . a requirement that most individuals obtain private
health insurance coverage.” Id. (citing 26 U.S.C.§
5000A). That requirement—the Individual Mandate—
was essential to the ACA’s architecture. Congress
intended it to place the Act’s myriad parts in perfect
tension. Without it, Congress and the Supreme Court
have stated, that architectural design fails. “Without a
mandate, premiums would skyrocket. The guaranteed
issue and community rating provisions, in the absence
of the individual mandate, would create an
unsustainable death spiral of costs, thus crippling the
entire law.” BLACKMAN, supra note 3, at 147; accord
NFIB, 567 U.S. at 597 (Ginsburg, J., joined by Breyer,
Kagan, and Sotomayor, JJ.) (noting the mandate was
essential to staving off “skyrocketing insurance
premium costs”). Congress simply never intended
failure.
Yet the parties focus on particular provisions. It is
like watching a slow game of Jenga, each party poking
at a different provision to see if the ACA falls.
Meanwhile, Congress was explicit: The Individual
Mandate is essential to the ACA, and that essentiality
requires the mandate to work together with the Act’s

175a
other provisions. See 42 U.S.C. § 18091. If the “other
provisions” were severed and preserved, they would no
longer be working together with the mandate and
therefore no longer working as Congress intended. On
that basis alone, the Court must find the Individual
Mandate inseverable from the ACA. To find otherwise
would be to introduce an entirely new regulatory
scheme never intended by Congress or signed by the
President. And the Court “cannot rewrite a statute and
give it an effect altogether different from that sought
by the measure viewed as a whole.” Murphy, 138 S. Ct.
at 1482 (quoting Alton, 295 U.S. at 362).
Even if the Court preferred to ignore the clear text
of § 18091 and parse the ACA’s provisions one by one,
the text- and precedent-based conclusion would only
be reinforced: Upholding the ACA in the absence of the
Individual Mandate would change the “effect” of the
ACA “as a whole.” See Alton, 295 U.S. at 362. For
example, the Individual Mandate reduces the financial
risk forced upon insurance companies and their
customers by the ACA’s major regulations and taxes.
See 42 U.S.C. §§ 18091(2)(C), (I). If the regulations and
taxes were severed from the Individual Mandate,
insurance companies would face billions of dollars in
ACA-imposed regulatory and tax costs without the
benefit of an expanded risk pool and customer base—
a choice no Congress made and one contrary to the
text. See NFIB, 567 U.S. at 698 (joint dissent); 42
U.S.C. § 18091(2)(C) and (I). Similarly, the ACA
“reduce[d] payments by the Federal Government to
hospitals by more than $200 billion over 10 years.”
NFIB, 567 U.S. at 699 (joint dissent). Without the
Individual Mandate (or forced Medicaid expansion),
hospitals would encounter massive losses due to
providing uncompensated care. See BLACKMAN, supra

176a
note 3, at 2-4 (discussing the free-rider and costshifting problems in healthcare). This would, as
Plaintiffs argue, “distort the ACA’s design of ‘shared
responsibility.’” Pls.’ Br. 36, ECF No. 40 (citing NFIB,
567 U.S. at 699 (joint dissent)).
The story is the same with respect to the ACA’s
other major provisions, too. The ACA allocates billions
of dollars in subsidies to help individuals purchase a
government-designed health-insurance product on
exchanges establish e d by the States (or the federal
government ). See, e.g., 26 U.S.C. § 36B; 42 U.S.C. §
18071. But if the Individual Mandate falls, and
especially if the pre-existing-condition provisions fall,
upholding the subsidies and exchanges would
transform the ACA into a law that subsidizes the kinds
of discriminatory products Congress sought to abolish
at, presumably, the re-inflated prices it sought to
suppress. Cf. Williams v. Standard Oil Co. of
Louisiana, 278 U.S. 235, 244 (1929), overruled in part
on other grounds by Olsen v. Nebraska ex rel. W.
Reference & Bond Ass’n, 313 U.S. 236 (1941) (“The
taxes imposed by section 10 are solely for the purpose
of defraying the expenses of the division of motors and
motor fuels, and since the functions of that division
practically come to an end with the failure of the pricefixing features of the law, it is unreasonable to suppose
that the Legislature would be willing to authorize the
collection of a fund for a use which no longer exists.”).
Nor did Congress ever contemplate, never mind
intend, a duty on employers, see 26 U.S.C. § 4980H, to
cover the “skyrocketing insurance premium costs” of
their employees that would inevitably result from
removing “a key component of the ACA.” (Ginsburg, J.,
joined by Breyer, Kagan, and Sotomayor, JJ.). And the
Medicaid-expansion provisions were designed to serve

177a
and assist fulfillment of the Individual Mandate and
offset reduced hospital reimbursements by aiding
“low-income individuals who are simply not able to
obtain insurance.” Id. at 685 (joint dissent).
The result is no different with respect to the ACA’s
minor provisions. For example, the Intervenor
Defendants assert that, “[i]n addition to protecting
consumers with preexisting medical conditions,
Congress also enacted the guaranteed-issue and
community-rating provisions to reduce administrative
costs and lower premiums.” Intervenor Defs.’ Resp. 35,
ECF No. 91; see also id. at 34 (“Congress
independently sought to end discriminatory
underwriting practices and to lower administrative
costs.”). But Congress stated explicitly that the
Individual Mandate “is essential to creating effective
health insurance markets that do not require
underwriting
and
eliminate
its
associated
administrative costs” 42 U.S.C. § 18091(2)(J)
(emphasis added). At any rate, to the extent most of
the minor provisions “are mere adjuncts of the” nowunconstitutional
Individual
Mandate
and
nonmandatory Medicaid expansion, “or mere aids to
their effective execution,” if the Individual Mandate
“be stricken down as invalid” then “the existence of the
[minor provisions] becomes without object.” Williams,
278 U.S. at 243.
Perhaps it is impossible to know which minor
provisions Congress would have passed absent the
Individual Mandate. But the level of legislative
guesswork entailed in reconstructing the ACA’s
innumerable trade-offs without the one feature
Congress called “essential” is plainly beyond the
judicial power. See Alton, 295 U.S. at 362; Wallace, 259
U.S. at 70. And there is every reason to believe

178a
Congress would not have enacted the ACA absent the
Individual Mandate—given the Act’s text as
interpreted by the Supreme Court—but “no reason to
believe that Congress would have enacted [the minor
provisions] independently.” NFIB, 567 U.S. at 705
(joint dissent).
In sum, the Individual Mandate “is so interwoven
with [the ACA’s] regulations that they cannot be
separated. None of them can stand.” Wallace, 259 U.S.
at 70.
***
Neither the ACA’s text nor Supreme Court
precedent leave any doubt. The 2010 Congress never
intended the ACA “to impose massive new costs on
insurers” while allowing widespread “cost shifting.” Id.
at 548 (Roberts, C.J.). It never intended the ACA to go
on without the signature provision that everyone knew
would “make its chosen approach work”—the
signature provision Congress “had to use.” Id. at 596
(Ginsburg, J., joined by Breyer, Kagan, and
Sotomayor, JJ.). It never agreed to a law that would
lead to “disastrous” results like “skyrocketing
insurance premium costs, reductions in individuals
with coverage, and reductions in insurance products
and providers.” Id. at 597-98 (citations and quotation
marks omitted). And Congress never intended to
excise “a key component of the ACA.” Id. at 599.
Historical context confirms Congress would not
have enacted the ACA absent the constitutional
infirmities. 33 See Free Enterprise, 561 U.S. at 509
See, id. (“In coupling the minimum coverage provision with
guaranteed-issue and community-rating prescriptions, Congress
followed Massachusetts’ lead.”).
33

179a
(considering “the statute’s text” and “historical
context”). Every state’s attempt to do so failed
miserably. See King, 135 S. Ct. at 2485-86. To leave
the ACA in place without the Individual Mandate—or,
even more drastically, to leave it in place without
either the Individual Mandate or the provisions
covering pre-existing conditions as the Federal
Defendants
suggest—would
thus
be
wildly
inconsistent “with Congress’ basic objectives in
enacting the statute.” Booker, 543 U.S. at 259 (citing
Regan, 468 U.S. at 653).
This tells the Court all it needs to know. Based on
unambiguous text, Supreme Court guidance, and
historical context, the Court finds “it is evident that
the Legislature would not have enacted” the ACA
“independently of’ the Individual Mandate. Alaska
Airlines, 480 U.S. at 684. That is to say, Congress
“would not have enacted those provisions which are
within its power, independently of [those] which [are]
not.” Murphy, 138 S. Ct. at 1482 (quoting Alaska
Airlines, 480 U.S. at 684). “Though this inquiry can
sometimes be elusive, the answer here seems clear.”
Free Enterprise, 561 U.S. at 509 (cleaned up). Congress
intended the Individual Mandate to serve as the
keystone, the linchpin of the ACA. That is a conclusion
the Court can reach without marching through every
nook and cranny of the ACA’s 900-plus pages because
Congress plainly told the public when it wrote the ACA
that “[t]he minimum coverage provision is . . . an
‘essential par[t] of a larger regulation of economic
activity’” and “without the provision, ‘the regulatory
scheme [w]ould be undercut.’” NFIB, 567 U.S. at 619
(Ginsburg, J., joined by Breyer, Kagan, and
Sotomayor, JJ.) (quoting but not citing Congress’s
findings in 42 U.S.C. § 18091).

180a
In the face of overwhelming textual and Supreme
Court clarity, the Court finds “it is ‘unthinkable’ and
‘impossible’ that the Congress would have created the”
ACA’s delicately balanced regulatory scheme without
the Individual Mandate. Alton, 295 U.S. at 362. The
Individual Mandate “so affect[s] the dominant aim of
the whole statute as to carry it down with” it. Id. To
find otherwise would “rewrite [the ACA] and give it an
effect altogether different from that sought by the
measure viewed as a whole.” Alton, 295 U.S. at 362.
Employing such a strained view of severance would be
tantamount to “legislative work beyond the power and
function of the court.” Wallace, 259 U.S. at 70.
3.

The Intent of the 2017 Congress

Looking for any severability-related intent in the
2017 Congress is a fool’s errand because the 2017
“Congress did not repeal any part of the ACA,
including the shared responsibility payment. In fact, it
could not do so through the budget reconciliation
procedures that it used.” Hr’g Tr. at 36:7-10
(Intervenor Defendants); accord id. at 98:1-3 (Federal
Defendants) (“The only thing that we know for sure
about Congress’ intent in 2017 . . . is that Congress
wanted to pass a tax cut.”). So, asking what the 2017
Congress intended with respect to the ACA qua the
ACA is unhelpful. There is no answer.
But suppose it is true the intent of the TCJAenacting Congress of 2017 controls severability rather
than the intent of the ACA-enacting Congress of 2010.
The Intervenor Defendants argue the Court should
infer that, by eliminating the shared-responsibility
payment while leaving the rest of the ACA intact, the
2017 Congress intended to preserve the balance of the
ACA. Intervenor Defs.’ Resp. 28-30, ECF No. 91; Hr’g

181a
Tr. at 42:10-11 (“The 2017 Congress that amended §
5000A(c) deliberately left the rest of the ACA intact. .
. .”).
But consider what Congress did not do in 2017—or
ever. First an d foremost, it did not repeal the
Individual Mandate. As the Court described in great
detail, see supra Part IV.B.1.a, the sharedresponsibility payment is not the Individual Mandate.
That matters. The Individual Mandate, not the
shared-responsibility payment, is “essential” to the
ACA. See 42 U.S.C. § 18091. And the 2017 Congress
did not repeal it. Accord Hr’g Tr. at 42:10-11
(Intervenor Defendants) (“The 2017 Congress that
amended § 5000A(c) deliberately left the rest of the
ACA intact. . . .”). So, at best, searching the 2017
Congress’s legislation for severability-related intent
would create an inference that the 2017 Congress, like
the 2010 Congress, intended to preserve the Individual
Mandate because the 2017 Congress, like the 2010
Congress, knew that provision is essential to the ACA.
Intervenor Defendants’ argument that the 2017
Congress manifested an intent of severability is
therefore unavailing. Indeed, one would have to take
the incorrect view that the shared-responsibility
payment is the Individual Mandate to accept the
argument that the 2017 Congress, by eliminating the
payment, intended to sever the Individual Mandate.
Secondly, the 2017 Congress did not repeal 42
U.S.C. § 18091, which every Supreme Court Justice to
review the ACA cited and which definitively
establishes Congress’s intent that the Individual
Mandate be “an essential part of” its “regulation of the
health insurance market.” 42 U.S.C. § 18091(2)(H); see
generally supra Part IV.C.1.a. Finally, given the 2017
Congress repealed neither the Individual Mandate nor

182a
§ 18091, the 2017 Congress did nothing to repudiate or
otherwise supersede the Supreme Court’s NFIB and
King opinions detailing the Individual Mandate’s
essentiality to the ACA.
The Intervenor Defendants thus ask the Court to
infer a severability-related intent from a Congress
that did not and could not amend the ACA and that
therefore did not and could not repeal the Individual
Mandate or the enacted text stating the mandate is
“essential” to the whole scheme when working
“together with the other provisions.” They then ask the
Court ‘‘to graft that intent” onto the Congress that did
pass the ACA, that did employ the Individual Mandate
as the keystone, and that did memorialize its intent
through enacted text stating the Individual Mandate
is essential.
The Court finds the 2017 Congress had no intent
with respect to the Individual Mandate’s severability.
But even if it did, the Court would find that “here we
know exactly what Congress intended based on what
Congress actually did.” Hr’g Tr. at 42:8-10 (Intervenor
Defendants). If the 2017 Congress had any relevant
intent, it was to preserve § 18091 and to preserve the
Individual Mandate, which the 2017 Congress must
have agreed was essential to the ACA.
4.

Severability Conclusion 34

34 The Intervenor Defendants also argue the Court should forego
a traditional severability analysis and instead remedy the harm
to Plaintiffs by striking TCJA § 11081. Intervenor Defs.’ Resp. 2224, ECF No. 91. For this, the Intervenor Defendants rely on Frost
v. Corporation Commission of Oklahoma, a case in which the
Supreme Court held that “when a valid statute is amended and
the amendment is unconstitutional, the amendment ‘is a nullity
and, therefore, powerless to work any change in the existing
statute . . . .”’ 278 U.S. 515, 525-27 (1928) (citation omitted)

183a
In some ways, the question before the Court
involves the intent of both the 2010 and 2017
Congresses. The former enacted the ACA. The latter
(emphasis added). Frost is inapposite. There, the Appellant
challenged the amendment, not the original statute, on equalprotection grounds and won. Id. at 517, 523–24. The Supreme
Court held the amendment to be “a nullity,” not because it
rendered the original statute unconstitutional but because it was
unconstitutional itself. Id. at 526 (reasoning that because “the
amendment is void for unconstitutionality, it cannot be given” “its
practical effect [which] would be to repeal by implication the
requirement of the existing statute in respect of public necessity”
(emphasis added)). The original statute therefore was permitted
to “stand as the only valid expression of legislative intent.” Id. at
527. But here, the Plaintiffs challenge the original statute, not
the TCJA. Nor would it make sense for them to challenge the
TCJA—Congress has plenary power to lay and repeal taxes, as
the Intervenor Defendants argue. See, e.g., Intervener Defs.’
Resp. 19, ECF No. 91 (“In light of the broad taxing power afforded
by the Constitution, it is not unusual for Congress to enact taxes
with delayed effective dates . . . .”); accord Pls.’ Reply 13-14, ECF
No. 175 (citing Brushaber v. Union Pac. R.R. Co., 240 U.S. 1, 12
(1916)); Hr’g Tr. at 72:23-24. Plus, the TCJA repeals nothing “by
implication.” And at any rate, Frost is not a license for courts to
reach out and hold unchallenged constitutional acts
unconstitutional as a remedial safety valve. See Josh Blackman,
Undone: the New Constitutional Challenge to Obamacare, 23 TEX.
REV. L. & POL. (forthcoming 2018) (manuscript at 35-36) (“Frost’s
bite is not available in Texas v. United States for a simple reason.
Because of how Texas structured its challenge, the district court
is presented with a narrower menu of options with respect to
severability. No one—not the Plaintiffs, not the Intervenors—has
challenged the constitutionality of the TCJA. Federal courts lack
a roving license to flip through the U.S. Code with a red pencil to
void one statute in order to save another. Invalidating the 2017
tax cut is simply not an option in the Texas litigation because it
has not been challenged.” (citations omitted)). To the extent Frost
is relevant here, it stands only for the proposition that a court
should hold unconstitutional acts invalid and constitutional ones
valid. The unconstitutional act in this case is the Individual
Mandate, not the TCJA.

184a
sawed off the last leg it stood on. But however one
slices it, the following is clear: The 2010 Congress
memorialized that it knew the Individual Mandate
was the ACA keystone, see 42 U.S.C. § 18091; the
Supreme Court stated repeatedly that it knew
Congress knew that, see, e.g., NFIB, 567 U.S. at 547
(Roberts, C.J.) (citing 42 U.S.C. § 18091(2)(F)); King,
135 S. Ct. at 2487 (citing 42 U.S.C. § 18091(2)(I)); and
knowing the Supreme Court knew what the 2010
Congress had known, the 2017 Congress did not repeal
the Individual Mandate and did not repeal § 18091.
“The principle of separation of powers was not
simply an abstract generalization in the minds of the
Framers: it was woven into the documents that they
drafted in Philadelphia in the summer of 1787.”
Chadha, 462 U.S. at 946 (quoting Buckley, 424 U.S. at
124). For that reason, the Court respects Congress’s
plain language. And here, “[t]he language is plain.
There is no room for construction, unless it be as to the
effect of the Constitution.” In re Trade-Mark Cases,
100 U.S. 82, 99 (1879). “To limit this statute in the
manner now asked for,” therefore “would be to make a
new law, not to enforce an old one. This is no part of
[the Court’s] duty.” Id.
The Court finds the Individual Mandate “is
essential to” and inseverable from “the other
provisions of’ the ACA.
V.

CONCLUSION

For the reasons stated above, the Court grants
Plaintiffs partial summary judgment and declares the
Individual Mandate, 26 U.S.C. § 5000A(a),
UNCONSTITUTIONAL. Further, the Court declares
the remaining provisions of the ACA, Pub. L. 111-148,
are INSEVERABLE and therefore INVALID. The

185a
Court GRANTS Plaintiffs’ claim for declaratory relief
in Count I of the Amended Complaint.
SO ORDERED on this 14th day of December,
2018.
/s/ Reed O’Connor
Reed O’Connor
UNITED STATES
DISTRICT JUDGE

186a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
Civil Action No. 4:18-cv-00167-o
TEXAS, et al.,
Plaintiffs,
v.
UNITED STATES OF AMERICA, et al.,
Defendants,
CALIFORNIA, et al.
Intervenors-Defendants.
[Filed: December 30, 2018]
ORDER GRANTING STAY AND PARTIAL
FINAL JUDGMENT
On December 14, 2018, the Court entered its Order
granting partial summary judgment on Count I of the
Plaintiffs’ Amended Complaint. See ECF No. 211. On
December 16, 2018, the Court ordered the Parties to
meet and confer and, by January 4, 2019, to jointly
propose a schedule for resolving the Plaintiffs’
remaining claims. See ECF No. 212. On December 17,
2018, the Intervenor Defendants moved the Court to
clarify that the December 14, 2018 Order is not
binding or to enter a stay if the Order is binding and
to enter final judgment or certify the Order for

187a
immediate appeal. See ECF No. 213.
I.

BACKGROUND

Plaintiffs are the States of Alabama, Arizona,
Arkansas, Florida, Georgia, Indiana, Kansas,
Louisiana, Mississippi, Missouri, Nebraska, North
Dakota, South Carolina, South Dakota, Tennessee,
Texas, Utah, West Virginia, Wisconsin, Governor Paul
LePage of Maine (the “State Plaintiffs”), and
individuals Neill Hurley and John Nantz (the
“Individual Plaintiffs” and, collectively with the State
Plaintiffs, “Plaintiffs”).
Defendants are the United States of America, the
United States Department of Health and Human
Services (“HHS”), Alex Azar, in his official capacity as
Secretary of HHS, the United States Internal Revenue
Service (the “IRS”), and David J. Kautter, in his official
capacity as Acting Commissioner of Internal Revenue
(collectively, the “Federal Defendants”).
Finally, the States of California, Connecticut,
Delaware, Hawaii, Illinois, Kentucky, Massachusetts,
Minnesota, New Jersey, New York, North Carolina,
Oregon, Rhode Island, Vermont, Virginia, and
Washington, and the District of Columbia intervened
as
defendants
(collectively,
the
“Intervenor
Defendants”).
The Plaintiffs sued the Federal Defendants
seeking, among other things, a declaration that the
Individual Mandate of the Patient Protection and
Affordable Care Act (ACA), Pub. L. 111-148, 124 Stat.
119-1045 (2010), as amended by the Tax Cuts and Jobs
Act of 2017 (TCJA), Pub. L. No. 115-97, 131 Stat. 2054
(2017), is unconstitutional and that the remainder of
the ACA is inseverable. Am. Compl. 2, ECF No. 27.
Their theory is that, because the TCJA eliminated the

188a
shared-responsibility tax, the tax-based saving
construction developed by the Supreme Court in
National Federation of Independent Businesses v.
Sebelius (NFIB), 567 U.S. 519 (2012), no longer
applies. Am. Compl. 2-3, ECF No. 27. Plaintiffs further
argue that, as the four joint dissenters reasoned in
NFIB, the Individual Mandate is inseverable from the
rest of the ACA. Pls.’ Br. Prelim. Inj. 35, ECF No. 40
(citing NFIB, 567 U.S. at 691-703 (joint dissent))
[hereinafter “Pls.’ Br.”].
The Federal Defendants agree the Individual
Mandate is unconstitutional and inseverable from the
ACA’s pre-existing-condition provisions. But they
argue all other ACA provisions are severable from the
mandate. The Intervenor Defendants argue all of
Plaintiffs’ claims fail.
The Plaintiffs filed an Application for Preliminary
Injunction, (ECF No. 39), on April 26, 2018; the
Federal Defendants and the Intervenor Defendants
responded, (ECF Nos. 91 and 92), on June 7, 2018; and
Plaintiffs replied, (ECF No. 175), on July 5, 2018.
Because the Federal Defendants argued a judgment,
as opposed to an injunction, was more appropriate, the
Court provided notice of its intent to resolve the issues
raised by the Application for Preliminary Injunction
on summary judgment. See July 16, 2018 Order, ECF
No. 176 (citing FED. R. CIV. P. 56(f)(3)). The parties
responded. See ECF Nos. 177-79.
On December 14, 2018, the Court issued its order
denying the Plaintiffs’ request for a preliminary
injunction but granting summary judgment on Count
I of the Amended Complaint, finding the Individual
Mandate is unconstitutional because it no longer
triggers a tax and is inseverable from the remainder of

189a
the ACA. See Dec. 14, 2018 Order, ECF No. 211. On
December 17, 2018, the Intervenor Defendants moved
the Court to (1) clarify whether the December 14, 2018
Order is immediately binding on the parties and (2)
stay the order or certify it for appeal, as appropriate.
See Intervenor Defs.’ Mot. Stay, ECF No. 213. The
Court ordered expedited briefing, see ECF No. 215, and
the Parties promptly complied, see ECF Nos. 216, 217,
and 218.
As an initial matter, the Court recognizes the
Parties’ diligent work on this delicate and complex
matter. Counsel have conducted themselves with
grace and professionalism, consistently advocating
zealously on behalf of their clients with candor and
class. And it is no small feat, the Court acknowledges,
to prepare such crisp briefing, with so many moving
parts, on an expedited basis during the holiday season.
For all this, the Court is grateful.
Having reviewed the briefing and applicable law,
the Court finds it is most efficient and appropriate to
GRANT the Intervenor Defendants’ request for final
judgment on the December 14, 2018 Order granting
summary judgment on Count I of the Amended
Complaint and to GRANT the Intervenor Defendants’
request for a stay of that judgment.
II.

LEGAL STANDARDS
A.

Partial Final Judgment

Federal Rule of Civil Procedure 54(b) provides:
“When an action presents more than one claim for
relief ... the court may direct entry of a final judgment
as to one or more, but fewer than all, claims or parties
only if the court expressly determines that there is no
just reason for delay.” FED. R. CIV. P. 54(b). This Rule
“permits district courts to authorize immediate appeal

190a
of dispositive rulings on separate claims in a civil
action raising multiple claims.” Gelboim v. Bank of
Am. Corp., 135 S. Ct. 897, 902 (2015). “As both the
rule’s text and the Supreme Court have made clear, a
district court deciding whether to certify a judgment
under Rule 54(b) must make two determinations.”
Briargrove Shopping Ctr. Joint Venture v. Pilgrim
Enterprises, Inc., 170 F.3d 536, 539 (5th Cir. 1999)
(citation omitted). First, the court must determine that
it is entering judgment on “an ultimate disposition of
an individual claim entered in the course of a multiple
claims action.” Id. (citation omitted). Second, the court
must determine that no “just reason for delay exists.”
Id. (citation omitted).
B.

Stay of Judgment

“The party requesting a stay bears the burden of
showing that the circumstances justify an exercise of
[the Court’s] discretion.” Nken v. Holder, 556 U.S. 418,
433-34 (2009). To determine whether to grant a stay
pending appeal courts consider four factors: “(1)
whether the stay applicant has made a strong showing
that he [or she] is likely to succeed on the merits; (2)
whether the applicant will be irreparably injured
absent a stay; (3) whether issuance of the stay will
substantially injure the other parties interested in the
proceeding; and (4) where the public interest lies.”
Campaign for S. Equality v. Bryant, 773 F.3d 55, 57
(5th Cir. 2014) (quoting Veasey v. Perry, 769 F.3d 890,
892 (5th Cir. 2014)). But when “evaluating these
factors, [the Fifth Circuit] has refused to apply them
‘in a rigid . . . [or] mechanical fashion.’” Id. (quoting
United States v. Baylor Univ. Med. Ctr., 711 F.2d 38,
39 (5th Cir. 1983)).

191a
III.

ANALYSIS

A.
The Court Will Enter Partial Final
Judgment
Given the Parties’ inquiries about whether the
Court’s December 14, 2018 Order is final and
binding—and the unanimous agreement that the
Order should be immediately appealable 1— the Court
finds it is most efficient to enter a partial final
judgment under Rule 54(b) on the Order and then stay
it pending appeal.
The Federal Defendants suggest it would be
inappropriate for the Court to enter partial final
judgment under Rule 54(b) “because the Amended
Complaint presents only one claim for purposes of
Rule 54(b)—that the individual mandate is
unconstitutional and that it is not severable from the
rest of the ACA.” 2 They assert that “Counts I through
V represent merely alternative theories of relief or
different forms of remedy.” 3 The Court finds that
Counts I through V of the Amended Complaint are not
mere redundancies.
Count I, for example, asks for a declaratory
judgment that the Individual Mandate is
unconstitutional. 4 Count II, however, raises a Due
Process Clause claim and asserts that because
“Section
5000A’s
individual
mandate
is
unconstitutional, the rest of the ACA is irrational
under Congress’s own findings” and that “[t]he ACA
lacks a rational basis now that the individual
See, e.g., Intervenor Defs.’ Mot. Stay 14, ECF No. 213-1; Fed.
Defs.’ Resp. 6, ECF No. 216; Pls.’ Resp. 5, ECF No. 217.
2 Fed. Defs.’ Resp. 8, ECF No. 216.
3 Id.
4 See Am. Compl. 28, ECF No. 27.
1

192a
mandate’s tax penalty has been repealed.” 5 It is true
this claim is likely moot if the Court’s December 14,
2018 Order is affirmed on appeal; but if the Order is
reversed in whole or in part, the Plaintiffs could still
seek relief under the theory put forth in Count II. And
Count IV, for example, presents an APA claim that
presupposes the ACA’s unconstitutionality but seeks
different relief entirely. 6 The claims, in other words,
are related but distinct.
Moreover, the Court finds that summary judgment
on Count I is an “ultimate disposition of an individual
claim.” Pilgrim Enterprises, 170 F.3d at 539 (citation
omitted). By the Court’s Order, the Plaintiffs have
succeeded on Count I—the entry of summary
judgment “dispose[d] of that claim entirely.”
Monument Mgmt. Ltd. P’ship I v. City of Pearl, 952
F.2d 883, 885 (5th Cir. 1992) (emphasis in original).
And that claim—that the Individual Mandate is
unconstitutional—is the Plaintiffs’ “primary claim.”
Id. (emphasis in original). Plus, for the reasons
discussed in the below stay analysis, the Court finds
there is “no just reason for delay[ing]” appeal of the
December 14, 2018 Order. See Pilgrim Enterprises,
170 F.3d at 539.
The Court therefore GRANTS the Intervenor
Defendants’ motion for final judgment on the
December 14, 2018 Order, (ECF No. 211), granting
summary judgment on Count I of the Amended
Complaint and declaring the Individual Mandate
unconstitutional and inseverable.

5 Id.
6 Id.

at 30.
at 32.

193a
B.

The Order is Stayed

The Intervenor Defendants bear the burden of
demonstrating that a stay is warranted. Nken, 556
U.S. at 433-34. In their briefing, the Intervenor
Defendants address all four factors relevant to a
district court’s analysis of whether to exercise its
discretion to grant a stay pending appeal. 7 For the
reasons set forth below, the Court finds the Intervenor
Defendants cannot carry their burden on the first
relevant factor—likelihood of success on the merits.
But the Intervenor Defendants prevail on the
remaining elements, and the Plaintiffs do not argue
otherwise.
1.

The Intervenor Defendants Are Unlikely to
Succeed

The Intervenor Defendants put forth a very
powerful narrative in this case—one they assert the
Fifth Circuit is likely to adopt. In truth, the narrative
presents a forceful, surface-level appeal. It goes
something like this.
The Individual Plaintiffs have no standing because
they suffer no injury. After the TCJA, there is no tax
penalty for non-compliance with the Individual
Mandate. And anyways, the Individual Mandate is
purely optional. So, at most, the ACA presents the
Individual Plaintiffs with a simple choice between
buying ACA-compliant insurance or “paying” a $0 tax.
No harm, no foul.
But even if the choice between buying insurance
and doing nothing creates standing, the Intervenor
Defendants continue, the Individual Mandate is
constitutional. It is constitutional as an exercise of
7

See Intervenor Defs.’ Mot. Stay 7-14, ECF No. 213-1.

194a
Congress’s Tax Power because the now-eliminated
shared-responsibility payment still satisfies a number
of the tax factors discussed in NFIB. And even if the
Individual Mandate is no longer salvageable as an
exercise of the Tax Power, it may now be viewed as a
proper exercise of Congress’s Interstate Commerce
Power because it does not compel anyone to do
anything.
Finally, even if the Individual Mandate is
unconstitutional, it is severable from the remainder of
the ACA. We know that because the 2017 Congress
that passed the TCJA eliminated the sharedresponsibility payment but left the rest of the ACA
intact.
So stated, this narrative is compelling. But it rests
on two crucial premises, without which it falls apart.
First, it is premised on a belief that written law is not
binding. Second, it is premised on the view that the
Supreme Court’s reasoning in NFIB did not simply
craft a saving construction but instead permanently
supplanted Congress’s intent by altering the very
nature of the ACA. In the Court’s view, neither of these
premises hold and therefore neither does the
narrative. The Court therefore finds the Intervenor
Defendants are unlikely to succeed on the merits of
their appeal for at least the following basic reasons.
a.

Standing

The Intervenor Defendants assert that, on appeal,
they “are likely to establish that the Individual
Plaintiffs do not have standing to maintain this action”
because, after January 1, 2019, the Individual
Plaintiffs will not be put to a choice “between
purchasing minimum essential coverage, on the one
hand, and paying the penalty for not doing so, on the

195a
other.” Intervenor Defs. ’ Mot. Stay 8, ECF No. 213-1
(citing Hotze v. Burwell, 784 F.3d 984, 993 (5th Cir.
2015)). The Court finds it unlikely that the Fifth
Circuit will hold the Individual Plaintiffs lack
standing to challenge the constitutionality of the
Individual Mandate—under Hotze or otherwise.
In Hotze, the plaintiffs challenged the ACA as
unconstitutional under the Origination Clause and the
Takings Clause, unlike the Individual Plaintiffs here
who, like the plaintiffs in NFIB, challenge the
Individual Mandate as beyond Congress’s enumerated
powers. 8 In deciding the case, the Fifth Circuit did not
hold that an individual may challenge the
constitutionality of the ACA only if the individual
pleads that they lack ACA-compliant coverage and are
therefore faced with a choice between purchasing
insurance or paying a penalty. 9 Instead, it held on the
basis of the pleadings before it that the plaintiffs failed
to adequately plead that precise dilemma and that
doing so would have been “the most straightforward”
way to demonstrate standing. Id. at 994 (“Accordingly,
we hold that Dr. Hotze has failed to demonstrate
standing on the most straightforward ground—that is,
that the ACA forces him to choose between paying the
penalty and purchasing compliant insurance.”).
Specifically, Dr. Hotze pleaded that the “ACA
compels Plaintiff Hotze and other Texans to pay
enormous penalties to the federal government, or else
purchase health insurance that is far more expensive
Compare Hotze, 784 F.3d at 986, with NFIB, 567 U.S. at 53032.
9 See Hotze, 784 F.3d at 993 (noting the distinction in other
circuits that “plaintiffs . . . who already have minimum essential
coverage ordinarily will not have an injury in fact for standing
purposes” (emphasis added)).
8

196a
and less useful than existing employer-based
coverage.” Complaint at 1, Hotze v. Sebelius, 991 F.
Supp. 2d 864 (S.D. Tex. 2014) (No. 4:13-cv-01318). 10
This “purchase or penalty” theory of economic injury
forced the court to contend with the fact that Dr. Hotze
never actually pleaded the facts necessary to support
his own theory of standing—i.e., that he was put to a
concrete choice between the costs of obeying 26 U.S.C.
§ 5000A(a) or paying the penalty amount set by §
5000A(c). 11 To the contrary, the complaint there
suggested Dr. Hotze faced no such dilemma because he
was covered by his employer. See Hotze, 784 F.3d at
989 (“[T]he complaint at no point clearly alleges that
the health-insurance policy that Braidwood already
provides to Dr. Hotze fails to satisfy the mandates.”).
Hotze, then, is not a broad holding that individuals
lack standing to challenge the Individual Mandate’s
constitutionality unless they first disobey that
provision and fail to maintain compliant coverage. To
See also id. at 6 (“Plaintiffs will suffer irreparable harm in being
compelled to switch to a more expensive government-approved
insurance plan that does not cover or reimburse for desired
medical services.”); id. at 6-7 (“Plaintiffs will suffer unrecoverable
financial losses from the implementation of ACA, which they will
have no practical way of recouping from the federal government
or from private, government-approved insurance carriers.”); id. at
7 (“Plaintiffs have already suffered harm by the reduction in
market choice for affordable health insurance, as insurance
premiums have already increased in the market due to ACA.”).
11 See Hotze, 784 F.3d at 994 (“Given the complaint’s allegation
that Dr. Hotze has an employer-provided health-insurance plan,
coupled with the complaint’s failure to allege that this plan falls
into the narrow category of employer-provided plans that do not
constitute ‘minimum essential coverage’ under § 5000A, we
cannot ‘reasonably ... infer[ ]’ that Dr. Hotze lacks the minimum
essential coverage required by the mandate.” (citations omitted)).
10

197a
read Hotze in such a manner would run headlong into
the well-established doctrine that individuals need not
first disobey a law to earn standing to challenge it. 12
Instead, Hotze is a narrow, fact-specific holding that
the plaintiff failed to adequately plead his own
purchase-or-penalty theory of standing. Hotze, 784
F.3d at 991 (“Thus, although we do not doubt that
many have suffered an injury in fact at the hands of
the individual mandate, the plaintiffs’ complaint does
not adequately allege that Dr. Hotze is among them.”
(emphasis added)).
Importantly, the Individual Plaintiffs here chart a
different course than Dr. Hotze. Their pleadings
clearly allege they are required by the Individual
Mandate to maintain insurance they do not want to
continue purchasing—i.e., they are required by a law
to continue activity they do not want to engage in—
and that this requirement is inherently beyond
Congress’s enumerated powers. See Am. Compl. 5,
ECF No. 27 (“Mr. Hurley maintains minimum
essential health insurance coverage, which he
purchased on the ACA-created exchange.”); id. at 27
(“In the absence of the ACA, the Individual Plaintiffs
would purchase a health-insurance plan different from
the ACA-compliant plans that they are currently
required to purchase were they afforded the option
See, e.g., Steffel v. Thompson, 415 U.S. 452, 459 (1974); Planned
Parenthood of Gulf Coast, Inc. v. Gee, 862 F.3d 445, 455 (5th Cir.
2017), cert, denied, 139 S. Ct. 408 (2018) (“This argument ignores
the well-established principle that a threatened injury may be
sufficient to establish standing . . . The Individual Plaintiffs thus
need not wait to file suit until PPGC is forced to close its doors to
them and all other Medicaid beneficiaries.” (citing Comsat Corp.
v. FCC, 250 F.3d 931, 936 (5th Cir. 2001); Loa-Herrera v.
Trominski, 231 F.3d 984, 988 (5th Cir. 2000))).
12

198a
without the ACA.”); id. at 28 (“Section 5000A’s
individual mandate exceeded Congress’s enumerated
powers by forcing Individual Plaintiffs to maintain
ACA-compliant health insurance coverage.”).
The Fifth Circuit is therefore likely to find that the
Individual Plaintiffs pleaded a sufficient injury in two
respects. 13 First, unlike the purely theoretical and
contradictory allegations in Hotze, 14 the Individual
Plaintiffs here actually allege a clear and present
injury. Indeed, the Individual Plaintiffs put it quite
plainly: “In the absence of the ACA, the Individual
Plaintiffs would purchase a health-insurance plan
different from the ACA-compliant plans that they are
currently required to purchase.” 15 Compl. 27, ECF No.
See, e.g., Time Warner Cable, Inc. v. Hudson, 667 F.3d 630,
636 (5th Cir. 2012) (holding the plaintiffs alleged a “sufficient
economic and constitutional injury” (emphasis in original)).
14 See Complaint at 1-7, Hotze, 991 F. Supp. 2d 864 (S.D. Tex.
2014) (No. 4:13-cv-01318).
15 It is also worth noting that the Fifth Circuit in Hotze held that
Dr. Hotze failed to adequately plead an injury caused by the
possibility of being faced with a choice between accepting
undesirable health insurance or violating the Individual Mandate
only because that injury presupposed the decision of a third
party—Dr. Hotze’s employer. See Hotze, 784 F.3d at 995 (“The
existence of Dr. Hotze's alleged injury rests on ... a third-party
decision: Dr. Hotze will be injured by the individual mandate, the
plaintiffs say, because, once the employer mandate takes effect,
Braidwood may offer him less desirable insurance, which may
prompt him to drop his employer-provided insurance, which he
will not be able to do without violating the individual mandate.
Speculation about a decision made by a third party . . . constitutes
an essential link in this chain of causation.”). The court therefore
left open the possibility that such a choice could constitute
sufficient injury if not contingent on a third-party decision. The
Individual Plaintiffs allege such an injury here. See Am. Compl.
13

199a
27. There is no equivocation, there is no speculation.
The Individual Plaintiffs allege they are bound to
purchase something they do not want to purchase and
that if they were not so bound they would not make the
purchase. 16 And whereas Dr. Hotze would face his
injury only were his employer to stop providing ACAcompliant coverage, the Individual Plaintiffs here face
their alleged injury now—they are being required to
continue buying something they do not want.
Second, as discussed in the Court’s Order, 17 the
Individual Plaintiffs sufficiently allege that they are
the direct objects of an unconstitutional exercise of
power traceable to the Individual Mandate that will be
redressed by a holding that the mandate is invalid. 18
27, ECF No. 27.
16 See Doe v. Chao, 540 U.S. 614, 624-25 (2004) (noting that “an
individual subjected to an adverse effect has injury enough to
open the courthouse door”); Steel Co. v. Citizens for Better
Environment, 523 U.S. 83, 103 (1998) (noting “the constitutional
‘case’ or ‘controversy’ . . . point has always been the same: whether
a plaintiff ‘personally would benefit in a tangible way from the
court’s intervention.’” (quoting Warth v. Seldin, 422 U.S. 490, 508
(1975))).
17 See December 14, 2018 Order 16-17, ECF No. 211.
18 Compl. 26, ECF No. 27 (“The ACA injures Individual Plaintiffs
Hurley and Nantz by mandating that they purchase minimum
essential health insurance coverage despite the Supreme Court’s
determination that the requirement is unconstitutional.”); id. at
27 (“Individual Plaintiffs have an obligation to comply with the
individual mandate under the ACA while it remains federal law,
despite the provision’s unconstitutionality.”); id. at 5 (“Mr. Hurley
is subject to the individual mandate and objects to being required
by federal law to comply with it.”); id. at 6 (“Mr. Nantz is subject
to the individual mandate and objects to being required by federal
law to comply with it.”); id. at 27 (“Each of the injuries to
Individual Plaintiffs is caused by the Defendants’ continued

200a
That is to say, the Individual Plaintiffs allege a
straightforward constitutional injury: Congress
legislated in a way the Constitution does not allow and
the Individual Plaintiffs are the direct object of that
legislation. The “alleged violation[] of the Constitution
here [is] not immaterial, but form[s], rather, the sole
basis of the relief sought.” Bell v. Hood, 327 U.S. 678,
683 (1946). “And it is established practice for [the
Supreme] Court to sustain the jurisdiction of federal
courts to issue injunctions to protect rights
safeguarded by the Constitution.” Id. at 684.
The Individual Plaintiffs’ allegation is therefore
likely to satisfy the test for constitutional injury on
appeal. 19 And to the extent existing constitutionalenforcement of the Affordable Care Act, and each of these injuries
will be redressed by a declaratory judgment from this Court
pronouncing the Affordable Care Act unconstitutional. ”).
19 See, e.g., Hudson, 667 F.3d at 636-37 (“TCA and Time Warner
need not prove that they will sustain a quantifiable economic
injury. Cf. Minneapolis Star & Tribune Co. v. Minn. Comm’r of
Revenue, 460 U.S. 575, 588 (1983) (observing that ‘the very
selection of the press for special treatment threatens the press
not only with the current differential treatment, but with the
possibility of subsequent differentially more burdensome
treatment’ and ‘[t]hus, even without actually imposing an extra
burden on the press, the government might be able to achieve
censorial effects’). S.B. 5 subjects the plaintiffs to disparate
treatment . . . Because the legislation targets the plaintiffs for
exclusion from this benefit provided to similarly situated
speakers, TCA and Time Warner have shown constitutional
injury sufficient to establish standing.”); Texas Cable &
Telecomms. Ass’n v. Hudson, 265 F. App’x 210, 217-18 (5th Cir.
2008) (“In addition to competitive or economic injury, a
constitutional injury also provides standing.”); Duarte ex rel.
Duarte v. City of Lewisville, 759 F.3d 514, 520 (5th Cir. 2014)
(holding plaintiff sufficiently pleaded constitutional injury

201a
injury doctrine deals largely with the infringement of
enumerated rights, rather than the violation of the
Constitution’s structural protection of rights, the
Court finds it unlikely the Fifth Circuit would rely on
such an untenable distinction. 20 The Individual
because he alleged he was “the target of the . . . ordinance
restricting where registered child sex offenders, like him, can
live”); Hollis v. Lynch, 827 F.3d 436, 441-42 (5th Cir. 2016)
(holding plaintiff pleaded sufficient constitutional injury by
challenging law banning machine guns as infringing Second
Amendment rights and then holding the Second Amendment
challenge failed on the merits); accord Ne. Fla. Chapter of
Associated Gen. Contractors of Am. v. City of Jacksonville, 508
U.S. 656, 664-66 (1993).
20 See U.S. CONST, amend. IX (“The enumeration in the
Constitution, of certain rights, shall not be construed to deny or
disparage others retained by the people.”); United States v. Lopez,
514 U.S. 549, 552 (1995) (“We start with first principles. The
Constitution creates a Federal Government of enumerated
powers ... As James Madison wrote: ‘The powers delegated by the
proposed Constitution to the federal government are few and
defined. Those which are to remain in the State governments are
numerous and indefinite.’ . . . This constitutionally mandated
division of authority ‘was adopted by the Framers to ensure
protection of our fundamental liberties.’” (citations omitted)); cf
Bond v. United States, 564 U.S. 211, 221 (2011) (“The Framers
concluded that allocation of powers between the National
Government and the States enhances freedom ... by protecting
the people, from whom all governmental powers are derived.”); id.
(“[F]ederalism secures to citizens the liberties that derive from
the diffusion of sovereign power.” (quoting New York v. United
States, 505 U.S. 144, 181 (1992))); id. (“Federalism secures the
freedom of the individual.”); id. at 222 (“The structural principles
secured by the separation of powers protect the individual as
well.”); id. (“In the precedents of this Court, the claims of
individuals . . . have been the principal source of judicial decisions
concerning separation of powers and checks and balances.”); PHH
Corp. v. Consumer Fin. Prot. Bureau, 881 F.3d 75, 164 (D.C. Cir.

202a
Plaintiffs allege they are subject to a congressional act
that inherently exceeds that body’s power. And “[i]f the
constitutional structure of our Government that
protects individual liberty is compromised, individuals
who suffer otherwise justiciable injury”—such as the
requirement to purchase an unwanted product—“may
object.” Bond, 564 U.S. at 223.
This raises one final point: The Intervenor
Defendants argue the Individual Plaintiffs cannot
plead a constitutional injury (or any justiciable injury,
for that matter) because the Individual Mandate no
longer compels compliance. See Intervenor Defs.’ Mot.
Stay 8, ECF No. 213-1 (“Beginning January 1, 2019,
the Individual Plaintiffs will no longer be on the horns
of that dilemma; as a result, the Fifth Circuit is likely
to hold that they lack standing”). But standing
analysis and merits analysis are fundamentally
separate inquiries, and this line of attack conflates

2018) (en banc) (Kavanaugh, J., dissenting) (“To prevent tyranny
and protect individual liberty, the Framers of the Constitution
separated the legislative, executive, and judicial powers of the
new national government.”). See also THE FEDERALIST NO. 84
(Alexander Hamilton) (“[W]hy declare that things shall not be
done which there is no power to do? Why, for instance, should it
be said that the liberty of the press shall not be restrained, when
no power is given by which restrictions may be imposed?”); RANDY
E. BARNETT, OUR REPUBLICAN CONSTITUTION 191 (2016)
(“Madison’s blase attitude about the Tenth Amendment was in
stark contrast with the imperative he felt to add what eventually
became the Ninth Amendment. This provision was needed, he
said, to guard against ‘one of the most plausible arguments I have
ever heard urged against the admission of a bill of rights into this
system, namely, that ‘by enumerating particular exceptions to the
grant of power, it would disparage those rights which were not
placed in that enumeration.’” (citations omitted)).

203a
them. 21 That is, it rests on the premise that written
law, like § 5000A(a), is not binding—which is one of
the Intervenor Defendants’ premiere merits
arguments in this case. 22 That the Individual Mandate
does nothing is the Intervenor Defendants’ leading
argument for why the mandate permissibly
“regulates” interstate commerce. 23 Putting aside the
logical difficulty of that argument, the Supreme Court
See Arizona State Legislature v. Arizona Indep. Redistricting
Comm’n, 135 S. Ct. 2652, 2663 (2015) (“[O]ne must not ‘confus[e]
weakness on the merits with absence of Article III standing.’”
(citing Davis v. United States, 131 S.Ct. 2419, 2434 n. 10 (2011);
Warth, 422 U.S. at 500)); Steel Co., 523 U.S. at 94 (noting the
Ninth Circuit’s “doctrine of hypothetical jurisdiction” and
“declin[ing] to endorse such an approach because it carries the
courts beyond the bounds of authorized judicial action and thus
offends fundamental principles of separation of powers”);
Whitmore v. Arkansas, 495 U.S. 149, 155 (1990) (“Our threshold
inquiry into standing ‘in no way depends on the merits of the
[petitioner’s] contention’ . . . and we thus put aside for now
[petitioner’s] Eighth Amendment challenge and consider whether
he has established the existence of a ‘case or controversy.’”
(quoting Warth, 422 U.S. at 500)); Bell, 327 U.S. at 682 (“[I]t is
well settled that the failure to state a proper cause of action calls
for a judgment on the merits, and not for a dismissal for want of
jurisdiction.”).
22 See December 14, 2018 Order 17, ECF No. 211 (“But this
argument begs a leading question in this case by assuming the
Individual Plaintiffs need not comply with the Individual
Mandate.”).
23 See, e.g., Intervenor Defs.’ Mot. Stay 9, ECF No. 213-1 (“In
NFIB, The Supreme Court held that the requirement of
maintaining minimum coverage went beyond Congress’s powers
under the Commerce Clause because it “compels individuals’ to
participate in commerce . . . But once the penalty for failing to
maintain coverage is reduced to zero, it will lose its coercive
effect.” (citation omitted)).
21

204a
has made clear that whether a challenged “statute in
fact constitutes an abridgment of the plaintiffs”
constitutional protections “is, of course, irrelevant to
the standing analysis.” 24 So, the Fifth Circuit is
unlikely to skip ahead to the merits to determine §
5000A(a) is non-binding and therefore constitutional
and then revert to the standing analysis to use its
merits determination to conclude there was no
standing to reach the merits in the first place. It is
instead likely to hold that the Intervenor Defendants’
merits argument that the Individual Plaintiffs need
not comply with the law is an inappropriate ground for
challenging standing 25—and likely inappropriate on
the merits.
This then brings into focus the proper injury
inquiry for the Individual Plaintiffs’ constitutional
challenge: Do the Individual Plaintiffs sufficiently
v. Keene, 481 U.S. 465, 473 (1987) (citation omitted).
See, e.g., Gee, 862 F.3d at 455 (“LDHH also argues that the
Individual Plaintiffs have not and will not sustain any legal
injury . . . because the Individual Plaintiffs have a right to choose
only a ‘qualified’ provider, and PPGC is no longer a qualified
provider. This contention turns on the sole substantive question
before us on appeal, and we decline to allow LDHH to bootstrap
this issue into our standing inquiry.”); Duarte, 759 F.3d at 520
(“The factors the district court found significant may ultimately
bear on whether Duarte can show constitutional injury to merit
an award of damages or injunctive relief—on which we express
no opinion. But the district court improperly relied on these
considerations in dismissing the Duartes’ constitutional
challenge for lack of standing.”); Croft v. Governor of Texas, 562
F.3d 735, 746 (5th Cir. 2009) (“The ADF amicus claims that a
moment of silence cannot violate the Establishment Clause, as
there is no active religious component. But that is a question to
be determined on the merits, which must come after determining
whether we have jurisdiction to hear the case.”).
24Meese
25

205a
allege that the Individual Mandate operates to injure
them? The inquiry is not whether the Individual
Plaintiffs are injured if they break the law—i.e., if they
disobey the Individual Mandate. The Court does not
ask whether a plaintiff is injured by a challenged law
if they choose to disregard the law they challenge as
unconstitutional—the injury arises from following the
law as Congress intended. That is the entire point of a
constitutional challenge. Were courts to assess
whether plaintiffs are injured by disregarding
allegedly unconstitutional laws, courts would not only
be implicitly sanctioning lawlessness but would be
foreclosing a large swath of constitutional challenges
already entertained by the Supreme Court. 26
For example, the Supreme Court did not ask in Clements v.
Fashing whether the officeholders would be injured if they simply
disregarded the law and did not resign their current offices upon
announcing candidacy. 457 U.S. 957, 961-62 (1982) (“We find the
uncontested allegations in the complaint sufficient to create an
actual case or controversy. The officeholder-appellees have
alleged that they have not and will not announce their candidacy
for higher judicial office because such action will constitute an
automatic resignation of their current offices pursuant to § 65.”).
And Chief Justice Marshall never asked whether William
Marbury would be injured if he ignored the law and began serving
as a justice of the peace without an official commission from
James Madison. See Marbury v. Madison, 5 U.S. 137, 137 (1803)
(“This motion was supported by affidavits of the following facts;
that notice of this motion had been given to Mr. Madison; that
Mr. Adams, the late president of the United States, nominated
the applicants to the senate for their advice and consent to be
appointed justices of the peace of the district of Columbia; that
the senate advised and consented to the appointments; that
commissions in due form were signed by the said president
appointing them justices, &c. and that the seal of the United
States was in due form affixed to the said commissions by the
26

206a
In this regard, the Individual Plaintiffs’ alleged
injury—the requirement to purchase an unwanted
product—is not self-inflicted, it is congressionally
inflicted. Congress intended to achieve something
through the Individual Mandate, the Individual
Plaintiffs allege, that is beyond its constitutional
reach. It would be illogical to ask whether the allegedly
unconstitutional Individual Mandate injures the
Individual Plaintiffs when it is ignored. The answer is
obviously “no,” but it is also obviously irrelevant.
Answering whether the Individual Mandate injures
the Plaintiffs by unconstitutionally requiring them to
do something requires analyzing what the law
requires them to do, not whether the Plaintiffs can get
away with not doing it.
In sum, the pleadings satisfy Hotze and otherwise
sufficiently state a constitutional injury sufficient to
meet the Article III requirements of standing. And to
the extent an independent, justiciable injury other
than regulation by unconstitutional legislation is
necessary, the Individual Plaintiffs have alleged that,
too—they are required to purchase a product that, in
the absence of § 5000A(a), they allege they would not
purchase. If the Fifth Circuit has held that an
allegation of death to whooping cranes—majestic as
they are—is sufficient injury-in-fact to confer standing
on an individual, 27 surely it is unlikely to hold that an
allegation of unconstitutional coercion is not. And
while it may not agree on the merits of that allegation,
secretary of state; that the applicants have requested Mr.
Madison to deliver them their said commissions, who has not
complied with that request.”).
27 See Aransas Project v. Shaw, 775 F.3d 641, 648 (5th Cir. 2014)
(per curiam) (holding plaintiff sufficiently “alleged injury (death
to cranes and injury to those who enjoy them)”).

207a
it may not thereby dismiss it at the threshold. The
Court therefore finds the Intervenor Defendants are
unlikely to succeed on their standing argument.
b.

Merits

The Intervenor Defendants also contend they are
likely to succeed on the merits of the Plaintiffs’ claims.
First, the Intervenor Defendants assert they are likely
to succeed in arguing the Individual Mandate “can still
be upheld as a lawful exercises of Congress’s taxing
power” because “Section 5000A will retain most of the
features that the Supreme Court pointed to in
concluding that it could fairly be construed as a tax”
and because “the Fifth Circuit is unlikely to share this
Court’s view that the production of revenue at all
times is the sine qua non of a tax.” Intervenor Defs.’
Mot. Stay 8-9, ECF No. 213-1. They also assert the
Fifth Circuit “has upheld the constitutionality of a
statute that taxed the making of machine guns, even
though federal law had subsequently banned the
possession of machine guns, and even though the
federal government no longer collected the tax.” Id. at
9 (United States v. Ardoin, 19 F.3d 177, 179-80 (5th
Cir. 1994)).
Next, the Intervenor Defendants argue they “are
likely to succeed on their alternative theory that, if the
minimum coverage provision can no longer be fairly
construed as a tax, it no longer violates the Commerce
Clause” because “once the penalty for failing to
maintain coverage is reduced to zero, it will lose its
coercive effect.’’ Id. The Intervenor Defendants then
insist that, even if the Fifth Circuit holds the
Individual Mandate unconstitutional, the court is
likely to hold that “the appropriate remedy is to strike
the amendment and order that the statute operate the

208a
way it did before the amendment was adopted.” Id.
(citing Frost v. Corp. Comm’n Okla., 278 U. S. 515, 525
(1928)). Finally, the Intervenor Defendants argue
that, even if they lose on all the above arguments, they
“are likely to succeed on their argument” that the
Individual Mandate “is severable from the rest of the
ACA.” Id. at 10. This is because the 2017 Congress
“zeroed out the penalty for failing to maintain
minimum coverage while leaving the rest of the ACA
intact.” Id.
The Court disagrees with each of the Intervenor
Defendants’ contentions for the reasons set out in the
Court’s 55 pages of analysis in the December 14, 2018
Order. See ECF No. 211. But the Court finds it
appropriate to briefly summarize the logic of why the
Intervenor Defendants’ arguments, though well-made,
are ultimately unavailing and unlikely to succeed on
appeal.
i.

Unconstitutional Under the Tax Power 28

The Individual Mandate can no longer be saved as
an exercise of Congress’s Tax Power for the following
reasons:
•

The Individual Mandate, 26 U.S.C. §
5000A(a), and the shared-responsibility
payment, §§ 5000A(b) and (c), are
textually and functionally distinct. 29

•

The Supreme Court’s decision in NFIB
recognized this distinction. 30

See December 14, 2018 Order 19-27, ECF No. 211.
at 20-22.
30 See id. at 22 (“NFIB does not contravene Congress’s intent to
separate the Individual Mandate and shared-responsibility
penalty. To the extent the Supreme Court held § 5000A could be
28

29 Id.

209a
•

The Supreme Court held the Individual
Mandate could be saved under
Congress’s Tax Power because it
triggered
the
shared-responsibility
payment, which could be plausibly read
as a tax. 31

•

The Supreme Court held the sharedresponsibility payment could be treated
as the tax the Individual Mandate
triggered based on the following factors:
The payment
o

“is paid into the Treasury by
‘taxpayer[s]’ when they file their
tax returns,”

o

“does not apply to individuals who
do not pay federal income taxes
because their household income is
less than the filing threshold,”

o

“amount is determined by such
familiar factors as taxable income,
number of dependents, and joint
filing status,”

o

“is found in the Internal Revenue
Code and enforced by the IRS,” and

fairly read as a tax, it reasoned only that the Individual Mandate
could be viewed as part and parcel of a provision supported by the
Tax Power—not that the Individual Mandate itself was a tax. The
Supreme Court stated its ‘precedent demonstrate[d] that
Congress had the power to impose the exaction in § 5000A under
the taxing power’—and § 5000A(b) is the exaction—‘and that §
5000A need not be read to do more than impose a tax. That is
sufficient to sustain it.’” (quoting NFIB, 567 U.S. at 570
(emphasis added))).
31 Id. at 23-24.

210a
o “yields the essential feature of
any tax: It produces at least some
revenue for the Government.” 32
•

In light of the TCJA, § 5000A(b) no longer
“looks like a tax in many respects.” 33 It
now fails at least Factor 1 (no longer paid
by taxpayers into the Treasury), Factor 3
(no amount and $0 is not determined by
familiar factors), Factor 4 (not enforced
by the IRS) and, crucially, Factor 5 (no
longer yields the “essential feature” of a
tax).

•

Section 5000A(b) now fails four out of the
five factors identified by the Supreme
Court
as
justifying
its
saving
construction, including the one feature
the Supreme Court identified as
“essential.” 34 The mandate therefore no
longer triggers a tax.

Accordingly, the Court finds the Fifth Circuit is
likely to draw a straight line from the majority’s
reasoning in NFIB and agree that the Individual
Mandate cannot be sustained under the saving
construction that construed the mandate as triggering
567 U.S. at 563-64.
at 563; see December 14, 2018 Order 24-25, ECF No. 211.
34 The Intervenor Defendants contend that “the Fifth Circuit is
unlikely to share this Court’s view that the production of revenue
at all times is the sine qua non of a tax.” Intervenor Defs.’ Mot.
Stay 9. This Court does not have a view on the issue. But the
Supreme Court does. See NFIB, 567 U.S. at 564 (reasoning that
“the essential feature of any tax” is that “[i]t produces at least
some revenue for the Government”). And the Court finds that the
Fifth Circuit is likely to follow it.
32 NFIB,
33 Id.

211a
a tax. 35

35 Nothing in United States v. Ardoin, 19 F.3d 177 (5th Cir. 1994),
alters this analysis. There, the Fifth Circuit held that 26 U.S.C.
§§ 5821, 5861(d), (e), (f), (l), 5871, and 5845 remained permissible
exercises of Congress’s Tax Power even though the provisions
taxed an illegal activity and an Executive branch agency refused
to accept applications to pay the taxes created by the provisions.
Ardoin, 19 F.3d at 179—80. The Ardoin decision does not
abrogate the Supreme Court’s holding that the generation of
revenue is the essential feature of a tax—and not only because a
Fifth Circuit opinion ought not be read to contravene Supreme
Court precedent. The two attacks on the constitutionality of the
tax provisions in Ardoin were that they (1) taxed an activity that
was no longer legal and (2) were no longer enforced by the Bureau
of Alcohol, Tobacco, and Firearms (ATF). As to the first challenge,
the court reasoned that “Congress can tax illegal conduct” so that
“[a]lthough it is illegal to possess or manufacture these weapons,
one illegally doing so would be required to registerthem with ATF
and pay taxes on them.” Id. at 180. The illegality of the activity
did not render the legislation a nullity. Here, even though
applicable individuals are required to purchase ACA-compliant
health insurance, if someone disobeyed that requirement they
would not be subject to a tax—because it is gone. The Intervenor
Defendants make that point repeatedly. As to the second
challenge, the court reasoned that, whatever the agency’s
enforcement decisions, the legislation continued to give “ATF ...
the authority to tax now-illegal machineguns . . . Thus, the basis
for ATF’s authority to regulate—the taxing power—still exists; it
is merely not exercised.” Id. Here, however, the IRS’s authority to
tax noncompliance is gone. In other words, Ardoin confirms that
legislative text is the proper object of any analysis of legislative
activity—Executive actions do not constitutionalize or deconstitutionalize Legislative actions. And here, Congress itself
legislatively eliminated the shared-responsibility payment.

212a
ii.

Unconstitutional Under the Interstate
Commerce Power 36

The Individual Mandate continues to be
unsustainable under Congress’s Interstate Commerce
Power, as the Supreme Court already held, for the
following reasons:
•

The Supreme Court held the Individual
Mandate is unconstitutional under the
Interstate Commerce Clause. 37

•

The Individual Mandate no longer
triggers a tax, so the saving construction
crafted in NFIB no longer applies. 38

•

Even under the saving construction
crafted in NFIB, the Individual Mandate
was a requirement to act—otherwise, the
failure to act would not have triggered a
tax. 39

See December 14, 2018 Order 27-34, ECF No. 211.
567 U.S. at 572 (majority).
38 See Josh Blackman, Undone: the New Constitutional Challenge
to Obamacare, 23 TEX. REV. L. & POL. (forthcoming 2018)
(manuscript at 17) (“Now that the penalty has been zeroed out,
and the saving construction cannot hold, we are left with ‘ [t] he
most straightforward reading of the mandate. ’ What is that
reading? Section 5000A ‘commands individuals to purchase
insurance.’” (quoting NFIB, 567 U.S. at 562)).
39 See December 14, 2018 Order 32-33, ECF No. 211; accord
Intervenor Defs.’ Mot. Stay 9, ECF No. 213-1 (“In NFIB, the
Supreme Court held that the requirement of maintaining
minimum coverage went beyond Congress’s powers under the
Commerce Clause because it ‘compels individuals’ to participate
in commerce.” (citing NFIB, 567 U.S. at 552) (first emphasis
added, second emphasis in Motion)). As the Intervenor
Defendants recognize, the Supreme Court in NFIB did not hold
36

37 NFIB,

213a
• All that remains now is a written law with
plain text that mandates the Individual
Plaintiffs to purchase minimum essential
coverage—which the evidence suggests
they and others will do. 40
o

Plain text confirms the Individual
Mandate is a mandate. 41 It is
entitled, “Requirement to maintain
minimum essential coverage.” 42 It
states, “An applicable individual

that the shared-responsibility payment impermissibly compelled
the purchase of health insurance. Instead, the Chief Justice
reasoned that “[t]he individual mandate . . . compels individuals
to become active in commerce by purchasing a product.” NFIB,
567 U.S. at 552 (Roberts, C.J.) (first emphasis added). The
elimination of the shared-responsibility payment, but not the
Individual Mandate, does not obviate that text-driven reasoning.
40 See December 14, 2018 Order 29-30, ECF No. 211; accord
Blackman, supra note 38, at 12 (“According to a November 8, 2017
report from CBO and the Joint Committee on Taxation, CBO
observed that ‘with no penalty at all, only a small number of
people who enroll in insurance because of the mandate under
current law would continue to do so solely because of a willingness
to comply with the law.’ The number is no doubt ‘small,’ but it is
not zero. No matter how small this class is, such virtuous
individuals do exist. Therefore, a certain number of individuals
are still affected by a penalty-less mandate. The mandate still has
force, even if no penalty accompanies it.” (citation omitted)).
41 See December 14, 2018 Order, 30-32, ECF No. 211. See also
United States v. Kaluza, 780 F.3d 647, 658 (5th Cir. 2015) (“When
construing statutes and regulations, we begin with the
assumption that the words were meant to express their ordinary
meaning.” (quoting Bouchikhi v. Holder, 676 F.3d 173, 177 (5th
Cir. 2012))); Wheeler v. Pilgrim’s Pride Corp., 591 F.3d 355, 364
(5th Cir. 2009) (en banc) (Jones, J., concurring) (“Proper statutory
analysis begins with the plain text of the statute.”).
42 26 U.S.C. § 5000A(a) (emphasis added).

214a
shall . . . ensure that the individual
... is covered.” 43
o

Five Supreme Court Justices
concluded
“[t]he
most
straightforward reading of the
mandate is that it commands
individuals to purchase insurance.
After all, it states that individuals
‘shall’
maintain
health
44
insurance.”

o

Surrounding text confirms the
Individual Mandate creates an
obligation in the absence of the
shared-responsibility payment. 45
Section 5000A(e), for example, “did
and still does exempt some
individuals from the eliminated
shared-responsibility payment but

(emphasis added); see Fed. Express Corp. v. Holowecki, 552
U.S. 389, 399 (2008) (reasoning “‘shall’ imposes obligations on
agencies to act”); Lopez v. Davis, 531 U.S. 230, 241 (2001) (noting
“shall” indicates an intent to “impose discretionless obligations”).
44 NFIB, 567 U.S. at 562 (Roberts, C.J.); id. at 662 (joint dissent)
(“In this case, there is simply no way, ‘without doing violence to
the fair meaning of the words used,’ Grenada County Supervisors
v. Brogden, 112 U.S. 261, 269 (1884), to escape what Congress
enacted: a mandate that individuals maintain minimum essential
coverage, enforced by a penalty.”).
45 Id. at 665 (joint dissent) (noting that “some are exempt from
the tax who are not exempt from the mandate—a distinction that
would make no sense if the mandate were not a mandate”); see
Doe v. KPMG, LLP, 398 F.3d 686, 688 (5th Cir. 2005) (“When
interpreting a statute, we start with the plain text, and read all
parts of the statute together to produce a harmonious whole.”).
43 Id.

215a
not the Individual Mandate.” 46
Section 5000A(d) “exempted, and
continues to exempt, certain
individuals from the Individual
Mandate itself.” 47
o

Reading the Individual Mandate
to be anything other than a
mandate would twice violate the
canon against surplusage by
rendering the mandatory words of
§
5000A(a)
ineffective—i.e.,
“requirement” and “shall”—and
rendering whole provisions of §
5000A
ineffective—i.e.,
§§
48
5000A(d) and (e)-

• Written law is binding, with or without
the specter of an enforcement provision. 49
December 14, 2018 Order 33, ECF No. 211. It is not surprising
Congress would subject some individuals to the mandate but not
the penalty. Congress’s stated goal was to “add millions of new
consumers to the health insurance market, increasing the supply
of, and demand for, health care services, and . . . increase the
number and share of Americans who are insured.” 42 U.S.C. §
18091(2)(C). Congress made a policy decision that some
individuals should not be subject to the penalty but should still
be bound to satisfy their legal obligation to maintain minimum
essential coverage. That policy decision has always been
embedded in the ACA’s plain text.
47 December 14, 2018 Order 33, ECF No. 211.
48 Id. at 31; accord NFIB, 567 U.S. at 665 (joint dissent).
49 December 14, 2018 Order 29-30, ECF No. 211. The Intervenor
Defendants assert the Plaintiffs are not bound by federal law
unless compelled by “force, threats, or overwhelming pressure.”
See Intervenor Defs.’ Mot. Stay 9, ECF No. 213-1. In other words,
“might makes right.” But “might makes right” is incompatible
46

216a
with the concept of a “government of laws, and not of men.” See
John Adams, NOVANGLUS ESSAYS No. 7 (Feb. 6, 1775). And it is
incompatible with the concepts of equality and, relatedly,
government by consent. See THE DECLARATION OF INDEPENDENCE
(U.S. 1776) (“We hold these truths to be self-evident, that all men
are created equal, that they are endowed by their Creator with
certain unalienable Rights, that among these are Life, Liberty
and the pursuit of Happiness. That to secure these rights,
Governments are instituted among Men, deriving their just
powers from the consent of the governed'' (emphasis added)). That
the binding nature of law is justified by something other than
brute force is a first principle of American society and in the very
nature of a written Constitution—as well as constitutionally
sanctioned statutes. Cf Nicholas Dranias, Consideration As
Contract: A Secular Natural Law of Contracts, 12 TEX. REV. L. &
POL. 267, 270-71 (2008) (contrasting those such as John Locke
and St. Thomas Aquinas “who viewed law as deriving its
justification from natural principles of morality [against] those
who viewed law as having, and needing, no justification other
than the force that backs it” and noting that “Lockean philosophy
provided the theoretical substance of the Declaration of
Independence, the Federalist Papers, the popularly distributed
pamphlets of Thomas Paine, and the Constitution”); id. (noting
Locke rejected the “pre-philosophical tradition best exemplified
by the words of Thrasymachus in Plato’s Republic: ‘I say that
justice is simply what is good for the stronger’”); Hadley Arkes,
The Natural Law Challenge, 36 HARV. J.L. & PUB. POL’Y 961, 963
(2013) (“He [John Marshall] assumed [in Gibbons v. Ogden] that
all of his literate readers understood that, before we can carry out
a demonstration, certain axioms had to be in place—like the law
of contradiction. They were things that had to be grasped, as the
saying went, per se nota as true in themselves. As Hamilton put
it in the Federalist No. 31, there are certain ‘primary truths, or
first principles, upon which all subsequent reasonings must
depend.’ They contain, he said, ‘an internal evidence which
antecedent to all reflection or combination commands the assent
of the mind.’” (citations omitted)). In any event, the Intervenor
Defendants’ view does not comport with NFIB’s recognition that

217a
o

The Individual Mandate, §
5000A(a), is federal law—having
satisfied
the
Constitution’s
bicameralism and presentment
requirements—and federal law is
inherently binding on those within
its jurisdiction. 50 Not even the
Founders, who were leery of
Federal
power,
argued
51
otherwise.

o This is as true with respect to the
Constitution as it is with respect to
the Individual Mandate: Most of
the Constitution’s provisions are
unaccompanied by a penalty—tax
or otherwise. Yet time and again
courts recognize the Constitution,
as written law, is inherently
the Individual Mandate itself is compulsory. See NFIB, 567 U.S.
at 552 (Roberts, C.J.) (“The individual mandate . . . compels
individuals to become active in commerce by purchasing a
product.” (first emphasis added)).
50 See, e.g., U.S. CONST. art. VI. (“[T]he laws of the United States
. . . shall be the supreme law of the land; and the judges in every
state shall be bound thereby.”); United States v. Grumka, 728
F.2d 794, 797 (6th Cir. 1984) (per curiam) (“It is the duty of all
citizens to obey the law . . . .”); Montero v. City of Yonkers, 890
F.3d 386, 396 (2d Cir. 2018) (noting the “obligation as a citizen to
obey the law”).
51 See, e.g., THE FEDERALIST No. 28 (Alexander Hamilton) (“It
merits particular attention in this place, that the laws of the
Confederacy as to the enumerated and legitimate objects of its
jurisdiction will become the Supreme Uaw of the land, to the
observance of which all officers, legislative, executive, and
judicial in each State will be bound by the sanctity of an oath."
(emphasis added)).

218a
binding. 52
The Individual Mandate no longer triggers a tax
and therefore can no longer be read as an exercise of
Congress’s Tax Power. That being true, the Court finds
52 Consider, for example, a suit against the President brought by
Intervenor Defendant the District of Columbia alleging violations
of the Constitution’s Emoluments Clauses. See Complaint ¶ 2,
District of Columbia v. Trump, No. 8:17-cv-01596 (D. Md. June
12, 2017), ECF No. 1. The Foreign Emoluments Clause provides
that “no person holding any office of profit or trust under them,
shall, without the consent of the Congress, accept of any present,
emolument, office, or title, of any kind whatever, from any king,
prince, or foreign state.” U.S. CONST. art. I, § 9, cl. 8. (emphasis
added). The Domestic Emoluments Clause provides that “[t]he
President shall, at stated times, receive for his services, a
compensation, which shall neither be increased nor diminished
during the period for which he shall have been elected, and he
shall not receive within that period any other emolument from
the United States, or any of them.” Id. art. II, § 1, cl. 7 (emphasis
added). Neither of the clauses includes an enforcement
provision—certainly, neither imposes a tax penalty. But both use
the word “shall,” and both are binding by nature. Intervenor
Defendant the District of Columbia understands that basic truth
in the context of its suit against the President. There, the District
of Columbia asserts, “Applied to President Trump’s diverse
dealings, the text and purpose of the clause speak as one: absent
the consent of Congress, private enrichment through the receipt
of benefits from foreign governments is prohibited” Complaint
¶ 6, Trump, No. 8:17-cv-01596 (D. Md. June 12, 2017), ECF No. 1
(emphasis added); accord Pls.’ Opp’n Mot. Dismiss 59, No. 8:17cv-01596 (D. Md. Nov. 7, 2017) (“Because ‘the President is bound
to abide by the requirements' of these Clauses, his obligation to
comply with them ‘is ministerial and not discretionary (citation
omitted) (emphasis added)). The President is prohibited not by
“force, threats, or overwhelming pressure” but by the text and
purpose of a provision that states what he shall and “shall not”
do. The Individual Mandate is no different.

219a
the Fifth Circuit is unlikely to either disagree with the
Supreme Court’s NFIB holding that the mandate is
unsustainable under Congress’s Interstate Commerce
Power or accept the alternative theory that the
mandate, though it regulates interstate conduct, is
simply not binding.
iii.

Frost Is Not Dispositive 53

Frost does not control or require invalidating
Congress’s tax bill for the following reasons:
•

In Frost, the plaintiff challenged the
later-in-time legislation. 54 Here, the
Plaintiffs do not challenge the later-intime legislation. 55

•

In Frost, all parties agreed the earlier-in-

See December 14, 2018 Order 54 n.34, ECF No. 211.
278 U.S. at 518-19; see id. at 519 (pleading that “that the
proviso, as construed and applied by the commission . . . was
invalid as contravening the due process and equal protection of
the law clauses of the Fourteenth Amendment” (emphasis
added)).
55 See Am. Compl. 28, ECF No. 27 (“Section 5000A’s individual
mandate exceeds Congress’s enumerated powers by forcing
Individual Plaintiffs to maintain ACA-compliant health
insurance coverage.”). To acknowledge what the Plaintiffs claim
and do not claim is not to “conclude that a party can plead its way
around Frost” Intervenor Defs.’ Mot. Stay 10, ECF No. 213-1. It
is a recognition of the fundamental rule in district court
proceedings that a claim not raised in the complaint is not
properly before the court. Cf. Cutrera v. Bd. Supervisors La. State
Univ., 429 F.3d 108, 113 (5th Cir. 2005) (“A claim which is not
raised in the complaint... is not properly before the court.”); Fisher
v. Metropolitan Life Ins. Co., 895 F.2d 1073, 1078 (5th Cir. 1990)
(“As the district court correctly noted, this claim was not raised
in [plaintiff s] second amended complaint . . . and, as such, was
not properly before the court.”).
53

54 Frost,

220a
time legislation was constitutional—and
the Supreme Court expressly relied on
that concession. 56 Here, the entire case is
about the constitutionality of the earlierin-time legislation.
•

In Frost, the later-in-time legislation did
not
render
an
earlier
law
unconstitutional—it
was
itself
unconstitutional because it created
disparately treated classes. 57 Here, the
later-in-time TCJA is constitutional.
o Anyways, the later-in-time TCJA
does not render the ACA
unconstitutional—it abrogates the
ground on which the Supreme
Court concluded the ACA could be
saved. 58

Frost, 278 U.S. at 519 (“Both parties definitely concede the
validity of these provisions, and, for present purposes at least, we
accept that view.”); id. at 526 (“Here it is conceded that the
statute, before the amendment, was entirely valid.”).
57 Id. at 524 (noting the “classification created by the proviso”
(emphasis added)); id. (“[T]he proviso, as here construed and
applied, baldly creates one rule for a natural person and a
different and contrary rule for an artificial person.” (emphasis
added)); id. (reasoning the proviso, not the original law, “produces
a classification”); id. (reasoning the proviso, not the original law,
“is essentially arbitrary”); id. at 525 (acknowledging “the
inequality created by” the proviso, not the original law).
58 See NFIB, 567 U.S. at 574-75 (Roberts, C.J.) (“[T]he statute
reads more naturally as a command to buy insurance than as a
tax, and I would uphold it as a command if the Constitution
allowed it. It is only because the Commerce Clause does not
authorize such a command that it is necessary to reach the taxing
power question. And it is only because we have a duty to construe
56

221a
•

Frost stands only for the proposition that
courts may invalidate unconstitutional
action and preserve constitutional
action; it does not empower the judiciary
to construe constitutional action as
unconstitutional
to
preserve
unconstitutional action as constitutional.

For these reasons, the Fifth Circuit is unlikely to
invalidate Congress’s constitutional tax law under the
guise of Frost, a decision that invalidated an
unconstitutional law. To read Frost as empowering
courts to invalidate Congress’s constitutional
legislation to save a judicial opinion that admittedly
construed unconstitutional legislation as something
other than what Congress intended would go above
and beyond any limits on the judicial power yet seen.
iv.

Individual Mandate Inseverable 59

The Individual Mandate is entirely inseverable for
the following straightforward reasons:
The test for severability is congressional
intent. 60

•

a statute to save it, if fairly possible, that § 5000A can be
interpreted as a tax. Without deciding the Commerce Clause
question, I would find no basis to adopt such a saving
construction.” (emphasis added)).
59 See December 14, 2018 Order 34-55, ECF No. 211.
60 See id. at 35-37; accord Minnesota v. Mille Lacs Band of
Chippewa Indians, 526 U.S. 172, 191 (1999) (“The inquiry into
whether a statute is severable is essentially an inquiry into
legislative intent.”); Alaska Airlines, Inc. v. Brock, 480 U.S. 678,
685 (1987) (“The more relevant inquiry in evaluating severability
is whether the statute will function in a manner consistent with
the intent of Congress.” (emphasis in original)); Regan v. Time,
Inc., 468 U.S. 641, 653 (1984) (plurality) (“Whether an

222a
Congressional intent is expressed
through enacted text. 61

•

If the enacted text is unambiguous, no
further inquiry is permitted. 62

•
•

The enacted text is unambiguous: The

unconstitutional provision is severable from the remainder of the
statute in which it appears is largely a question of legislative
intent, but the presumption is in favor of severability.”). But see
R.R. Ret. Bd. v. Alton R.R. Co., 295 U.S. 330, 362 (1935) (majority)
(recognizing “the presumption ... of an intent that, unless the act
operates as an entirety, it shall be wholly ineffective” (citing
Williams v. Standard Oil Co., 278 U.S. 235, 242 (1929); Utah
Power & Light Co. v. Pfost, 286 U.S. 165, 184 (1932))).
61 Connecticut Nat’l Bank v. Germain, 503 U.S. 249, 253-54 (1992)
(“[I]n interpreting a statute a court should always turn first to
one, cardinal canon before all others. We have stated time and
again that courts must presume that a legislature says in a
statute what it means and means in a statute what it says
there.”); United States v. Ron Pair Enterprises, Inc., 489 U.S. 235,
241 (1989) (“The task of resolving the dispute over the meaning
of [a provision] begins where all such inquiries must begin: with
the language of the statute itself.” (citing Landreth Timber Co. v.
Landreth, 471 U.S. 681, 685 (1985))); Kaluza, 780 F.3d at 658
(“The starting point in discerning congressional intent is the
existing statutory text.” (quoting Lamie v. U.S. Trustee, 540 U.S.
526, 534 (2004))); Hotze, 784 F.3d at 997 (noting “the best
evidence of Congress’s intent is the statutory text” (quoting NFIB,
567 U.S. at 544)); EEOC v. Hernando Bank, Inc., 724 F.2d 1188,
1190 (5th Cir. 1984) (“Congressional intent and purpose are best
determined by an analysis of the language of the statute in
question.”).
62 Germain, 503 U.S. at 253-54 (“When the words of a statute are
unambiguous, this first canon is also the last: ‘judicial inquiry is
complete.’”); Ron Pair, 489 U.S. at 241 (“[Wjhere, as here, the
statute’s language is plain, ‘the sole function of the courts is to
enforce it according to its terms.’” (quoting Caminetti v. United
States, 242 U.S. 470, 485 (1917))).

223a
Individual Mandate is “essential” to the
ACA. 63
o

The Supreme Court relied on the
import of this plain text before and
after the exchanges were created
and the Individual Mandate was
in effect. 64

o

The past two Administrations
have agreed the Individual
Mandate is inseverable from the
guaranteed-issue and communityrating provisions. 65

o

No Congress—not in 2017, not
ever—repealed the Individual
Mandate. 66

See December 14, 2018 Order 37-41, ECF No. 211.
December 14, 2018 Order41-46, ECF No. 211; King v.
Burwell, 135 S. Ct. 2480, 2487 (2015) (citing 42 U.S.C. §
18091(2)(I)); NFIB, 567 U.S. at 556 (Roberts, C.J.) (“It is precisely
because these individuals, as an actuarial class, incur relatively
low health care costs that the mandate helps counter the effect of
forcing insurance companies to cover others who impose greater
costs than their premiums are allowed to reflect.” (citing 42
U.S.C. § 18091(2)(I))); id. at 596 (Ginsburg, J., joined by Breyer,
Kagan, and Sotomayor, JJ.) (“A central aim of the ACA is to
reduce the number of uninsured U.S. residents . . . The minimum
coverage provision advances this objective.” (citing 42 U.S.C. §§
18091(2)(C) and (I))); id. at 650 (joint dissent) (“First, the
Government submits that § 5000A is ‘integral to the Affordable
Care Act’s insurance reforms’ and ‘necessary to make effective the
Act's core reforms.’ . . . Congress included a ‘finding’ to similar
effect in the Act itself.” (citations omitted)).
65 See December 14, 2018 Order 42, n.29, ECF No. 211.
66 See 26 U.S.C. § 5000A(a). The 2017 Congress, in passing the
TCJA, reduced the shared-responsibility payment to $0. It did
63

64See

224a
o

No Congress—not in 2017, not
ever—repealed
the
ACA’s
Findings. 67

o

The Court cannot rely on the 2017
Congress’s elimination of the
shared-responsibility payment to
treat
the
textually
and
functionally distinct Individual
Mandate as implicitly repealed
when Congress left the Individual
Mandate as enacted text and left
in place other text that calls the
Individual Mandate—not the
functionally
distinct
sharedresponsibility
payment—
68
“essential.”

not repeal the Individual Mandate.
67 See 42 U.S.C. § 18091. “All told, Congress stated three separate
times that the Individual Mandate is essential to the ACA. That
is once, twice, three times and plainly. It also stated the absence
of the Individual Mandate would ‘undercut’ its ‘regulation of the
health insurance market.’ Thirteen different times, Congress
explained how the Individual Mandate stood as the keystone of
the ACA. And six times, Congress explained it was not just the
Individual Mandate, but the Individual Mandate ‘together with
the other provisions’ that allowed the ACA to function as
Congress intended.” December 14, 2018 Order 40, ECF No. 211.
The 2017 Congress did not repeal this plain text.
68 See Epic Sys. Corp. v. Lewis, 138 S. Ct. 1612, 1624 (2018) (“The
intention must be clear and manifest. And in approaching a
claimed conflict, we come armed with the strong presumption
that repeals by implication are disfavored and that Congress will
specifically address preexisting law when it wishes to suspend its
normal operations in a later statute.” (cleaned up)); Nat’l Ass’n of
Home Builders v. Defs. of Wildlife, 551 U.S. 644, 664 (2007) (“The
Ninth Circuit's reading of § 7(a)(2) would not only abrogate §

225a
o

The Constitution’s separation of
powers prohibits the Court from
doing for Congress what Congress
tried and failed to do itself. 69

402(b)’s statutory mandate, but also result in the implicit repeal
of many additional otherwise categorical statutory commands . .
. While the language of § 7(a)(2) does not explicitly repeal any
provision of the CWA (or any other statute), reading it for all that
it might be worth runs foursquare into our presumption against
implied repeals.”); Posadas v. Nat’l City Bank of New York, 296
U.S. 497, 503 (1936) (“The amending act just described”—like the
TCJA—“contains no words of repeal; and if it effected a repeal of
section 25 of the 1913 act, it did so by implication only. The
cardinal rule is that repeals by implication are not favored.”);
Lockhart v. United States, 546 U.S. 142, 149 (2005) (Scalia, J.,
concurring) (noting an “already-powerful presumption against
implied repeals”); United States v. Cavada, 821 F.2d 1046, 1047
(5th Cir. 1987) (“We say, therefore, that there is a presumption
against implicit repeal.”); Victorian v. Miller, 813 F.2d 718, 721
(5th Cir. 1987).
69 For example, the House passed H.R. 3762 in 2015 which
included a repeal of the Individual Mandate. See CONGRESSIONAL
RESEARCH SERVICE, LEGISLATIVE ACTIONS IN THE 112TH, 113TH,
AND 114TH CONGRESSES TO REPEAL, DEFUND, OR DELAY THE
AFFORDABLE CARE ACT 7 (February 7,2017). But that version of
the bill could not gamer the necessary votes in the Senate:
“Tacking ... a supermajority in the Senate, the Republicans chose
instead to modify the provisions so that they would not violate the
Byrd Rule. The Senate version kept the mandates but eliminated
the penalties for noncompliance.” Id. at 8. This is one example of
how Congress attempted to, but did not, repeal the mandate. And
it is a powerful illustration of why the thing Congress did do—
eliminate the shared-responsibility payment—is not the thing
Congress did not do—repeal the Individual Mandate. Yet the
Intervenor Defendants insist the Court must construe the former
as the latter. This is far beyond the Court’s power. See Epic Sys.
Corp., 138 S. Ct. at 1624 (“[I]t’s the job of Congress by legislation,

226a
o

•

Floor statements and policy
arguments do not supplant
enacted text or allow the Court to
construe what Congress did and
did not do as what a party asserts
Congress almost did and did not
do. 70

Congress included a severability clause
for Medicaid Expansion but not for the
Individual Mandate, which Congress
called “essential.” 71

not this Court by supposition, both to write the laws and to repeal
them.”); United States v. Goldenberg, 168 U.S. 95, 102-03 (1897)
(“The primary and general rule of statutory construction is that
the intent of the lawmaker is to be found in the language that he
has used. He is presumed to know the meaning of words and the
rules of grammar. The courts have no function of legislation, and
simply seek to ascertain the will of the legislator.”).
70 See, e.g., Intervenor Defs.’ Resp. 29-30, ECF No. 91 (collecting
statements by members of 2017 Congress). “More fundamentally,
. . . intentions do not count unless they are enshrined in a text
that makes it through the constitutional processes of
bicameralism and presentment.” Murphy v. Nat’l Collegiate
Athletic Ass’n, 138 S. Ct. 1461, 1487 (2018) (Thomas, J.,
concurring) (citing Wyeth v. Levine, 555 U.S. 555, 586-588 (2009)
(Thomas, J., concurring in judgment)). But “[b]ecause we have a
Government of laws, not of men, we are governed by legislated
text, not legislators’ intentions—and especially not legislators’
hypothetical intentions.” Id. (cleaned up).
71 See December 14, 2018 Order 40, n.26, ECF No. 211. As noted
in the December 14, 2018 Order, the absence of a severability
clause is by no means dispositive, but it is certainly of evidentiary
value in a situation where one provision—the Individual
Mandate—was called “essential” and contained no severability
clause while another part of the statute—Medicaid Expansion—
was not called “essential,” did contain a severability clause, and

227a
•

The 2017 Congress’s “decision” to not
repeal the remainder of the ACA was not
a “decision” that supports an inference of
severability intent—it was a consequence
of the TCJA being passed as part of the
budget and reconciliation process. 72

•

If Congress intends to sever the
Individual Mandate from the remainder
of the ACA, Congress can sever the
Individual Mandate from the remainder
of the ACA. The Court cannot do that for

was expressly held by the Supreme Court to be severable to the
extent necessary due to the severability clause. See NFIB, 567
U.S. at 586 (Roberts, C.J., joined by Breyer and Kagan, JJ.)
(noting the Supreme Court was “follow[ing] Congress’s explicit
textual instruction”); id. at 645 (Ginsburg, J., joined by
Sotomayor, J.) (“I agree . . . that the Medicaid Act’s severability
clause determines the appropriate remedy.”); see also id. at 544
(majority) (“Where Congress uses certain language in one part of
a statute and different language in another, it is generally
presumed that Congress acts intentionally.” (citing Russello v.
United States, 464 U.S. 16, 23 (1983))).
72 See
CONGRESSIONAL RESEARCH SERVICE, THE BUDGET
RECONCILIAHON PROCESS: STAGES OF CONSIDERATION ii (January
4, 2017) (“In adopting a budget resolution, Congress is agreeing
upon its budgetary goals for the upcoming fiscal year. Because it
is in the form of a concurrent resolution, however, it is not
presented to the President or enacted into law. As a consequence,
any statutory changes concerning spending or revenues that are
necessary to implement these policies must be enacted in
separate legislation.”). Even if it were appropriate to look beyond
the unambiguous text of the ACA, in other words, the 2017
Congress demonstrated no legislative intent to leave the ACA
intact when it passed the TCJA because the TCJA gave Congress
no legislative choice on the matter.

228a
Congress. 73
Accordingly, the Fifth Circuit is unlikely to accept
the
Intervenor
Defendants’
countertextual
severability argument based on extratextual
evidence. 74 Policy arguments and countertextual
See, e.g., Alton, 295 U.S. at 362 (“[W]e cannot rewrite a statute
and give it an effect altogether different from that sought by the
measure viewed as a whole.”); Hill v. Wallace, 259 U.S. 44, 70
(1922) (severing an inseverable statute would be “legislative work
beyond the power and function of the court”); Oneale v. Thornton,
10 U.S. 53, 68 (1810) (“Men use a language calculated to express
the idea they mean to convey. If the legislature had contemplated
various and successive sales, so that any intermediate contract or
purchaser was within the view of the lawmaker and intended to
be affected by the power of resale given to the commissioners, the
words employed would have been essentially different from those
actually used.”).
74 The Intervenor Defendants assert, “Nor is the Fifth Circuit
likely to conclude that the 2017 Congress demonstrated an intent
to unwind the entire ACA by choosing not to repeal Section
5000A(a) or 42 U.S.C. § 18091.” Intervenor Defs.’ Mot. Stay 10
n.5, ECF No. 213-1. This is a mischaracterization of the Court’s
reasoning and conclusion. The Court did not conclude “the 2017
Congress demonstrated an intent to unwind the entire ACA”—it
concluded exactly the opposite. The Court concluded that, if any
intent can be inferred from the 2017 Congress’s budget and
reconciliation legislation at all, it is that Congress intended to
preserve the Individual Mandate—which remains on the books—
because it understood the mandate was “essential” to the
remainder of the ACA. In other words, the enacted text the Court
has to work with unequivocally communicates that (1) the
Individual Mandate is essential to the ACA functioning as
Congress intended, (2) the mandate operates independently of the
tax penalty, and (3) the mandate remains on the books. And
because courts are better positioned to interpret written law than
pick policy, Congress must be the one to repeal the Individual
Mandate if that is what it intends to do. It has not.
73

229a
evidence do not change the text Congress enacted, and
“[a]s Justice Kagan recently stated, ‘we’re all
textualists now.’” 75 This reflects a deep-seated
respected within the judiciary for its role within the
separation of powers: Discerning congressional intent
from the end product of a constitutionally mandated
process for legislative action. “If the text is sufficiently
clear, the text usually controls. The text of the law is
the law.” 76 And the enacted text could not be clearer as
to Congress’s intent that the Individual Mandate not
be severed from the ACA. To accept the Intervenor
Defendants’ countertextual argument based on
extratextual evidence would represent a breathtaking
conception of the judicial power. 77

Brett M. Kavanaugh, Fixing Statutory Interpretation, 129
HARV. L. REV. 2118, 2118 (2016) (reviewing Robert A. Katzmann,
JUDGING STATUTES (2014)) (citation omitted). See John F.
Manning, Textualism and Legislative Intent, 91 VA. L. REV. 419,
424 (2005) (“Textualists . . . deny that Congress has a collective
will apart from the outcomes of the complex legislative process
that conditions its ability to translate raw policy impulses or
intentions into finished legislation. For them, intended meaning
never emerges unfiltered; it must survive a process that includes
committee approval, logrolling, the need for floor time,
threatened filibusters, conference committees, veto threats, and
the like. For better or worse, only the statutory text navigates all
those hurdles. Accordingly, whereas intentionalists believe that
legislatures have coherent and identifiable but unexpressed policy
intentions, textualists believe that the only meaningful collective
legislative intentions are those reflected in the public meaning of
the final statutory text.”)
76 Kavanaugh, supra note 75, at 2118.
77 See Transcript of Oral Argument at 36, NFIB, 567 U.S. 519
(2012) (No. 11-393) (“JUSTICE KENNEDY: When you say
judicial restraint, you are echoing the earlier premise that it
increases the judicial power if the judiciary strikes down other
75

230a
2.

The Equities Favor a Stay

As to the remaining elements of the stay analysis,
the Intervenor Defendants assert “[t]he equities ... tip
overwhelmingly in favor of a stay.” Intervenor Defs.’
Mot. Stay 11, ECF No. 213-1. To this point, the
Intervenor Defendants catalog the real-life impact the
Court’s December 14, 2018 Order is likely to have in
the absence of time for lawmakers to respond. See id.
at 13 (“Suddenly declaring [the ACA] void would cause
chaos for patients, providers, insurance carriers, and
the federal and state governments.”). Meanwhile, the
Intervenor Defendants point out, “since open
enrollment in Texas for 2019 has concluded, the
Individual Plaintiffs have already purchased (or
declined to purchase) ACA-compliant insurance for
2019. In other words, the Court’s decision cannot affect
the choices that they have already made for next year.”
Id. at 12.
The Plaintiffs suggest certifying the Order for
appeal and therefore do not brief the stay analysis;
instead, they “leave to the Court’s discretion whether
[a stay] may be appropriate under these unique
Circumstances.” Pls.’ Resp. 5-6, ECF No. 216. The
Federal Defendants “do not object to IntervenorDefendants’ request that the Court stay enforcement
of the Order pending appeal, given the potential for
disruption to the healthcare markets if immediate
provisions of the Act. I suggest to you it might be quite the
opposite. We would be exercising the judicial power if one Act
was—one provision was stricken and the others remained to
impose a risk on insurance companies that Congress had never
intended. By reason of this Court, we would have a new regime
that Congress did not provide for, did not consider. That, it seems
to me can be argued at least to be a more extreme exercise of
judicial power than to strike -than striking the whole.”).

231a
implementation were required.” Fed. Defs.’ Resp. 1011, ECF No. 216. “Indeed, the ACA has now been in
effect for several years,” the Federal Defendants
continue, “and it is in the parties’ and the public’s
interest that appellate review be exhausted before the
Federal Defendants begin implementing the Court’s
judgment.” Id. at 11.
The Intervenor Defendants’ arguments on the
equities of a stay are well-taken. And the Plaintiffs’
and Federal Defendants’ agreement, or lack of
disagreement, that a stay is warranted for those
reasons is telling. The Court therefore GRANTS the
Intervenor Defendants’ request for a stay of the Rule
54(b) Final Judgment on the December 14, 2018
Order.
IV.

CONCLUSION

“The American rule of law . . . depends on neutral,
impartial judges who say what the law is, not what the
law should be.” 78 And courts must refrain from
resolving policy disputes, relying instead on text-based
decisions. The more courts step into breaches for
Congress, the more courts will be called upon to step
into breaches for Congress. That would represent a
fundamental shift in the Constitution’s careful
balancing of powers—not only on the JudiciaryLegislature plane, but also on the citizen-government
plane. If the judicial power encompasses ignoring
unambiguous enacted text—the text citizens read to
know what their representatives have done—to
approximate what a judge believes Congress meant to
do, but did not, then policymaking lies in the hands of
unelected judges and Congress may transfer politically
unwinnable issues to the bench. This the Constitution
78

Kavanaugh, supra note 75, at 2119.

232a
does not allow. This the Supreme Court does not allow.
And for those reasons, the Court finds it is powerless
to read the ACA as the Intervenor Defendants request
and believes the Fifth Circuit is unlikely to disagree.
But because many everyday Americans would
otherwise face great uncertainty during the pendency
of appeal, the Court finds that the December 14, 2018
Order
declaring
the
Individual
Mandate
unconstitutional and inseverable should be stayed.
Accordingly, the Court ORDERS that the December
14, 2018 Order, (ECF No. 211), and the Partial Final
Judgment severing Count I and finalizing that
Order—which will issue by separate order—be stayed
during the pendency of the Order’s appeal.
SO ORDERED on this 30th day of December,
2018.
/s/ Reed O’Connor
Reed O’Connor
UNITED STATES
DISTRICT JUDGE

233a
APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
Civil Action No. 4:18-cv-00167-o
TEXAS, et al.,
Plaintiffs,
v.
UNITED STATES OF AMERICA, et al.,
Defendants,
CALIFORNIA, et al.
Intervenors-Defendants.
[Filed: December 30, 2018]
FINAL JUDGMENT ON COUNT I
The Court issued its order granting partial
summary judgment on Count I of Plaintiffs’
Amended Complaint, and has determined that it
should be severed from the remaining claims.
December 14, 2018 Order, ECF No. 211. In
accordance with Federal Rule of Civil Procedure
54(b), the Court therefore DECLARES that 26
U.S.C. § 5000A(a) is UNCONSTITUTIONAL and
INSEVERABLE from the remainder of the Patient
Protection and Affordable Care Act, Pub. L. 111-148,
124 Stat. 119-1045 (2010).

234a

SO ORDERED on this 30th day of December,
2018.
/s/ Reed O’Connor
Reed O’Connor
UNITED STATES
DISTRICT JUDGE

235a
APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
Civil Action No. 4:18-cv-00167-o
TEXAS, et al.,
Plaintiffs,
v.
UNITED STATES OF AMERICA, et al.,
Defendants,
CALIFORNIA, et al.
Intervenors-Defendants.
[Filed: December 31, 2018]
STAY ORDER AND ADMINISTRATIVE
CLOSURE
The Court has entered a partial judgment on
Count I in this case (ECF No. 221). The Court
determines the remainder of this case should be
STAYED pending further orders. The Clerk is
therefore instructed to submit a JS-6 form to the
Administrative Office, removing this case from the
statistical records.
Nothing in this Order shall be considered a
dismissal or disposition of the remaining clams. The
parties are directed to notify the Court upon the

236a
conclusion of the appeal of the partial judgment
within 14 days of any decision. Should further
proceedings in the meantime become necessary or
desirable, any party may initiate it by filing an
appropriate pleading.
SO ORDERED on this 31st day of December,
2018.
/s/ Reed O’Connor
Reed O’Connor
UNITED STATES
DISTRICT JUDGE

237a
APPENDIX G
Article I, Section 8 of the United
Constitution provides in relevant part:
The Congress shall have Power To lay
and collect Taxes, Duties, Imposts and
Excises, to pay the Debts and provide for
the common Defense and general
Welfare of the United States; but all
Duties, Imposts and Excises shall be
uniform throughout the United States;
***
To regulate Commerce with foreign
Nations, and among the several States,
and with the Indian tribes;
***
To make all Laws which shall be
necessary and proper for carrying into
Execution the foregoing Powers, and all
other Powers vested by this Constitution
in the Government of the United States,
or in any Department or Officer thereof.

States

238a
APPENDIX H
26 U.S.C. § 5000A
Requirement to maintain minimum essential
coverage
Effective: January 1, 2019
(a) Requirement to maintain minimum
essential coverage.--An applicable individual shall
for each month beginning after 2013 ensure that the
individual, and any dependent of the individual who
is an applicable individual, is covered under
minimum essential coverage for such month.
(b) Shared responsibility payment.-(1) In general.--If a taxpayer who is an
applicable individual, or an applicable individual
for whom the taxpayer is liable under paragraph
(3), fails to meet the requirement of subsection (a)
for 1 or more months, then, except as provided in
subsection (e), there is hereby imposed on the
taxpayer a penalty with respect to such failures in
the amount determined under subsection (c).
(2) Inclusion with return.--Any penalty
imposed by this section with respect to any month
shall be included with a taxpayer's return under
chapter 1 for the taxable year which includes such
month.
(3) Payment of penalty.--If an individual with
respect to whom a penalty is imposed by this
section for any month-(A) is a dependent (as defined in section 152) of
another taxpayer for the other taxpayer's
taxable year including such month, such other
taxpayer shall be liable for such penalty, or

239a
(B) files a joint return for the taxable year
including such month, such individual and the
spouse of such individual shall be jointly liable
for such penalty.
(c) Amount of penalty.-(1) In general.--The amount of the penalty
imposed by this section on any taxpayer for any
taxable year with respect to failures described in
subsection (b)(1) shall be equal to the lesser of-(A) the sum of the monthly penalty amounts
determined under paragraph (2) for months in
the taxable year during which 1 or more such
failures occurred, or
(B) an amount equal to the national average
premium for qualified health plans which have
a bronze level of coverage, provide coverage for
the applicable family size involved, and are
offered through Exchanges for plan years
beginning in the calendar year with or within
which the taxable year ends.
(2) Monthly penalty amounts.--For purposes of
paragraph (1)(A), the monthly penalty amount
with respect to any taxpayer for any month during
which any failure described in subsection (b)(1)
occurred is an amount equal to 1/12 of the greater
of the following amounts:
(A) Flat dollar amount.--An amount equal to
the lesser of-(i) the sum of the applicable dollar amounts
for all individuals with respect to whom
such failure occurred during such month, or
(ii) 300 percent of the applicable dollar
amount (determined without regard to
paragraph (3)(C)) for the calendar year with
or within which the taxable year ends.

240a
(B) Percentage of income.--An amount
equal to the following percentage of the excess
of the taxpayer's household income for the
taxable year over the amount of gross income
specified in section 6012(a)(1) with respect to
the taxpayer for the taxable year:
(i) 1.0 percent for taxable years beginning
in 2014.
(ii) 2.0 percent for taxable years beginning
in 2015.
(iii) Zero percent for taxable years
beginning after 2015.
(3) Applicable dollar amount.--For purposes of
paragraph (1)-(A) In general.--Except as provided in
subparagraphs (B) and (C), the applicable
dollar amount is $0.
(B) Phase in.--The applicable dollar amount is
$95 for 2014 and $325 for 2015.
(C) Special rule for individuals under age
18.--If an applicable individual has not
attained the age of 18 as of the beginning of a
month, the applicable dollar amount with
respect to such individual for the month shall
be equal to one-half of the applicable dollar
amount for the calendar year in which the
month occurs.
[(D) Repealed. Pub.L. 115-97, Title I, §
11081(a)(2)(B), Dec. 22, 2017, 131 Stat. 2092]
(4) Terms relating to income and families.-For purposes of this section-(A) Family size.--The family size involved
with respect to any taxpayer shall be equal to
the number of individuals for whom the
taxpayer is allowed a deduction under section

241a
151 (relating to allowance of deduction for
personal exemptions) for the taxable year.
(B) Household income.--The term
“household income” means, with respect to any
taxpayer for any taxable year, an amount
equal to the sum of-(i) the modified adjusted gross income of
the taxpayer, plus
(ii) the aggregate modified adjusted gross
incomes of all other individuals who-(I) were taken into account in
determining the taxpayer's family size
under paragraph (1), and
(II) were required to file a return of tax
imposed by section 1 for the taxable
year.
(C) Modified adjusted gross income.--The
term “modified adjusted gross income” means
adjusted gross income increased by-(i) any amount excluded from gross income
under section 911, and
(ii) any amount of interest received or
accrued by the taxpayer during the taxable
year which is exempt from tax.
[(D) Repealed. Pub.L. 111-152, Title I, §
1002(b)(1), Mar. 30, 2010, 124 Stat. 1032]
(d) Applicable individual.--For purposes of this
section-(1) In general.--The term “applicable individual”
means, with respect to any month, an individual
other than an individual described in paragraph
(2), (3), or (4).
(2) Religious exemptions.-(A) Religious conscience exemptions.-(i) In general.--Such term shall not
include any individual for any month if

242a
such individual has in effect an exemption
under section 1311(d)(4)(H) of the Patient
Protection and Affordable Care Act which
certifies that-(I) such individual is a member of a
recognized religious sect or division
thereof which is described in section
1402(g)(1), and is adherent of
established tenets or teachings of such
sect or division as described in such
section; or
(II) such individual is a member of a
religious sect or division thereof which is
not described in section 1402(g)(1), who
relies solely on a religious method of
healing, and for whom the acceptance of
medical health services would be
inconsistent with the religious beliefs of
the individual.
(ii) Special rules.-(I) Medical health services defined.-For purposes of this subparagraph, the
term “medical health services” does not
include routine dental, vision and
hearing services, midwifery services,
vaccinations, necessary medical services
provided to children, services required
by law or by a third party, and such
other services as the Secretary of Health
and Human Services may provide in
implementing section 1311(d)(4)(H) of
the Patient Protection and Affordable
Care Act.
(II) Attestation required.--Clause
(i)(II) shall apply to an individual for
months in a taxable year only if the

243a
information provided by the individual
under section 1411(b)(5)(A) of such Act
includes an attestation that the
individual has not received medical
health services during the preceding
taxable year.
(B) Health care sharing ministry.-(i) In general.--Such term shall not
include any individual for any month if
such individual is a member of a health
care sharing ministry for the month.
(ii) Health care sharing ministry.--The
term “health care sharing ministry” means
an organization-(I) which is described in section 501(c)(3)
and is exempt from taxation under
section 501(a),
(II) members of which share a common
set of ethical or religious beliefs and
share medical expenses among members
in accordance with those beliefs and
without regard to the State in which a
member resides or is employed,
(III) members of which retain
membership even after they develop a
medical condition,
(IV) which (or a predecessor of which)
has been in existence at all times since
December 31, 1999, and medical
expenses of its members have been
shared continuously and without
interruption since at least December 31,
1999, and
(V) which conducts an annual audit
which is performed by an independent
certified public accounting firm in

244a
accordance with generally accepted
accounting principles and which is made
available to the public upon request.
(3) Individuals not lawfully present.--Such
term shall not include an individual for any month
if for the month the individual is not a citizen or
national of the United States or an alien lawfully
present in the United States.
(4) Incarcerated individuals.--Such term shall
not include an individual for any month if for the
month the individual is incarcerated, other than
incarceration pending the disposition of charges.
(e) Exemptions.--No penalty shall be imposed under
subsection (a) with respect to-(1) Individuals who cannot afford coverage.-(A) In general.--Any applicable individual for
any month if the applicable individual's
required contribution (determined on an
annual basis) for coverage for the month
exceeds 8 percent of such individual's
household income for the taxable year
described in section 1412(b)(1)(B) of the
Patient Protection and Affordable Care Act.
For purposes of applying this subparagraph,
the taxpayer's household income shall be
increased by any exclusion from gross income
for any portion of the required contribution
made through a salary reduction arrangement.
(B) Required contribution.--For purposes of
this paragraph, the term “required
contribution” means-(i) in the case of an individual eligible to
purchase minimum essential coverage
consisting of coverage through an eligibleemployer-sponsored plan, the portion of the
annual premium which would be paid by

245a
the individual (without regard to whether
paid through salary reduction or otherwise)
for self-only coverage, or
(ii) in the case of an individual eligible only
to purchase minimum essential coverage
described in subsection (f)(1)(C), the annual
premium for the lowest cost bronze plan
available in the individual market through
the Exchange in the State in the rating
area in which the individual resides
(without regard to whether the individual
purchased a qualified health plan through
the Exchange), reduced by the amount of
the credit allowable under section 36B for
the taxable year (determined as if the
individual was covered by a qualified health
plan offered through the Exchange for the
entire taxable year).
(C) Special rules for individuals related to
employees.--For purposes of subparagraph
(B)(i), if an applicable individual is eligible for
minimum essential coverage through an
employer by reason of a relationship to an
employee, the determination under
subparagraph (A) shall be made by reference
to1 required contribution of the employee.
(D) Indexing.--In the case of plan years
beginning in any calendar year after 2014,
subparagraph (A) shall be applied by
substituting for “8 percent” the percentage the
Secretary of Health and Human Services
determines reflects the excess of the rate of
premium growth between the preceding
calendar year and 2013 over the rate of income
growth for such period.

246a
(2) Taxpayers with income below filing
threshold.--Any applicable individual for any
month during a calendar year if the individual's
household income for the taxable year described in
section 1412(b)(1)(B) of the Patient Protection and
Affordable Care Act is less than the amount of
gross income specified in section 6012(a)(1) with
respect to the taxpayer.
(3) Members of Indian tribes.--Any applicable
individual for any month during which the
individual is a member of an Indian tribe (as
defined in section 45A(c)(6)).
(4) Months during short coverage gaps.-(A) In general.--Any month the last day of
which occurred during a period in which the
applicable individual was not covered by
minimum essential coverage for a continuous
period of less than 3 months.
(B) Special rules.--For purposes of applying
this paragraph-(i) the length of a continuous period shall
be determined without regard to the
calendar years in which months in such
period occur,
(ii) if a continuous period is greater than
the period allowed under subparagraph (A),
no exception shall be provided under this
paragraph for any month in the period, and
(iii) if there is more than 1 continuous
period described in subparagraph (A)
covering months in a calendar year, the
exception provided by this paragraph shall
only apply to months in the first of such
periods.
The Secretary shall prescribe rules for the
collection of the penalty imposed by this

247a
section in cases where continuous periods
include months in more than 1 taxable
year.
(5) Hardships.--Any applicable individual who
for any month is determined by the Secretary of
Health and Human Services under section
1311(d)(4)(H) to have suffered a hardship with
respect to the capability to obtain coverage under
a qualified health plan.
(f) Minimum essential coverage.--For purposes of
this section-(1) In general.--The term “minimum essential
coverage” means any of the following:
(A) Government sponsored programs.-Coverage under-(i) the Medicare program under part A of
title XVIII of the Social Security Act,
(ii) the Medicaid program under title XIX of
the Social Security Act,
(iii) the CHIP program under title XXI of
the Social Security Act or under a qualified
CHIP look-alike program (as defined in
section 2107(g) of the Social Security Act),
(iv) medical coverage under chapter 55 of
title 10, United States Code, including
coverage under the TRICARE program;
(v) a health care program under chapter 17
or 18 of title 38, United States Code, as
determined by the Secretary of Veterans
Affairs, in coordination with the Secretary
of Health and Human Services and the
Secretary,
(vi) a health plan under section 2504(e) of
title 22, United States Code (relating to
Peace Corps volunteers);2 or

248a
(vii) the Nonappropriated Fund Health
Benefits Program of the Department of
Defense, established under section 349 of
the National Defense Authorization Act for
Fiscal Year 1995 (Public Law 103-337; 10
U.S.C. 1587 note).
(B) Employer-sponsored plan.--Coverage
under an eligible employer-sponsored plan.
(C) Plans in the individual market.-Coverage under a health plan offered in the
individual market within a State.
(D) Grandfathered health plan.--Coverage
under a grandfathered health plan.
(E) Other coverage.--Such other health
benefits coverage, such as a State health
benefits risk pool, as the Secretary of Health
and Human Services, in coordination with the
Secretary, recognizes for purposes of this
subsection.
(2) Eligible employer-sponsored plan.--The
term “eligible employer-sponsored plan” means,
with respect to any employee, a group health plan
or group health insurance coverage offered by an
employer to the employee which is-(A) a governmental plan (within the meaning
of section 2791(d)(8) of the Public Health
Service Act), or
(B) any other plan or coverage offered in the
small or large group market within a State.
Such term shall include a grandfathered health
plan described in paragraph (1)(D) offered in a
group market.
(3) Excepted benefits not treated as
minimum essential coverage.--The term
“minimum essential coverage” shall not include

249a
health insurance coverage which consists of
coverage of excepted benefits-(A) described in paragraph (1) of subsection (c)
of section 2791 of the Public Health Service
Act; or
(B) described in paragraph (2), (3), or (4) of
such subsection if the benefits are provided
under a separate policy, certificate, or contract
of insurance.
(4) Individuals residing outside United
States or residents of territories.--Any
applicable individual shall be treated as having
minimum essential coverage for any month-(A) if such month occurs during any period
described in subparagraph (A) or (B) of section
911(d)(1) which is applicable to the individual,
or
(B) if such individual is a bona fide resident of
any possession of the United States (as
determined under section 937(a)) for such
month.
(5) Insurance-related terms.--Any term used in
this section which is also used in title I of the
Patient Protection and Affordable Care Act shall
have the same meaning as when used in such
title.
(g) Administration and procedure.-(1) In general.--The penalty provided by this
section shall be paid upon notice and demand by
the Secretary, and except as provided in
paragraph (2), shall be assessed and collected in
the same manner as an assessable penalty under
subchapter B of chapter 68.
(2) Special rules.--Notwithstanding any other
provision of law--

250a
(A) Waiver of criminal penalties.--In the
case of any failure by a taxpayer to timely pay
any penalty imposed by this section, such
taxpayer shall not be subject to any criminal
prosecution or penalty with respect to such
failure.
(B) Limitations on liens and levies.--The
Secretary shall not-(i) file notice of lien with respect to any
property of a taxpayer by reason of any
failure to pay the penalty imposed by this
section, or
(ii) levy on any such property with respect
to such failure.

251a
APPENDIX I
26 U.S.C. § 5000A
Requirement to maintain minimum essential
coverage
Effective: March 30, 2010 – December 21, 2017
(a) Requirement to maintain minimum
essential coverage.--An applicable individual shall
for each month beginning after 2013 ensure that the
individual, and any dependent of the individual who
is an applicable individual, is covered under
minimum essential coverage for such month.
(b) Shared responsibility payment.-(1) In general.--If a taxpayer who is an
applicable individual, or an applicable individual
for whom the taxpayer is liable under paragraph
(3), fails to meet the requirement of subsection (a)
for 1 or more months, then, except as provided in
subsection (e), there is hereby imposed on the
taxpayer a penalty with respect to such failures in
the amount determined under subsection (c).
(2) Inclusion with return.--Any penalty
imposed by this section with respect to any month
shall be included with a taxpayer's return under
chapter 1 for the taxable year which includes such
month.
(3) Payment of penalty.--If an individual with
respect to whom a penalty is imposed by this
section for any month-(A) is a dependent (as defined in section 152) of
another taxpayer for the other taxpayer's
taxable year including such month, such other
taxpayer shall be liable for such penalty, or

252a
(B) files a joint return for the taxable year
including such month, such individual and the
spouse of such individual shall be jointly liable
for such penalty.
(c) Amount of penalty.-(1) In general.--The amount of the penalty
imposed by this section on any taxpayer for any
taxable year with respect to failures described in
subsection (b)(1) shall be equal to the lesser of-(A) the sum of the monthly penalty amounts
determined under paragraph (2) for months in
the taxable year during which 1 or more such
failures occurred, or
(B) an amount equal to the national average
premium for qualified health plans which have
a bronze level of coverage, provide coverage for
the applicable family size involved, and are
offered through Exchanges for plan years
beginning in the calendar year with or within
which the taxable year ends.
(2) Monthly penalty amounts.--For purposes of
paragraph (1)(A), the monthly penalty amount
with respect to any taxpayer for any month during
which any failure described in subsection (b)(1)
occurred is an amount equal to 1/12 of the greater
of the following amounts:
(A) Flat dollar amount.--An amount equal to
the lesser of-(i) the sum of the applicable dollar amounts
for all individuals with respect to whom
such failure occurred during such month, or
(ii) 300 percent of the applicable dollar
amount (determined without regard to
paragraph (3)(C)) for the calendar year with
or within which the taxable year ends.

253a
(B) Percentage of income.--An amount
equal to the following percentage of the excess
of the taxpayer's household income for the
taxable year over the amount of gross income
specified in section 6012(a)(1) with respect to
the taxpayer for the taxable year:
(i) 1.0 percent for taxable years beginning
in 2014.
(ii) 2.0 percent for taxable years beginning
in 2015.
(iii) 2.5 percent for taxable years beginning
after 2015.
(3) Applicable dollar amount.--For purposes of
paragraph (1)-(A) In general.--Except as provided in
subparagraphs (B) and (C), the applicable
dollar amount is $695.
(B) Phase in.--The applicable dollar amount is
$95 for 2014 and $325 for 2015.
(C) Special rule for individuals under age
18.--If an applicable individual has not
attained the age of 18 as of the beginning of a
month, the applicable dollar amount with
respect to such individual for the month shall
be equal to one-half of the applicable dollar
amount for the calendar year in which the
month occurs.
(D) Indexing of amount.--In the case of any
calendar year beginning after 2016, the
applicable dollar amount shall be equal to
$695, increased by an amount equal to-(i) $695, multiplied by
(ii) the cost-of-living adjustment
determined under section 1(f)(3) for the
calendar year, determined by substituting

254a
“calendar year 2015” for “calendar year
1992” in subparagraph (B) thereof.
If the amount of any increase under clause
(i) is not a multiple of $50, such increase
shall be rounded to the next lowest multiple
of $50.
(4) Terms relating to income and families.-For purposes of this section-(A) Family size.--The family size involved
with respect to any taxpayer shall be equal to
the number of individuals for whom the
taxpayer is allowed a deduction under section
151 (relating to allowance of deduction for
personal exemptions) for the taxable year.
(B) Household income.--The term
“household income” means, with respect to any
taxpayer for any taxable year, an amount
equal to the sum of-(i) the modified adjusted gross income of
the taxpayer, plus
(ii) the aggregate modified adjusted gross
incomes of all other individuals who-(I) were taken into account in
determining the taxpayer's family size
under paragraph (1), and
(II) were required to file a return of tax
imposed by section 1 for the taxable
year.
(C) Modified adjusted gross income.--The
term “modified adjusted gross income” means
adjusted gross income increased by-(i) any amount excluded from gross income
under section 911, and
(ii) any amount of interest received or
accrued by the taxpayer during the taxable
year which is exempt from tax.

255a
[(D) Repealed. Pub.L. 111-152, Title I, §
1002(b)(1), Mar. 30, 2010, 124 Stat. 1032]
(d) Applicable individual.--For purposes of this
section-(1) In general.--The term “applicable individual”
means, with respect to any month, an individual
other than an individual described in paragraph
(2), (3), or (4).
(2) Religious exemptions.-(A) Religious conscience exemption.--Such
term shall not include any individual for any
month if such individual has in effect an
exemption under section 1311(d)(4)(H) of the
Patient Protection and Affordable Care Act
which certifies that such individual is-(i) a member of a recognized religious sect
or division thereof which is described in
section 1402(g)(1), and
(ii) an adherent of established tenets or
teachings of such sect or division as
described in such section.
(B) Health care sharing ministry.-(i) In general.--Such term shall not
include any individual for any month if
such individual is a member of a health
care sharing ministry for the month.
(ii) Health care sharing ministry.--The
term “health care sharing ministry” means
an organization-(I) which is described in section 501(c)(3)
and is exempt from taxation under
section 501(a),
(II) members of which share a common
set of ethical or religious beliefs and
share medical expenses among members
in accordance with those beliefs and

256a
without regard to the State in which a
member resides or is employed,
(III) members of which retain
membership even after they develop a
medical condition,
(IV) which (or a predecessor of which)
has been in existence at all times since
December 31, 1999, and medical
expenses of its members have been
shared continuously and without
interruption since at least December 31,
1999, and
(V) which conducts an annual audit
which is performed by an independent
certified public accounting firm in
accordance with generally accepted
accounting principles and which is made
available to the public upon request.
(3) Individuals not lawfully present.--Such
term shall not include an individual for any month
if for the month the individual is not a citizen or
national of the United States or an alien lawfully
present in the United States.
(4) Incarcerated individuals.--Such term shall
not include an individual for any month if for the
month the individual is incarcerated, other than
incarceration pending the disposition of charges.
(e) Exemptions.--No penalty shall be imposed under
subsection (a) with respect to-(1) Individuals who cannot afford coverage.-(A) In general.--Any applicable individual for
any month if the applicable individual's
required contribution (determined on an
annual basis) for coverage for the month
exceeds 8 percent of such individual's
household income for the taxable year

257a
described in section 1412(b)(1)(B) of the
Patient Protection and Affordable Care Act.
For purposes of applying this subparagraph,
the taxpayer's household income shall be
increased by any exclusion from gross income
for any portion of the required contribution
made through a salary reduction arrangement.
(B) Required contribution.--For purposes of
this paragraph, the term “required
contribution” means-(i) in the case of an individual eligible to
purchase minimum essential coverage
consisting of coverage through an eligibleemployer-sponsored plan, the portion of the
annual premium which would be paid by
the individual (without regard to whether
paid through salary reduction or otherwise)
for self-only coverage, or
(ii) in the case of an individual eligible only
to purchase minimum essential coverage
described in subsection (f)(1)(C), the annual
premium for the lowest cost bronze plan
available in the individual market through
the Exchange in the State in the rating
area in which the individual resides
(without regard to whether the individual
purchased a qualified health plan through
the Exchange), reduced by the amount of
the credit allowable under section 36B for
the taxable year (determined as if the
individual was covered by a qualified health
plan offered through the Exchange for the
entire taxable year).
(C) Special rules for individuals related to
employees.--For purposes of subparagraph
(B)(i), if an applicable individual is eligible for

258a
minimum essential coverage through an
employer by reason of a relationship to an
employee, the determination under
subparagraph (A) shall be made by reference
to1 required contribution of the employee.
(D) Indexing.--In the case of plan years
beginning in any calendar year after 2014,
subparagraph (A) shall be applied by
substituting for “8 percent” the percentage the
Secretary of Health and Human Services
determines reflects the excess of the rate of
premium growth between the preceding
calendar year and 2013 over the rate of income
growth for such period.
(2) Taxpayers with income below filing
threshold.--Any applicable individual for any
month during a calendar year if the individual's
household income for the taxable year described in
section 1412(b)(1)(B) of the Patient Protection and
Affordable Care Act is less than the amount of
gross income specified in section 6012(a)(1) with
respect to the taxpayer.
(3) Members of Indian tribes.--Any applicable
individual for any month during which the
individual is a member of an Indian tribe (as
defined in section 45A(c)(6)).
(4) Months during short coverage gaps.-(A) In general.--Any month the last day of
which occurred during a period in which the
applicable individual was not covered by
minimum essential coverage for a continuous
period of less than 3 months.
(B) Special rules.--For purposes of applying
this paragraph-(i) the length of a continuous period shall
be determined without regard to the

259a
calendar years in which months in such
period occur,
(ii) if a continuous period is greater than
the period allowed under subparagraph (A),
no exception shall be provided under this
paragraph for any month in the period, and
(iii) if there is more than 1 continuous
period described in subparagraph (A)
covering months in a calendar year, the
exception provided by this paragraph shall
only apply to months in the first of such
periods.
The Secretary shall prescribe rules for the
collection of the penalty imposed by this
section in cases where continuous periods
include months in more than 1 taxable
year.
(5) Hardships.--Any applicable individual who
for any month is determined by the Secretary of
Health and Human Services under section
1311(d)(4)(H) to have suffered a hardship with
respect to the capability to obtain coverage under
a qualified health plan.
(f) Minimum essential coverage.--For purposes of
this section-(1) In general.--The term “minimum essential
coverage” means any of the following:
(A) Government sponsored programs.-Coverage under-(i) the Medicare program under part A of
title XVIII of the Social Security Act,
(ii) the Medicaid program under title XIX of
the Social Security Act,
(iii) the CHIP program under title XXI of
the Social Security Act,

260a
(iv) medical coverage under chapter 55 of
title 10, United States Code, including
coverage under the TRICARE program;
(v) a health care program under chapter 17
or 18 of title 38, United States Code, as
determined by the Secretary of Veterans
Affairs, in coordination with the Secretary
of Health and Human Services and the
Secretary,
(vi) a health plan under section 2504(e) of
title 22, United States Code (relating to
Peace Corps volunteers);2 or
(vii) the Nonappropriated Fund Health
Benefits Program of the Department of
Defense, established under section 349 of
the National Defense Authorization Act for
Fiscal Year 1995 (Public Law 103-337; 10
U.S.C. 1587 note).
(B) Employer-sponsored plan.--Coverage
under an eligible employer-sponsored plan.
(C) Plans in the individual market.-Coverage under a health plan offered in the
individual market within a State.
(D) Grandfathered health plan.--Coverage
under a grandfathered health plan.
(E) Other coverage.--Such other health
benefits coverage, such as a State health
benefits risk pool, as the Secretary of Health
and Human Services, in coordination with the
Secretary, recognizes for purposes of this
subsection.
(2) Eligible employer-sponsored plan.--The
term “eligible employer-sponsored plan” means,
with respect to any employee, a group health plan
or group health insurance coverage offered by an
employer to the employee which is--

261a
(A) a governmental plan (within the meaning
of section 2791(d)(8) of the Public Health
Service Act), or
(B) any other plan or coverage offered in the
small or large group market within a State.
Such term shall include a grandfathered health
plan described in paragraph (1)(D) offered in a
group market.
(3) Excepted benefits not treated as
minimum essential coverage.--The term
“minimum essential coverage” shall not include
health insurance coverage which consists of
coverage of excepted benefits-(A) described in paragraph (1) of subsection (c)
of section 2791 of the Public Health Service
Act; or
(B) described in paragraph (2), (3), or (4) of
such subsection if the benefits are provided
under a separate policy, certificate, or contract
of insurance.
(4) Individuals residing outside United
States or residents of territories.--Any
applicable individual shall be treated as having
minimum essential coverage for any month-(A) if such month occurs during any period
described in subparagraph (A) or (B) of section
911(d)(1) which is applicable to the individual,
or
(B) if such individual is a bona fide resident of
any possession of the United States (as
determined under section 937(a)) for such
month.
(5) Insurance-related terms.--Any term used in
this section which is also used in title I of the
Patient Protection and Affordable Care Act shall

262a
have the same meaning as when used in such
title.
(g) Administration and procedure.-(1) In general.--The penalty provided by this
section shall be paid upon notice and demand by
the Secretary, and except as provided in
paragraph (2), shall be assessed and collected in
the same manner as an assessable penalty under
subchapter B of chapter 68.
(2) Special rules.--Notwithstanding any other
provision of law-(A) Waiver of criminal penalties.--In the
case of any failure by a taxpayer to timely pay
any penalty imposed by this section, such
taxpayer shall not be subject to any criminal
prosecution or penalty with respect to such
failure.
(B) Limitations on liens and levies.--The
Secretary shall not-(i) file notice of lien with respect to any
property of a taxpayer by reason of any
failure to pay the penalty imposed by this
section, or
(ii) levy on any such property with respect
to such failure.

263a
APPENDIX J
Public Law 115-97, 131 Stat 2054
UNITED STATES PUBLIC LAWS
115th Congress - First Session
Convening January 06, 2017
PL 115–97 [HR 1]
December 22, 2017
BUDGET FISCAL YEAR, 2018
An Act To provide for reconciliation pursuant to titles
II and V of the concurrent resolution on the budget
for fiscal year 2018.
Be it enacted by the Senate and House of
Representatives of the United States of America in
Congress assembled,
TITLE I
SECTION 11000. SHORT TITLE, ETC.
(a) AMENDMENT OF 1986 CODE.—Except as
otherwise expressly provided, whenever in this title
an amendment or repeal is expressed in terms of an
amendment to, or repeal of, a section or other
provision, the reference shall be considered to be
made to a section or other provision of the Internal
Revenue Code of 1986.
Subtitle A—Individual Tax Reform
[* * *]
PART VIII—INDIVIDUAL MANDATE
SEC. 11081. ELIMINATION OF SHARED
RESPONSIBILITY PAYMENT FOR
INDIVIDUALS FAILING TO MAINTAIN

264a
MINIMUM ESSENTIAL COVERAGE.
(a) IN GENERAL.—Section 5000A(c) is amended—
<< 26 USCA § 5000A >>
(1) in paragraph (2)(B)(iii), by striking “2.5 percent”
and inserting “Zero percent”, and
(2) in paragraph (3)—
<< 26 USCA § 5000A >>
(A) by striking “$695” in subparagraph (A) and
inserting “$0”, and
<< 26 USCA § 5000A >>
(B) by striking subparagraph (D).
<< 26 USCA § 5000A NOTE >>
(b) EFFECTIVE DATE.—The amendments made by
this section shall apply to months beginning after
December 31, 2018.
[* * *]
Approved December 22, 2017.
LEGISLATIVE HISTORY—H.R. 1 (S. 1):
HOUSE REPORTS: Nos. 115–409 (Comm. on Ways
and Means) and 115–466 (Comm. of Conference).
CONGRESSIONAL RECORD, Vol. 163 (2017):
Nov. 15, 16, considered and passed House.

265a
Nov. 29–Dec. 1, considered and passed Senate,
amended.
Dec. 19, House agreed to conference report. Senate
sustained point of order against conference report;
receded from its amendment and concurred with an
amendment.
Dec. 20, House concurred in Senate amendment.
DAILY
COMPILATION
DOCUMENTS (2017):

OF

Dec. 22, Presidential remarks.
PL 115-97, 2017 HR 1

PRESIDENTIAL

